<html>
<title> - THE STATE OF SECURITY AT THE DEPARTMENT OF ENERGY'S NUCLEAR WEAPON LABORATORIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  THE STATE OF SECURITY AT THE DEPARTMENT OF ENERGY'S NUCLEAR WEAPON 
                              LABORATORIES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 1999

                               __________

                           Serial No. 106-103

                               __________

            Printed for the use of the Committee on Commerce



                     U.S. GOVERNMENT PRINTING OFFICE
61-036 cc                    WASHINGTON : 2000




                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Browne, John C., Director, Los Alamos National Laboratory....   106
    Curran, Edward J., Director, Office of Counterintelligence, 
      U.S. Department of Energy..................................    17
    Habiger, Eugene E., Director, Office of Security and 
      Emergency Operations, U.S. Department of Energy............    12
    Podonsky, Glenn S., Director, Office of Independent Oversight 
      and Performance Assurance, U.S. Department of Energy.......     6
    Robinson, C. Paul, President and Laboratories Director, 
      Sandia National Laboratories...............................    50
    Tarter, C. Bruce, Director, Lawrence Livermore National 
      Laboratory.................................................    92
    Turner, James, Manager, Oakland Operations Office, U.S. 
      Department of Energy.......................................   101
    Weigand, Gil, Deputy Assistant Secretary, Strategic Computing 
      and Simulation, U.S. Department of Energy..................    97
Material submitted for the record by:
    Angell, John C., Assistant Secretary, Congressional and 
      Intergovernmental Affairs, Department of Energy:
        Letter dated December 14, 1999, to Hon. Fred Upton, 
          enclosing response for the record......................   140
        Letter dated June 16, 2000, to Hon. Fred Upton, enclosing 
          response for the record................................   212
    Browne, John C., Director, Los Alamos National Laboratory, 
      responses for the record...................................   168
    Inlow, Rush O., Deputy Manager, Albuquerque Operations 
      Office, Department of Energy:
        Letter dated November 29, 1999, to Hon. Fred Upton.......   121
        Letter dated December 13, 1999, to Hon. Fred Upton.......   126
    Podonsky, Glenn S., Director, Office of Independent Oversight 
      and Performance Assurance, U.S. Department of Energy, 
      responses for the record...................................   187
    Robinson, C. Paul, President and Laboratories Director, 
      Sandia National Laboratories, responses for the record.....   174
    Tarter, C. Bruce, Director, Lawrence Livermore National 
      Laboratory, letter dated December 13, 1999, to Hon. Fred 
      Upton, enclosing response for the record...................   129
    Turner, James, Manager, Oakland Operations Office, U.S. 
      Department of Energy, responses for the record.............   162

                                 (iii)

  


  THE STATE OF SECURITY AT THE DEPARTMENT OF ENERGY'S NUCLEAR WEAPON 
                              LABORATORIES

                              ----------                              


                       TUESDAY, OCTOBER 26, 1999

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Cox, Burr, Bilbray, 
Ganske, Bryant, Bliley, (ex officio), Stupak, and Green.
    Also present: Representative Wilson.
    Staff present: Tom DiLenge, majority counsel; Anthony 
Habib, legislative clerk; and Edith Holleman, minority counsel.
    Mr. Upton. Good morning. We are here today to conduct what 
will be our fourth public hearing this year to explore the 
critically important, and very troubling, issue of lax security 
at our Nation's key nuclear weapons laboratories. We will hear 
today from the top security advisors to Energy Secretary Bill 
Richardson, as well as the directors of Los Alamos, Lawrence 
Livermore, and Sandia National Laboratories.
    In particular, we will hear from the Department's chief 
internal inspector, Mr. Glenn Podonsky, whose team of 
inspectors recently concluded inspections at Los Alamos and 
Sandia. Mr. Podonsky previously testified before this 
subcommittee on his team's inspection of Lawrence Livermore. 
Taken together, these three inspection reports raise serious 
questions about the Department's ability to effectively run a 
national security apparatus.
    One of the most surprising, recurring findings in these 
reports is the lack of effective policy guidance by the 
Department on security matters. Given the fact that the 
Department has nearly 20 different security contractors or 
subcontractors at various sites across the country, one would 
think that the DOE would set clear requirements to assure some 
degree of nationwide consistency and some minimal level of 
security at each site. Yet the reality is far different.
    For example, the Department has long required that the labs 
take certain steps to ensure that foreign visitors or assignees 
and not spies, and that their access to sensitive information 
is adequately restricted. Yet the Department's guidance 
seemingly applies to only those foreign nationals physically 
located onsite. Thus, in the case of Lawrence Livermore for 
example, this policy was not applied to foreign nationals who 
had remote access to the lab's computers since they were not 
actually ``onsite.''
    Of course, such a distinction makes little common sense--
indeed, remote access may raise greater security concerns than 
onsite access since it is more difficult to determine whether 
the individual at the other end is, in fact, the authorized 
user. But it was not until the recent inspection by Mr. 
Podonsky's team that this practice was discovered and halted. 
The Department still has not addressed this question as a 
matter of policy, nor the related questions of how to deal with 
the other information sharing with offsite foreign nationals, 
including video- and tele-conferences or e-mail. Similarly, the 
Department has never had any policy that set minimum standards 
for computer password creation and use. Thus, the labs have 
done their own thing--in some cases, passwords were not used at 
all, while in other cases, passwords were common names and only 
a few characters in length, and often were not changed with any 
frequency. I find it hard to believe that this committee--which 
does not engage in classified computing and does not possess on 
its computer systems national security information--has a more 
stringent password controls than our Nation's nuclear weapon 
labs.
    And the generally poor state of unclassified computer 
security at these labs--what Mr. Podonsky calls their numerous 
potentially exploitable vulnerabilities--can also be traced 
back to the lack of any detailed policy from the Department in 
this area. At two of the labs, the inspection team found that 
the closed lab network could be penetrated from the outside 
through the Internet, while all of the labs suffered from 
general system weaknesses that permitted users, once on the 
system, to move freely among data bases, gain passwords, and 
access sensitive information without a need to know. With 
literally hundreds of foreign nationals authorized on these 
systems, including many from sensitive countries, the risk of 
disclosure of sensitive nuclear information, business 
proprietary data, or export-controlled materials is significant 
and certainly worrisome.
    It is ironic that a Department and laboratory management 
that prides itself in being on the cutting edge of research and 
technology has fallen so far short in this high-tech area. 
Indeed, Lawrence Livermore is supposed to be the Department's 
computer technology headquarters. It is clear that DOE policy 
in this area needs to be brought into the 1990's, and hopefully 
before we begin the next decade and get even further behind.
    We will hear today about how the Department is drafting 
policies to deal with remote access, computer passwords, fire 
walls, and the potential for unauthorized transfers or 
downloads of classified information, such as those allegedly 
performed by Wen Ho Lee. Yet, with the exception of the remote 
access issue, these problems were identified 5 years ago by 
both Mr. Podonsky's office and the Office of Safeguards and 
Securities. The response at the time, from both the labs and 
the DOE hierarchy, was that computer security wasn't worth the 
cost and that they were willing to accept the risk. I am 
pleased to see that the DOE management and the labs are now 
beginning to change their tune, but where is the accountability 
for years of negligence that may have seriously compromised our 
national security? Secretary Richardson boasts of recommending 
disciplinary action against a handful of lab employees for 
failing to take seriously the Wen Ho Lee counterintelligence 
case. Yet no one in the labs has been held accountable for the 
years of resistance to implementing sound computer security 
policies.
    This lack of accountability goes beyond the computer 
security area. We will hear today about how Los Alamos has made 
much progress over the last 6 months fixing a very troubling 
situation involving the protection of classified weapons 
parts--a problem that was first identified by the Department 
inspectors more than 5 years ago. Despite directives from the 
Department and agreed-upon action plans, Los Alamos failed to 
take any meaningful steps to correct this situation, year after 
year, such that the situation was essentially unchanged when 
the inspectors returned 3 years later in 1997. Inspections in 
1998 an 1999 revealed the same problems, but this time the wave 
of bad publicity about lab security seems to have prompted Los 
Alamos to begin corrective action to protect classified weapons 
parts.
    But did Los Alamos pay for its stubborn refusal to fix this 
problem? To the contrary--despite the significance of the long-
standing deficiencies, Los Alamos received excellent or 
similarly laudatory security ratings in its annual contract 
performance appraisals, increasing the bonuses that its senior 
management received from the U.S. taxpayers.
    As I said before, unless we have a rigorous annual 
inspection process that imposes real financial penalties on the 
labs for failing to comply with DOE's security requirements, I 
don't believe we will ever change the culture and achieve 
lasting security reform. The recently-passed Defense 
Authorization Act provides a framework for such action, but it 
will be up to the Department to take that authorization 
seriously and begin implementing serious contract and oversight 
reform.
    I have already begun discussions with the chairman of the 
full committee to perhaps allow a number of us to go out early 
next year to visit some of the labs, and I look forward to the 
cooperation by the Department to make sure that will go without 
a hitch.
    With that, I will recognize Mr. Green from Texas.
    Mr. Green. Thank you, Mr. Chairman. I will be brief.
    Thank you for scheduling today's hearing and keeping this 
issue on the front burner, so to speak.
    DOE has had problems for many years with regular, continued 
oversight. Hopefully, our subcommittee and Congress will be 
able to finally solve this decades-long problem. This committee 
is prepared to hear testimony from DOE about its plans to 
revamp and improve the security at our nuclear weapons 
laboratories. This time, I hope we will be able to see real 
progress on the security solutions at the Nation's labs.
    I especially look forward to the testimony of Mr. Podonsky, 
whose inspection teams recently completed security evaluations 
at both Los Alamos and Sandia National Labs. I appreciate all 
the hard work by the inspection teams in analyzing the 
strengths and weaknesses of the security in these labs. Our 
committee needs to look for solutions to the loss of the 
classified information.
    And, again, Mr. Chairman, thank you for holding this 
hearing. And, again, I appreciate the continued effort because 
long before we were in Congress, this was a problem. Maybe we 
can put this to rest and have DOE do what we need to do to 
protect the classified information.
    Mr. Upton. Thank you, Mr. Green.
    Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. I welcome our panel.
    The issues that we are addressing today are issues that 
have been before this committee during Republican and 
Democratic Congresses over a period of many years and that have 
been the subject of examination by the executive branch in a 
variety of ways, also over the last several years, including 
specifically the 1995 Galvin task force report, a half dozen 
GAO reports, the report of the Select Committee that I chaired, 
evaluations by the Intelligence Committees of the House and the 
Senate. The President's Foreign Intelligence Advisory this 
year, the PFIAB report, said the Department of Energy has had a 
dysfunctional management structure and culture that only 
occasionally gave proper credence to the need for security and 
counterintelligence programs at the weapons labs. That is a 
conclusion that I know, at least as of last year, Mr. Curran 
shared because he shared that with our Select Committee.
    Today, we are going to hear that DOE has finally gotten the 
message, that by the end of this year all of DOE's nuclear 
weapons labs will meet the highest security standards. Our 
concern, as you might expect, given this track record, is how 
to distinguish between these representations that everything is 
fine and those that we have received in the past. Over the past 
5 years DOE inspectors have repeatedly identified these very 
same problems, but still nothing changed. Each negative report 
has been met with earnest announcements that finally decisive 
action will be taken and these problems will be resolved.
    It was after these years of nonresponsiveness, including 
throughout 1\1/2\ terms of the Clinton administration itself, 
that President Clinton issued his Presidential decision 
Directive PDD-61, which ordered from the Presidential level 
counterintelligence measures at the nuclear weapons 
laboratories.
    Mr. Curran, who is before the committee today, made 46 
recommendations to implement PDD-61. Today, nearly a year 
later, at least 10 of those recommendations have not yet been 
implemented. Furthermore, some of the recommendations are 
worded such that the Secretary of Energy can claim 
implementation of a recommendation based on the issuance of an 
order in Washington, regardless of whether the changes were 
actually implemented at the labs.
    I appreciate this committee's continuing attention to the 
protection of our scientific and military information. It is 
only through sustained oversight and full implementation of the 
reform measures that you have all identified that we will be 
able to secure our information in the future and perform our 
tasks as we are supposed to do.
    I know that the history of this problem places a great 
burden on you as individuals. It likewise puts us in the 
position, as Congress, in the conduct of our oversight of Lucy, 
Charlie Brown and the famous football. We hope that this time 
what we're hearing is the truth, that--I know it has always 
been intended as the truth. It was intended as true as spoken, 
but we hope this time there will be change and follow-through, 
and by the end of this year, we will be in the Promised Land.
    And I appreciate the time for the opening statement, Mr. 
Chairman. I also apologize because, as you know, I have a bill 
on the floor; my Internet tax bill is the second on the 
schedule, and it will require me to be gone for about an hour 
of this hearing at some undetermined time; but I am of course 
very interested in these subjects and will do what I can to 
keep up with it even when I am not here.
    Mr. Upton. I appreciate that. I just hope that you call a 
recorded vote because I want to be on record in support of your 
bill.
    Mr. Burr?
    Mr. Burr. Thank you, Mr. Chairman. And I will be brief.
    I welcome our witnesses today and also pledge to the 
committee that Mr. Cox is right. We have a responsibility to 
follow up and to make sure that the efforts by the Department 
of Energy are in fact fulfilled. And for that reason, Mr. 
Chairman, I hope that this committee--subcommittee, full 
committee--will make an inspection of all the facilities after 
the first of the year; and if in fact the subcommittee or the 
full committee won't, I will promise our witnesses, I will.
    I yield back.
    Mr. Upton. Dr. Ganske, would you care to make a public 
opening statement?
    Mr. Ganske. Thank you, Mr. Chairman for holding the 
hearing, and I look forward to the testimony.
    Mr. Upton. Okay. We had alerted members of the Energy and 
Power Subcommittee that they would be welcome to sit in on the 
committee and ask questions, and with that in mind, I will 
recognize Mrs. Wilson for an opening statement.
    Mrs. Wilson. Thank you, Mr. Chairman. I appreciate your 
willingness to allow me to sit in on your subcommittee today. 
As you know, it is something of particular interest to me, both 
because of the district that I represent and because of my 
service on the Select Committee on Intelligence. I will be very 
interested to hear from the witnesses about a number of things.
    As all of you in the room know, there is a significant 
increase in funding for cyber security in this year's budget. I 
am interested to see what the plans are for meeting that 
emerging threat even in open, or in closed session, and how you 
are planning to implement change. There are a number of new 
authorities that are given to the Department of Energy in the 
Defense authorization bill and the Intelligence authorization 
bill this year with respect to security and safeguards. And 
what are your plans and where are we going from here?
    I am very interested to hear from the witnesses about that, 
and that also relates to the establishment of a new nuclear 
security agency, which came about precisely because of some of 
the problems that we are trying to oversee and investigate 
here. What is the plan for the transition to that new nuclear 
security agency and how are you going to integrate the need for 
continuing vigilance in safeguards and security in that 
transition?
    And I appreciate the willingness and the openness of the 
Chair to allow me to participate. Thank you.
    Mr. Upton. Thank you.
    We welcome as our first panel Mr. Glenn Podonsky, Director 
of the Office of Independent Oversight and Performance 
Assurance at the Department of Energy; General Eugene Habiger, 
Director of the Office of Security and Emergency Operations, 
also of the Department of Energy; Mr. Ed Curran, Director of 
the Office of Counterintelligence, Department of Energy.
    As two of you have testified before, you know that it is a 
long-standing tradition of this subcommittee to take testimony 
under oath. Do you have any objection to that?
    Mr. Curran. No, sir.
    Mr. Podonsky. No, sir.
    Mr. Habiger. No, sir.
    Mr. Upton. We also allow under House rules and committee 
rules you to have counsel available if you desire to have such. 
Do you need or desire to have counsel?
    Mr. Curran. No, sir.
    Mr. Upton. Stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Upton. You are now under oath.
    We actually have a new clock. The egg timer is going to the 
Smithsonian. We will see if this really does work. Your entire 
testimony is certainly made a part of the record, and I will 
start this over again. If you would limit your remarks to 5 
minutes, that would be terrific.

TESTIMONY OF GLENN S. PODONSKY, DIRECTOR, OFFICE OF INDEPENDENT 
    OVERSIGHT AND PERFORMANCE ASSURANCE; EUGENE E. HABIGER, 
  DIRECTOR, OFFICE OF SECURITY AND EMERGENCY OPERATIONS; AND 
EDWARD J. CURRAN, DIRECTOR, OFFICE OF COUNTERINTELLIGENCE, U.S. 
                      DEPARTMENT OF ENERGY

    Mr. Podonsky. Thank you, Mr. Chairman. I appreciate the 
opportunity to once again appear before this committee to 
discuss our independent oversight activities at the DOE 
national weapons laboratories. As you stated, I am the Director 
of the Office of Independent Oversight and Performance 
Assurance, which is responsible for providing the Secretary an 
independent, impartial view of the effectiveness of safeguards 
and security, cyber security, and emergency management policies 
and programs throughout the Department of Energy.
    My testimony will include an update on our follow-up 
efforts at Lawrence Livermore National Laboratory as well as a 
summary of our recent inspections at Los Alamos and Sandia 
National Laboratories.
    Let me first cover Lawrence Livermore National Laboratory. 
As you may recall, we provided classified briefings to the 
members of this committee on July 1 and July 20 of this year on 
the results of our May inspection of safeguards and security 
programs at the Lawrence Livermore National Lab. To summarize 
the results, we noted several positive attributes at the 
laboratory, including security upgrades in the Superblock, 
which is the building complex at Livermore where special 
nuclear material is used and stored.
    We also noted effective implementation of many of the 
aspects of the Secretary's upgrades and initiatives in the area 
of computer security, which is now referred to as ``cyber 
security'' and which encompasses the measures designed to 
protect information on DOE computer systems from unauthorized 
access from hackers who might try and penetrate the computer 
networks over the Internet, and from system users who could try 
and exploit vulnerabilities to gain access to information for 
which they are not authorized.
    However, there were weaknesses in protection of classified 
weapons parts. These are nonnuclear components of the nuclear 
weapons access controls at areas where classified weapons 
information was used and stored, and unclassified cyber 
security which refers to the cyber security measures designed 
to protect sensitive, but unclassified, information such as 
unclassified research data and medical records and the like.
    Also, Livermore had not done sufficient performance testing 
to demonstrate that the protective force could reliably perform 
its mission.
    We have scheduled a formal follow-up review at Livermore's 
site in December of this year. This review will include onsite 
reviews of Livermore safeguards and security programs as well 
as extensive scanning of the networks and penetration testing 
using techniques that hackers would use. The review will also 
include a detailed assessment of progress on the Livermore 
corrective action plan, including actions taken by headquarters 
and the Oakland operations office to support and verify the 
provisions of the Livermore corrective action plan.
    Although the formal review has not yet taken place, we have 
been closely monitoring the progress on the corrective action 
plan and have provided comments on several occasions. In 
general, we are satisfied that our findings are being addressed 
and that compensatory security measures have been put in place 
to provide additional security until final resolution of the 
identified issues.
    As part of our ongoing follow-up efforts we have been 
particularly focusing on Livermore vulnerability assessments 
and performance testing of the protective force's ability to 
respond effectively to defeat a terrorist attack at the 
Superblock. We recognize that Livermore faces some difficult 
situations as they try to improve their performance testing 
program while still ensuring that tests are conducted with the 
highest regard for safety. On several occasions, we have sent 
some of our inspectors out to Livermore to observe their 
planning efforts and performance tests and to provide 
constructive independent oversight input.
    Overall, we believe that Livermore has made improvements in 
their security posture in the Superblock, and the performance 
testing efforts are more rigorous and realistic. While much 
work remains to be accomplished, Livermore has demonstrated a 
rigorous approach to identifying and correcting weaknesses. If 
Livermore fully implements their current plans for upgrading 
their security posture and maintains the current attitude of 
continuous improvement, there is good reason to be optimistic 
that Livermore and the safeguards and security program will be 
improved by the time of our follow-up inspection.
    At Sandia National Laboratories in New Mexico we found 
effective programs in the areas of material control and 
accountability, protective force and physical security systems. 
Sandia has taken several actions to upgrade security, such as 
repositioning protective force members to provide tactical 
response, procuring armored vehicles with enhanced 
capabilities, adding barriers to protect the protective force 
members at the material access area entrance, and improving 
protective force training. While some weaknesses were 
identified in the vulnerability assessment and performance test 
arena, Sandia corrected the most significant issues promptly 
while we were there.
    Sandia also has generally adequate programs in the 
classified cyber security arena where they are further making 
improvements. Senior Sandia managers demonstrated their 
commitment to completing the enhancements identified in the 
Trilab nine-point plan----
    Your egg beater went off.
    Mr. Upton. I see that it did. I was wondering if it was 
going to ding. But you may continue.
    Mr. Podonsky. [continuing] they identified in their Trilab 
nine-point plan by allocating resources to achieve its 
provisions. Although programmatic strengths were noted at 
Sandia, there were weaknesses again in the unclassified cyber 
security, protection of classified parts, access controls in 
areas where classified matter is used and stored, and control 
of foreign visitors and assignees. For example, Sandia needs to 
strengthen the fire wall that protects the sensitive 
unclassified network from the open network and the Internet.
    Because of these weaknesses, Sandia received an overall 
marginal rating. A marginal rating is the middle rating in our 
three-tier rating system. The highest rating is satisfactory 
and the lowest is unsatisfactory. A marginal rating indicates 
that prompt attention and timely improvement is needed, but 
does not imply that special nuclear material or classified and 
sensitive information are at immediate risk.
    Sandia has submitted corrective action plans, as required, 
and independent oversight has provided comments to ensure that 
the issues are fully addressed. We plan a formal follow-up 
here, too, in December that will assess the progress and the 
status of the program. As with all of our follow-ups, we will 
review the status of the identified weak programs, perform 
extensive cyber security testing and review the corrective 
action plan.
    We performed our inspection at Los Alamos National 
Laboratory in August. Los Alamos earned an overall satisfactory 
rating. They have effectively addressed long-standing problems 
in the accountability of nuclear materials and made significant 
progress in addressing deficiencies in the protection of 
classified weapons parts. Los Alamos made additional 
improvements in the protection of classified weapons parts 
actually during our inspection. Los Alamos had also added 
protective force personnel and implemented a rigorous program 
to control the use of desktop computer modems. Classified cyber 
security programs were found to be adequate, and Los Alamos is 
making progress also on the Trilab nine-point plan.
    Additionally, Los Alamos has significantly reduced risks 
associated with weaknesses if unclassified cyber security 
systems by installing an effective fire wall configuration to 
prevent hackers from gaining access to sensitive networks.
    The most significant residual weakness was the ability of 
the unclassified cyber security program to protect against the 
insider threat. A particular concern related to foreign 
nationals that were permitted on the unclassified network which 
had numerous potentially exploitable weaknesses. During the 
inspection, Los Alamos developed and began implementing an 
effective plan to address the residual weaknesses, both short-
term and long-term. Although significant progress has been 
made, there is still work to be done in order to achieve the 
goal of fully satisfactory programs at all DOE sites.
    At the three national laboratories only Los Alamos receives 
and earns an overall satisfactory rating; the other 
laboratories were rated marginal. However, based on their 
corrective action plans, we believe that Livermore and Sandia 
are on the right track to make improvements needed to achieve 
the satisfactory rating. Although Los Alamos earned an overall 
satisfactory as with the other sites we plan to perform follow-
up activities and continue to monitor their progress.
    If I might, Mr. Chairman, in looking at the weaknesses in 
DOE safeguards and security for the last 15 years, it is 
important to keep a sense of perspective. In general, 
protection of our most critical assets such as nuclear weapons 
components and special nuclear material has improved 
significantly since the 1980's. While problems are still 
evident, they are generally degradations in one layer of a 
multilayered security system rather than the gaping holes of 
the type frequently noted in the 1980's.
    In addition, inspections indicate that sites are complying 
with the requirements for protecting classified documents, and 
classified computer systems are generally well protected from 
hackers. While the gaping holes have not reappeared, attention 
to security was very much in decline during the mid-90's, and 
some sites did not adequately analyze the impact of the cuts in 
security personnel or security measures before implementing 
those cuts.
    In our reviews of the national laboratories, it is very 
clear that laboratory management has heard the wakeup call from 
the Secretary and from the Congress. Safeguards and security is 
receiving a high level of attention from senior management, and 
we are seeing some improvements that could not have been made 
without management support and without Secretary Richardson's 
direct involvement. For example, the establishment of an 
effective fire wall and the consolidation of classified parts 
at Los Alamos were actions that we had previously experienced 
resistance by Los Alamos line managers because of the 
operational inconvenience. The need for these actions had been 
identified on previous inspection reviews, but were not 
implemented because safeguards and security was given 
relatively low priority.
    In the past year, however, we can report that senior 
management has increased emphasis on safeguards and security 
and many important enhancements have been implemented in a way 
that provides a better balance between safeguards and security 
and requirements and operational needs. One of the key elements 
of the recent progress that we have seen is accountability. 
Secretary Richardson has sent the message that senior DOE and 
contract managers are accountable for safeguards and security. 
The Secretary has stated that, ``People are getting the 
message'' and that ``we're serious about protecting our 
national secrets.'' The results of our recent inspections 
demonstrate that the message has been heard and that actions 
are being taken at all of our locations that we have inspected.
    In conclusion, it is clear that a positive trend has been 
established, but that a tremendous amount of work still remains 
to be accomplished. We will not be satisfied as an oversight 
body until all DOE sites achieve and maintain a fully 
satisfactory program. However, it is encouraging to note that 
safeguards and security programs at all three national weapons 
laboratories have received high levels of management attention 
over the past year, and there have been significant 
improvements.
    Thank you, Mr. Chairman.
    [The prepared statement of Glenn S. Podonsky follows:]
     Prepared Statement of Glenn S. Podonsky, Director, Office of 
  Independent Oversight and Performance Assurance, U.S. Department of 
                                 Energy
    Thank you Mr. Chairman. I appreciate the opportunity to once again 
appear before this committee to discuss our Independent Oversight 
activities at the DOE national weapons laboratories. I am the Director 
of the Office of Independent Oversight and Performance Assurance, which 
is responsible for providing the Secretary an independent, impartial 
view of the effectiveness of safeguards and security, cyber security, 
and emergency management policies and programs throughout the 
Department of Energy.
    This discussion will include an update on our follow-up efforts at 
the Lawrence Livermore National Laboratory, as well as a summary of the 
results of our recent inspections at the Los Alamos National Laboratory 
and Sandia National Laboratories.
    Let me first cover the Lawrence Livermore National Laboratory. As 
you may recall, we provided classified briefings to members of this 
committee on July 1st and July 20th on the results of our May 1999 
inspection of safeguards and security programs at the Lawrence 
Livermore National Laboratory. To summarize the results, we noted 
several positive attributes at the Lawrence Livermore National 
Laboratory including security upgrades in the Superblock (the building 
complex at Livermore where special nuclear material is used and 
stored). We also noted effective implementation of many aspects of the 
Secretary's upgrades and initiatives in the area of computer security, 
which is now referred to as ``cyber security'' and which encompasses 
the measures designed to protect information on DOE computer systems 
from unauthorized access from hackers who might try and penetrate 
computer networks over the Internet and from system users who could try 
and exploit vulnerabilities to gain access to information for which 
they are not authorized. However, there were weaknesses in protection 
of classified weapons parts (non-nuclear components of nuclear 
weapons), access controls at areas where classified weapons information 
was used and stored, and unclassified cyber security (which refers to 
the cyber security measures designed to protect sensitive but 
unclassified information, such as unclassified research data and 
medical records). Also, Livermore had not done sufficient performance 
testing to demonstrate that the protective force could reliably perform 
its mission.
    We have scheduled a formal follow-up review of the Lawrence 
Livermore site in December 1999. This review will include onsite 
reviews of Livermore safeguards and security programs as well as 
extensive scanning of the networks and penetration testing using 
techniques that hackers would use. The review will also include a 
detailed assessment of progress on the Livermore corrective action 
plan, including actions taken by Headquarters and the Oakland 
Operations Office to support and verify the provisions of the Livermore 
corrective action plan. Although the formal review has not yet taken 
place, we have been closely monitoring the progress on the corrective 
action plan and have provided comments on several occasions. In 
general, we are satisfied that our findings are being addressed and 
that compensatory security measures have been put in place to provide 
additional security until final resolution of the identified issues.
    As part of our ongoing follow-up efforts, we have been particularly 
focusing on Livermore vulnerability assessments and performance testing 
of the protective force's ability to respond effectively to defeat a 
terrorist attack at the Superblock. We recognize that Livermore faces 
some difficult situations as they try to improve their performance 
testing program, while still ensuring that tests are conducted with the 
highest regard for safety. On several occasions, we have sent some of 
our specialists to Livermore to observe their planning efforts and 
performance tests, and to provide constructive Independent Oversight 
input.
    Overall, we believe that Livermore has made improvements in their 
security posture in the Superblock and the performance testing efforts 
are more rigorous and realistic. While much work remains to be 
accomplished, Livermore has demonstrated a rigorous approach to 
identifying and correcting weaknesses. If Livermore fully implements 
their current plans for upgrading the security posture and maintains 
the current attitude of continuous improvement, there is good reason to 
be optimistic that the Livermore safeguards and security program will 
be much improved by the time of our follow-up review in December.
    At Sandia National Laboratories in New Mexico, we found effective 
programs in the areas of material control and accountability, the 
protective force, and physical security systems. Sandia has taken 
several actions to upgrade security, such as repositioning protective 
force members to improve tactical response, procuring armored vehicles 
with enhanced capabilities, adding barriers to protect the protective 
force members at the ``material access area'' entrance, and improving 
protective force training. While some weaknesses were identified in the 
vulnerability assessment and performance test arena, Sandia corrected 
the most significant issue promptly by adding the barriers at the 
material access area.
    Sandia also had generally adequate programs in the classified cyber 
security arena and were making further improvements. Senior Sandia 
managers demonstrated their commitment to completing the enhancements 
identified in the ``Tri-Lab nine point plan'' by allocating resources 
to achieve its provisions.
    Although programmatic strengths were noted at Sandia, there were 
weaknesses in unclassified cyber security, protection of classified 
parts, access controls in areas where classified matter is used and 
stored, and control of foreign visitors and assignees. For example, 
Sandia needs to strengthen the firewall that protects the sensitive 
unclassified network from the open network and the Internet. Because of 
these weaknesses, Sandia received an overall ``Marginal'' rating. A 
Marginal rating is the middle rating in OA's three tier rating system, 
the highest rating is Satisfactory and the lowest is Unsatisfactory. A 
Marginal rating indicates that prompt attention and timely improvement 
is needed but does not imply that special nuclear material or 
classified and sensitive information are at immediate risk.
    Sandia has submitted their corrective action plans as required and 
Independent Oversight has provided comments to ensure that the issues 
are fully addressed. We plan a formal follow-up review in December that 
will assess the progress and status of the program. As with all of our 
follow-up reviews, we will review the status of all identified weak 
programs, perform extensive cyber security testing, and review the 
corrective action plan provisions.
    We performed our inspection of the Los Alamos National Laboratory 
in August of 1999. Los Alamos earned an overall ``Satisfactory'' 
rating. Los Alamos had effectively addressed long-standing problems in 
the accountability of nuclear materials, and made significant progress 
in addressing deficiencies in the protection of classified weapons 
parts. Los Alamos made additional improvements in the protection of 
classified weapons parts during the inspection. Los Alamos had also 
added protective force personnel and implemented a rigorous program to 
control the use of desk top computer modems. Classified cyber security 
programs were found to be adequate, and Los Alamos is making progress 
on the ``Tri-Lab nine-point'' plan. Additionally, Los Alamos has 
significantly reduced risks associated with weaknesses in unclassified 
cyber security systems by installing an effective firewall 
configuration to prevent hackers from gaining access to sensitive 
networks.
    The most significant residual weakness was in the ability of the 
unclassified cyber security program to protect against the insider 
threat. A particular concern related to foreign nationals that were 
permitted on the unclassified network, which had numerous potentially 
exploitable weaknesses. During the inspection, Los Alamos developed and 
began implementing an effective plan to address the residual weaknesses 
both in the short term and long term.
    Although significant progress has been made, there is still work to 
be done in order to achieve the goal of fully satisfactory programs at 
all DOE sites. At the three national weapons laboratories, only the Los 
Alamos National Laboratory was assigned an overall Satisfactory rating. 
The other two laboratories were rated Marginal. However, based on their 
corrective action plans, we believe that Livermore and Sandia are on 
track to make improvements needed to achieve a Satisfactory rating. 
Although Los Alamos earned an overall ``Satisfactory'' rating, as with 
the other sites, we plan to perform follow-up activities and continue 
to monitor their progress in implementing their corrective action plan.
    In looking at the weaknesses in DOE safeguards and security 
programs, it is important to keep a sense of perspective. In general, 
protection of our most critical assets, such as nuclear weapons 
components and special nuclear materials, has improved significantly 
since the 1980s. While problems are still evident, they are generally 
degradations in one layer of a multi-layered security system rather 
than gaping holes of the type frequently noted in the 1980s. In 
addition, inspections indicate that sites are complying with 
requirements for protecting classified documents, and classified 
computer systems are generally well protected from hackers. While the 
gaping holes have not reappeared, attention to security was in decline 
during the mid-1990s and some sites did not adequately analyze the 
impact of cuts in security personnel or security measures before 
implementing those cuts.
    In our reviews of the national weapons laboratories, it is very 
clear that laboratory management has heard the wake up call from the 
Secretary. Safeguards and security is receiving a high level of 
attention from senior management and we are seeing some improvements 
that could not have been made without management support and Secretary 
Richardson's involvement. For example, the establishment of an 
effective firewall and the consolidation of classified parts at Los 
Alamos were actions that had previously been resisted by the Los Alamos 
line managers because of the operational inconvenience. The need for 
these actions had been identified on previous Independent Oversight 
reviews but were not implemented because safeguards and security was 
given relatively low priority. In the past year, however, senior 
management has increased emphasis on safeguards and security and many 
important enhancements have been implemented in a way that provides a 
better balance between safeguards and security requirements and 
operational needs.
    One of the key elements of the recent progress is increased 
accountability. Secretary Richardson has sent the message that senior 
DOE and contractor managers are accountable for safeguards and 
security. This has been accomplished through various measures; a few 
examples include:

<bullet> The reorganization of responsibilities at DOE Headquarters, 
        which established the Lead Program Secretarial Office as 
        responsible and accountable for safeguards and security
<bullet> The ``zero tolerance policy'' which establishes expectations 
        for safeguards and security and accountability at all levels of 
        line management from the first level supervisor to the 
        laboratory directors and to DOE operations office managers and 
        DOE program offices
    The Secretary has stated [quote] ``People are getting the message 
that we're serious about protecting our nation's secrets'' [unquote]. 
The results of our recent inspections demonstrate that the message has 
been heard and that actions are being taken to improve the safeguards 
and security posture at our national laboratories.
    In conclusion, it is clear that a positive trend has been 
established but that much work remains to be accomplished. We will not 
be satisfied until all DOE sites achieve and maintain a fully 
satisfactory program and establish processes for ensuring continuous 
improvement. However, it is encouraging to note that safeguards and 
security programs at all three national weapons laboratories have 
received high levels of management attention over the past year and 
there have been significant improvements.
    Thank you again Mr. Chairman, we are now ready for your questions.

    Mr. Upton. General Habiger.

                 TESTIMONY OF EUGENE E. HABIGER

    Mr. Habiger. Mr. Chairman, it is my first opportunity to 
testify before this committee.
    Mr. Upton. All of these butterflies flying all around.
    Mr. Habiger. As most of you are aware, Secretary Richardson 
asked me to become the Department Security Director in June. 
Since my arrival, I have visited all the Department's major 
sites, reviewed virtually all of our site protection plans, 
observed and participated in segments of our protective force 
training at our central training facility, examined our newly 
implemented cyber security procedures at our national 
laboratories, talked to hundreds of scientists and technicians 
and taken a DOE-administered polygraph. What I have found so 
far is this:
    First, it is clearly obvious that the Department reacted 
appropriately to the wakeup call received this past year with 
the uncovering of internal security problems and the 
publication of both the Cox and the Rudman reports.
    Second, security throughout the Department is being 
administered responsibly and conscientiously by dedicated hard-
working professionals who are firmly committed to protecting 
the national security assets which are entrusted to them.
    Finally, although we do have security issues which we must 
and will address, I found all sites that I have visited have 
the foundation to perform their security functions capably, 
given adequate resources.
    But I also discovered some troubling issues. First and 
foremost, it was apparent to me early on that the Department 
was extremely close to losing the confidence and special trust 
of both the American people and the Congress with respect to 
our ability to perform our security responsibilities.
    Second, and equally as important, I discovered that over 
the years the Department had lost its focus on security; and 
you said it best in your opening remarks, sir, that we had a 
dysfunctional organization. There was no office within the 
Department that had ultimate accountability for the security 
requirements for which DOE is responsible, nor was there any 
emphasis on individual accountability. By-products of this 
organizational dysfunction and lack of focus included a 
deterioration of security awareness and education, resulting in 
a failure to remind and educate our employees and contractors 
as to their personal security responsibilities and 
accountabilities.
    Finally, Congress, up to this point, has failed to fund the 
Department's fiscal year 2000 full budget amendment in order to 
make near- and long-term fixes. We have, Mr. Chairman, valid 
requirements in the area of cyber security to buy hardware 
encryption equipment and to train our systems administrators. 
We need to equip our protective forces with equipment to combat 
weapons of mass destruction, and we need program direction 
funds to stand up a viable foreign visitor access program, as 
well as an acceptable plutonium, uranium, and special nuclear 
materials control and accountability program.
    Simply stated, we have been given a mandate, but not the 
resources to accomplish that mandate. Though a series of 
comprehensive and sweeping initiatives by Secretary Richardson, 
the Department has, however, turned the corner, in my view, and 
has aggressively and dynamically changed the way it does its 
security business.
    Soon after coming on board, I put into motion an aggressive 
four-phased security campaign. In Phase I, which was completed 
in August, I initiated visits to all major DOE sites. We 
established a baseline from which to move forward. We found a 
number of things that needed to be fixed quickly, and we did 
that very, very quickly.
    Phase II, currently under way, I completed visits to the 
sites and issued or am in the process of issuing policy 
addressing key issues such as standardization of weapons for 
our protective forces, the requirement for our protective 
forces to keep a round in the chamber of their weapons while on 
duty. We weren't training the way we would fight. We now have 
policies which we never had before, which mandate the timely 
reporting of security incidents, the use of warning banners on 
computer systems and badge validation procedures.
    In the area of cyber security, the national laboratories 
have implemented numerous corrective actions. Key among them is 
a program to achieve physical incompatibility between removable 
media formats within common laboratory work areas.
    In Phase III, which will occur in January through March of 
next year, most of the new policies to fix security problems 
will have been implemented and I will revisit the field to 
establish the effectiveness of those policies.
    When we reach Phase IV in April to September of next year, 
proposed fixes will be in place and our efforts turned toward 
minor adjustments as we maintain our security program.
    Today, the Department of Energy is in a security 
environment decidedly different from the one we faced a decade 
earlier. There is a growing concern about a new breed of 
threats that confront the Department and the Nation's security 
structures. Terrorism, weapons of mass destruction and cyber 
attacks on information systems have become ingrained in the 
global psyche and our Nation's security consciousness. This is 
a significant challenge, Mr. Chairman, but one that the 
Department of Energy is prepared to meet.
    [The prepared statement of Eugene E. Habiger follows:]
   Prepared Statement of Eugene E. Habiger, General, USAF (Retired), 
Director, Office of Security and Emergency Operations, U.S. Department 
                               of Energy
    I would like to thank the Chairman and Members of the Committee for 
the opportunity to speak with you today regarding the current status of 
security at the Department of Energy.
    As most of you are aware, Secretary Richardson asked me to become 
the Department's Security director in June. Since my arrival at the 
Department, I have visited all of the Department's major sites . . . 
Reviewed virtually all of our site security plans . . . Observed and 
participated in segments of our protective force training at our 
training facility in Albuquerque, New Mexico . . . Examined our newly 
implemented cyber security procedures at our national laboratories . . 
. Talked to hundreds of scientists and technicians . . . And, taken a 
DOE-administered polygraph.
    What I have found so far is this:
    First, it is clearly obvious that the Department reacted 
appropriately to the ``wake up call'' received this past year with the 
uncovering of internal security problems and the publication of both 
the Cox and Rudman reports.
    Second, security throughout the Department is being administered 
responsibly and conscientiously by dedicated, hard working 
professionals who are firmly committed to protecting the critical 
national security assets which are entrusted to them. The 
responsibilities of these individuals are demanding--yet, despite the 
obvious challenges, they continue to perform in an outstanding manner.
    Finally, although we do have security issues which we must, and 
will, address, I found all sites that I have visited have the 
foundation to perform their security functions capably given adequate 
resources.
    But I also discovered several troubling issues.
    First and foremost, it was apparent to me early on that the 
Department was extremely close to losing the confidence and trust of 
both the American people and the Congress with respect to our ability 
to perform our security responsibilities. The enormous media coverage 
surrounding recent security related events coupled with DOE's 
historical track-record of security deficiencies added to this erosion 
of public trust.
    Secondly and equally as important, I discovered that over the years 
the Department had lost its focus on security. The Secretary on several 
occasions has referred to the Department as being a group of fiefdoms 
within fiefdoms--and almost every fiefdom had its own security 
responsibility and security budget. There was no office within the 
Department who had ultimate accountability for the critical security 
requirements for which DOE is responsible nor was there any emphasis on 
individual accountability. By-products of this organizational 
dysfunction and lack of focus included: a deterioration of security 
awareness and education resulting in a failure to remind and educate 
our employees and contractors as to their personal security 
responsibilities and accountabilities . . . lack of attention to our 
cyber security practices in a world of increased computer hacking and 
cyber terrorism . . . And, a gradual erosion of resources required to 
improve our capabilities to combat ever-changing terrorist and cyber-
terrorist threats.
    And finally, Congress has, up to this point, failed to fund the 
Department's FY2000 full budget amendment in order to make near and 
long-term fixes. We have valid requirements in the area of cyber-
security to buy hardware, encryption equipment and to train our system 
administrators. We need to equip our protective forces to combat 
weapons of mass destruction . . . to fully arm the headquarters 
protective forces and complete our headquarters security upgrades . . . 
And, we need program direction funds to stand up a robust foreign 
visitor access program as well as an acceptable plutonium, uranium and 
special nuclear materials control and accountability program and bring 
about our new organization. Simply stated, we have been given a mandate 
but not the additional resources to accomplish that mandate.
    Through a series of comprehensive and sweeping initiatives by 
Secretary Richardson, however, the Department has turned the corner and 
has aggressively and dynamically changed the way it does its security 
business.
    In May of this year Secretary Richardson announced his Security 
Reform Package--the most sweeping reform of security programs in the 
Department's history. This comprehensive plan involved the creation of 
my office--the Office of Security and Emergency Operations, and the 
elevation and revitalization of Mr. Glenn Podonsky's Office of 
Independent Oversight and Performance Assurance. In the words of 
Secretary Richardson, ``this plan gives DOE the tools and authority we 
need to detect security infractions, correct institutional problems and 
protect America's nuclear secrets.'' Glenn and I are working closely 
together to ensure an integrated approach to policy development and 
oversight.
    The foundation of the Secretary's security reform plan is his 
policy statement regarding security incidents and violations. In his 
statement, the Secretary established an expectation of personal 
accountability by DOE employees and contractors for protecting DOE's 
national security assets. The Secretary further established a policy of 
zero tolerance for violations of security requirements that could place 
nuclear or other sensitive information at risk.
    Another important step was to change the way the Department managed 
its security responsibilities. In this regard, the Secretary worked 
diligently to remove the organizational barriers that had historically 
impeded the Department's ability to effectively and efficiently 
implement a comprehensive security program within the Department.
    Soon after coming on board I put in motion an aggressive, Four-
Phased Security Campaign. In Phase I, which was completed in August, I 
initiated visits to each of the DOE sites in the field, and established 
a baseline from which to move forward. Areas requiring immediate fixes 
were identified. During this period, a complex-wide security stand-down 
was conducted to promote security awareness as an individual 
responsibility. New policy was issued for foreign visitors who visit 
our facilities to ensure that the tightest possible security procedures 
are followed.
    In Phase II, currently underway, I completed visits to the sites 
and issued, or am in the process of issuing, policy addressing key 
issues, such as: Standardized Weapons for Protective Forces, and the 
requirement for protective forces to keep a round in the chamber of 
weapons carried while on duty. We now have policies which mandate the 
timely reporting of security incidents, the use of warning banners on 
computer systems, and badge validation procedures. We are developing an 
integrated security awareness training curriculum. Two very similar 
personal security assurance programs will be combined into a single 
departmental Human Reliability Program to eliminate redundancy and 
streamline the administration process. In the area of cyber-security, 
the National Laboratories have implemented numerous corrective actions. 
Key among these is a program to achieve physical incompatibility 
between removable media formats within common laboratory work areas. We 
are taking this sweeping action in an effort to prevent the intentional 
or inadvertent transfer of classified information from classified to 
unclassified systems or to a media format easily concealed and removed. 
In related efforts, the laboratories will continue to search 
unclassified archives and to monitor outgoing e-mail messages for 
classified content. We are also developing a comprehensive set of 
metrics to make sure we are making continuous improvements.
    Phase III will occur in January to March of 2000, at which time 
most new policies to fix security will have been implemented. I will 
revisit the field to evaluate the effectiveness of the policies and to 
define metrics to be used for future assessments. At this stage, most 
of the major security concerns will be fixed and the focus turned to 
improvements and enhancements.
    When we reach Phase IV in April to September of 2000, proposed 
fixes will be in place and our efforts turned toward adjustments, as we 
maintain our security program. A critical activity here will be 
continuous feedback from the field, scheduled visits to the field, and 
regularly held meetings with representatives from all sites to exchange 
lessons learned and best practices.
    Successful implementation of our security responsibilities will 
also depend on a focused and well-defined mission and management 
structure that addresses policy and decision making, personnel and 
budget resources, planning and program execution. Therefore, we are 
reconstituting available resources into a robust, responsive, and 
unified safeguards and security organization. This was the Secretary's 
intent when he announced his security reform initiative; and we are 
making real progress.
    Our workforce--both Federal and contractor--is the most critical 
link in the chain of protection of security interests. Consequently, we 
are instilling a sense of urgency and corporate ownership among all 
Department of Energy employees and contractors, not just those that 
have security as part of their job descriptions. This is being 
accomplished through renewed emphasis on a meaningful enforcement 
program that holds individuals accountable should they violate their 
security responsibilities.
    We are enhancing our efforts to ensure that employees are fully 
aware of their own individual protection responsibilities. The granting 
of a security clearance carries with it a very serious obligation to 
protect the sensitive and critical assets entrusted to one's care. We 
have mounted an aggressive and comprehensive security education and 
awareness campaign to remind each and every individual of their 
obligations.
    For those individuals whose primary duties relate to the protection 
of national security assets (that is, our security professionals), we 
are instituting a comprehensive career development initiative that 
establishes a centrally managed competency based promotion and 
assignments program designed to institute staffing uniformity and 
enhanced operability throughout the complex. This program is an 
adaptation of existing programs in place with other government 
agencies, the military and private industry. It represents what I 
believe to be a ``best practice'' in the area of career development.
    Finally, recognizing our critical role in the national security 
community, we are institutionalizing my office as the principal 
security coordinator for the Department in developing inter- and intra-
agency partnerships. In so doing we actively contribute to the 
protection of the Nation's energy infrastructure and leverage 
technology and, as applicable, expertise into the international 
security community dealing with nuclear safeguards and security.
    Today, the Department of Energy functions in a security environment 
decidedly different from the one we faced a decade earlier. There is 
growing concern about a new breed of threats that confront the 
Department and the Nation's security structures. Terrorism, Weapons of 
Mass Destruction and cyber attacks on information systems have become 
ingrained in the global psyche and in our nation's security 
consciousness. These non-traditional, multi-directional threats are 
testing security resolve and capabilities as never before.
    We cannot control or alter the threats to the security interests 
entrusted to our care. What can be controlled, however, is our ability 
to plan and respond to threats should they ever materialize. The 
changing security environment and other threats over the past decade 
have fundamentally altered the Department's security perspective and 
posture. This is a significant challenge, but one that the Department 
of Energy is prepared to meet.

    Mr. Upton. Thank you. Pretty close on the time as well.
    Mr. Curran.

                  TESTIMONY OF EDWARD J. CURRAN

    Mr. Curran. Good morning. Mr. Chairman, I am happy to be 
here this morning to discuss the state of counterintelligence 
at the Department of Energy. As you are aware, I have been the 
Director of the Office of Counterintelligence at DOE since 
April 1, 1998. In the 1\1/2\ years since I have assumed this 
position, I believe DOE has made significant progress toward 
developing an effective and efficient program to protect DOE 
personnel and facilities, as well as classified and sensitive 
unclassified information on foreign intelligence threats. This 
progress would not have been possible without the strong 
support of Secretary Bill Richardson and the Congress.
    Before I discuss the specific progress that has been made 
to date, I would like to provide some background on the 
counterintelligence at DOE.
    PDD-61, captioned U.S. Department of Energy 
Counterintelligence Program, was signed by President Clinton on 
February 11, 1998. The PDD was the result of numerous General 
Accounting Office reviews, United States intelligence community 
assessments, and a Federal Bureau of Investigation study 
directed by the Senate Select Committee on Intelligence in 
April 1997. The PDD required that I prepare a report for the 
Secretary of Energy 90 days after my arrival to include an 
assessment of the current state of DOE's CI program, a 
strategic plan for achieving long-term goals and objectives of 
the PDD, and an action plan for near-term measures to reduce 
the foreign intelligence threat to DOE laboratories.
    To accomplish this effort, I pulled together a team of CI 
experts, security professionals, and individuals with cyber 
expertise from throughout the Intelligence Community. The 
resulting report, captioned Mapping the Future of the 
Department of Energy's Counterintelligence Program, hereinafter 
referred to as the 90-Day Study, identified many deficiencies 
in DOE's CI program and further verified that the program 
didn't meet minimal standards.
    The review was initiated on April 1, 1998, and concluded on 
July 1, 1998, when the 90-Day Study was submitted to the 
Secretary of Energy, the Secretary of Defense, the Attorney 
General, the Director of Central Intelligence and the Director 
of the FBI. The report made 46 concrete recommendations to 
improve the effectiveness and efficiency of the DOE CI program.
    On November 13, 1998, Secretary Richardson approved 
virtually all of the 46 recommendations identified in the 90-
Day Study and furnished DOE's CI action plan to Mr. Sandy 
Berger, Assistant to the President for National Security 
Affairs. In the Secretary's CI action plan, my office was 
directed to prepare a CI implementation plan within 45 days of 
the issuance of the action plan. This OCI implementation plan 
was delivered to the Office of Secretary on February 3, 1999. 
In the implementation plan, we assigned individual offices 
primary and supporting responsibility for each recommendation. 
We have since prioritized the 46 recommendations into three 
different tiers.
    I would like to assure you that even while my office was 
preparing the CI implementation plan we were also in the 
process of implementing many of the 90-Day Study's 
recommendations. I am pleased to inform you that, to date, 
approximately 75 percent of the 46 recommendations have been 
implemented. Furthermore, almost 95 percent of the 24 Tier I 
recommendations have been implemented.
    I would like to take a few minutes to identify some of 
these implementation successes and elaborate on many of the 
procedures we have already put into place to address the 
deficiencies in DOE's CI program.
    The most important part of developing a world-class CI 
program is, of course, the resources. Historically, the DOE CI 
program has been underfunded and skills mix of the employees 
has been insufficient to effectively execute a complex-wide CI 
mission. Currently, the Department has over 110,000 cleared 
individuals placed in 50 laboratories and facilities, most of 
which are under separate contracts. These laboratories and 
facilities house most of the Nation's premier scientists' 
research and development and the most sophisticated technology 
applications in the world. Yet when I came on board in April, 
1998 to head the Department's CI efforts, DOE had only seven 
full-time Federal employees at the headquarters dedicated to 
the CI mission and just a few untrained CI officers in the 
field. Seven of these CI officers reported to their separate 
laboratories or facility management without any consolidated 
headquarters oversight or direction for their programs.
    Today, I have a staff of 130 Federal, contractor, and 
Intelligence Community CI professionals. I expect this number 
to increase to 156 by the end of this fiscal year. Next fiscal 
year, it is our goal to hire a significant amount of CI-cyber 
experts and place them at select DOE facilities. Importantly, 
at each of the five weapons laboratories, I have hired with the 
cooperation of all the lab directors seasoned CI professionals, 
all of whom are retired FBI special agents. These CI officers 
are no longer buried in the local bureaucracy. They have direct 
access to me and to the laboratory director should they need to 
discuss a CI matter.
    The DOE CI program began in 1988, and from its inception 
through 1996 the Department spent less than $3 million annually 
on counterintelligence. In fiscal years 1997 and 1998, the 
Intelligence Committees approved a supplement for DOE's CI 
budget based on numerous GAO reports and their continued 
significant concerns regarding visitors at the laboratories. 
This supplement brought the total CI program funding to $6.6 
million in 1997, and $7.6 million in the 1998. Since my 
appointment in April of last year, I have successfully 
increased DOE's CI budget from $7.6 million to $15.6 for fiscal 
year 1999, and $39.2 million, which includes $8 million for CI 
cyber initiatives, for this fiscal year.
    This very tedious and exhaustive effort was accomplished 
with exceptional support from Secretary Richardson and members 
of the House Armed Services Committee and the House and Senate 
Select Committees on Intelligence. Without their continued 
support and push for adequate financing, none of the 
improvements to DOE's CI program, which I am about to describe, 
would have been possible.
    Direct funding, along with headquarter's OCI control and 
direction of funds to the laboratories and other DOE facilities 
is the cornerstone of the 90-Day Study, the CI action plan and 
the CI implementation plan and an overall effective CI program 
at DOE. Without this level of control, meaningful oversight is 
impossible. Direct funding has helped us to have great control 
over allocation of resources to the priorities I have set for 
the CI program. I would like to share with you these 
programmatic priorities and the efforts OCI is undertaking to 
improve the DOE CI program.
    First, I will highlight some of the very critical and 
necessary changes in day-to-day operations of the CI effort at 
DOE headquarters. As a result of PDD-61, a new independent 
Office of Counterintelligence was created that reports directly 
to the Secretary of Energy. As Director of OCI, the PDD gives 
me direct CI policy development, implementation and oversight 
responsibilities for all CI activities throughout DOE. The 
Secretary signed a delegation order confirming those 
responsibilities and delegating to me the appropriate authority 
to execute them. In addition to my direct reporting and access 
to the Secretary on CI issues, on a regular biweekly basis, I 
meet with Under Secretary Moniz and Deputy Secretary Glauthier 
on CI issues or as need arises. Mr. Sanchez from the Office of 
Intelligence and I both participate in these meetings since our 
offices work very, very closely together.
    As a result of the 90-Day Study findings, I determined that 
the optimal OCI organizational structure includes six distinct 
areas: analysis, investigations, CI-cyber training, 
inspections, and a CI evaluation board. Importantly, each of 
these programs must operate as a single, integrated program. 
None of them, taken in isolation, would constitute a viable CI 
program.
    The analysis program is headed by an experienced analyst 
detailed from the FBI with over 8 years of specific analytical 
experience. Her deputy is a detailee from the FBI with 
analytical experience. They both are very familiar with DOE, 
since they participated in the FBI study of DOE directed by the 
Senate Select Committee, which I previously mentioned. They 
have six analysts currently working for them and are in the 
process of hiring several more experienced analysts. We expect 
to place CI analysts at five laboratories this fiscal year.
    In my opinion, DOE has a wealth of information which has 
not been analytically exploited in the past. The reports we 
have produced and will be producing are obviously of great 
importance to DOE, but also to the Intelligence Community.
    For example, a DOE CI analyst played an extremely important 
role in the preparation of the first annual threat assessment 
prepared by the National Counterintelligence Center at the 
direction of the DCI, published in November of last year. This 
report is required on an annual basis as a result of PDD-61.
    OCI analysts are currently playing a critical role in the 
second annual PDD-61-mandated threat assessment which should be 
published next month. These reports are a direct result of the 
President's direction and represent meaningful impact to DOE 
that I have not seen in the past. In my opinion, if it were not 
for the tenacious efforts by my DOE analysts in this annual 
effort, the reports would have been far less meaningful than 
they are.
    The analysis program has written and will continue to write 
foreign intelligence threat assessments resulting from DOE's 
extensive interaction with DOE-sensitive countries. As the U.S. 
Government's technical advisor to various bilateral and 
multilateral nonproliferation and arms control initiatives, DOE 
hosts hundreds of sensitive country foreign nationals each 
year, and DOE officials are frequent travelers to sensitive 
countries.
    The analysis program is also in the midst of a study of 
potential economic espionage at the laboratories. The 
laboratories engage in cooperative research and development 
agreements, CRADAs, with private industry. OCI wants to ensure 
that proprietary economic information is being properly 
protected.
    The projects I mentioned above are expensive, but the 
results and benefits to DOE and the Intelligence Community will 
allow us to detect and work toward neutralizing foreign 
intelligence activities directed at DOE. These products also 
provide our policymakers with the information they need to make 
national policy decisions.
    The investigations program is headed by another FBI 
supervisor, currently on detail from the FBI, with over 20 
years' experience in foreign counterintelligence. His primary 
responsibility is to ensure that any instances in which 
classified information is being or may have been compromised to 
an unauthorized party are reported to the FBI. I will continue 
to staff this program with qualified and experienced 
investigators.
    The CI cyber program is headed by an employee from the 
FBI's National Infrastructure Protection Center. The CI cyber 
program director serves as OCI's representative to DOE's 
critical infrastructure protection task force. Her daily 
activities include interaction with DOE headquarters and 
laboratory computer professionals, as well as the NIPC. With 
the additional $8 million OCI received for cyber programs in 
fiscal year 2000, we are implementing some of the 
recommendations in the 90-Day Study.
    One of the 90-Day Study's recommendations was the 
development and implementation of a complex-wide strategy to 
address the potential CI implications of e-mail. As mentioned 
before, the CI program will significantly enhance the number of 
CI experts this fiscal year in order to further develop field 
intrusion detection and analysis abilities. CI cyber personnel 
require skills in both computer security and 
counterintelligence.
    A DOE Federal employee heads our training program. The 
purpose of the training program is threefold: to formulate an 
in-house program to train our own CI personnel, to provide 
professional awareness briefings and debriefings for our 
scientists traveling to sensitive countries, and to provide 
awareness briefings for the general DOE population who have an 
interface with foreigners so that they become sensitive to CI-
related issues. Professional training for CI officers has been 
reoriented to focus on core skills necessary to be an effective 
CI person.
    I would like to provide some examples of our current 
outreach and awareness training efforts to the DOE population. 
The OCI currently has CI professionals assigned to DOE highly 
enriched uranium transparency program. This person is 
responsible for all related CI issues and team briefings and 
debriefings. He is accepted and trusted as a total team member 
and the members are willing to address sensitive CI issues with 
him. I have established the same relationship with scientists 
and DOE employees associated with the Materials Protection and 
Accounting Program, the largest program within DOE dealing with 
the Russians, the Initiative for Proliferation Prevention, the 
Nuclear Cities Initiative, and the China Arms Control Exchange 
by assigning a CI officer to each team. Assigning a CI officer 
to all such programs within DOE will help us to achieve our 
goal of briefing and debriefing all personnel traveling to 
sensitive countries. Our CI goal is not only to protect 
technology, but the programs involving DOE personnel.
    Inspections: We have established an internal inspection 
process required by PDD-61. There are two teams available at 
any given time to complete these inspections. One team is 
headed by a retired FBI agent who was the former Assistant 
Director in charge of the Washington field office and was 
previously the Deputy Director in the FBI's Inspection 
Division. The second team is headed by a former Special Agent 
who retired from the FBI as the Special Agent in charge of the 
Springfield office and was also an inspector in the FBI's 
Inspection Division. Both of these individuals have over 25 
years' experience in the FBI and specifically in the CI arena. 
The inspection teams are supported by experienced retired FBI 
and law enforcement officers who are experts in gathering 
information and resolving complex cases. The teams have been 
augmented by senior retired personnel security experts from 
DOE, along with retired laboratory scientists.
    As of this date two inspections have taken place: Los 
Alamos National Laboratory and Lawrence Livermore National 
Laboratory. A third inspection of Sandia National Laboratories 
is under way this week. All DOE facilities are subject to CI 
inspection, and we have scheduled 12 facilities for inspection 
next calendar year. The results of the first two inspections 
have been provided to me and Secretary Richardson.
    In brief, these results show that significant improvements 
have been made in the CI programs in these laboratories since 
PDD-61 was signed. I will provide summaries of these 
inspections to Congress in the annual report on 
counterintelligence and security practices at the national 
laboratories as mandated by the National Defense Authorization 
Act for fiscal year 2000. Any significant CI relevant events 
will be provided to you immediately.
    The CI Evaluations Board: PDD-61 authorized the use of many 
tools designed to reduce the threat to classified and sensitive 
information at DOE and its field activities. The polygraph was 
specifically cited as being one of the tools which OCI, in 
coordination with the DOE Office of Security Affairs, may use 
to enhance the DOE CI program. Research and analysis conducted 
for the 90-Day Study all indicated that the polygraph was one 
tool that could be used to enhance the effectiveness of the CI 
program.
    OCI's Counterintelligence Evaluation Board is responsible 
for implementing the DOE CI polygraph program. A senior OCI 
officer is leading OCI's CIEB. I must stress that the polygraph 
program is only one of six elements of the DOE CI program; it 
cannot be considered in isolation. I do not believe that the 
polygraph is a CI panacea or an infallible CI tool. However, I 
do believe that the polygraph serves as a valuable deterrent to 
individuals who currently have direct or indirect access to 
classified information and may be contemplating espionage.
    I also believe the polygraph serves as a constructive 
screening device for individuals applying for positions 
requiring access to classified and/or sensitive unclassified 
information. The polygraph can also be used effectively as an 
exculpatory tool. The purpose of the polygraph program is to 
protect U.S. national security by attempting to determine if 
anyone with access has engaged in espionage, sabotage or 
terrorism or has had unauthorized contact with foreign 
nationals or disclosed classified information in an 
unauthorized manner.
    I am extremely sensitive to the anxiety that the polygraph 
program has caused in the Department. I want to stress that we 
are only going to be administering the polygraph and 
examinations to a small percentage of DOE employees having 
access to the most sensitive high-risk national security 
programs. These programs include Special Access Programs; 
Sensitive Compartmented Information, SCI; Personnel Security 
and Assurance Program, and the Personnel Assurance Program 
known as PAPS. The latter two programs involve DOE employees 
who are involved in the design of nuclear weapons and those who 
have direct access to nuclear weapons.
    OCI has made every effort to reach out to potentially 
affected personnel to explain the polygraph. Technical 
briefings for employees of Sandia, Lawrence Livermore, Los 
Alamos National Laboratories were held last month. In 
accordance with the rulemaking process, OCI participated with 
General Habiger, Director of the Office of Security and 
Operations in public hearings. The public hearings were held at 
Lawrence Livermore National Laboratory in September 1999; 
Sandia National Laboratory on September 16; Los Alamos, 
September 17; and Washington, DC, here, September 22.
    Additionally, as you are aware, I provided a briefing on 
the polygraph program to this subcommittee on October 4. We 
also briefed the White House science advisor on the some 
program.
    While DOE has approved a notice on the polygraph program, 
it only applies to DOE Federal employees. We're currently in 
the latter stages of an Office of Personnel Management-mandated 
rulemaking process to develop regulations for applying the 
program to DOE contractors. DOE contractors constitute the 
majority of individuals in the aforementioned high-risk 
national security programs.
    As DOE participates in the rulemaking process necessary to 
apply to the polygraph program to DOE contractors, we have been 
simultaneously administering the polygraph to DOE Federal 
employees and volunteering contract employees in OCI and the 
Office of Environment, Safety and Health. Additionally, some 
high-level Department officials, including the Secretary, 
Deputy Secretary and Under Secretary have taken the polygraph. 
I was the first to volunteer to take the polygraph last year. 
Overall, approximately 85 personnel have been administered and 
passed a CI-scope polygraph thus far.
    To ensure quality control, the polygraph program is managed 
by an individual that has been the quality control on 
polygraphs for DOE since 1991. He is the Director of Quality 
Control for the American Association of Police Polygraph 
Examiners and subcommittee chairman of the Quality Control 
Committee for the American Polygraph Association.
    The OCI polygraph program manager also served as the chief 
instructor at the Federal Polygraph School from 1985 to 1991 
and in Government Service Polygraph since 1974.
    The current DOE Polygraph Program has four layers of 
quality control. This is more than any other U.S. Government 
agency which administers polygraph examinations.
    Mr. Upton. Mr. Curran, I have been very generous with the 
time.
    Mr. Curran. I know. I have one more page.
    Our decisions about who is granted access to classified 
information must be made with the sole criteria of protecting 
U.S. national security. The enhancement of the DOE Polygraph 
Program is not without precedent, as our efforts are bringing 
the Department in line with the rest of the intelligence 
community insofar as access to high risk national security 
programs are concerned. I believe that the Department's 
commitment to the overall CI effort is embodied in its support 
for the Polygraph Program. OCI has received strong support from 
the Secretary for this initiative, and with his and your 
continued support we will continue to use the polygraph as an 
important CI tool.
    Thank you, Mr. Chairman, for your patience.
    [The prepared statement of Edward J. Curran follows:]
      Prepared Statement of Edward J. Curran, Director, Office of 
             Counterintelligence, U.S. Department of Energy
    Good afternoon Mr. Chairman. I am happy to be here this afternoon 
to discuss the state of counterintelligence (CI) at the Department of 
Energy (DOE). As you are aware, I have been the Director of the Office 
of Counterintelligence (OCI) at DOE since April 1, 1998. In the one and 
a half years since I assumed this position, I believe DOE has made 
significant progress toward developing an effective and efficient 
program to protect DOE personnel and facilities, as well as classified 
and sensitive unclassified information, from foreign intelligence 
threats. This progress would not have been possible without the strong 
support of Energy Secretary Bill Richardson and the Congress. Before I 
discuss the specific progress that has been made to date, I would like 
to provide some background on counterintelligence at DOE.
                               background
    Presidential Decision Directive/NSC 61 (PDD-61), U.S. Department of 
Energy Counterintelligence Program, was signed by the President on 
February 11, 1998. The PDD was the result of numerous General 
Accounting Office (GAO) reviews, United States Intelligence Community 
assessments and a Federal Bureau of Investigation (FBI) study directed 
by the Senate Select Committee on Intelligence (SSCI) in April 1997. 
The PDD required that I prepare a report for the Secretary of Energy 90 
days after my arrival to include an assessment of the current state of 
DOE's CI Program, a strategic plan for achieving the long-term goals 
and objectives of the PDD, and an action plan for near-term measures to 
reduce the foreign intelligence threat to the DOE laboratories. To 
accomplish this effort, I pulled together a team of CI experts, 
security professionals, and individuals with cyber expertise from 
throughout the Intelligence Community. The resulting report, Mapping 
the Future of the Department of Energy's Counterintelligence Program, 
hereinafter referred to as the 90-Day Study, identified many 
deficiencies in DOE's CI Program and further verified that the Program 
did not meet minimal standards. The review was initiated on April 1, 
1998 and concluded on July 1, 1998 when the 90 Day Study was submitted 
to the Secretary of Energy, the Secretary of Defense, Attorney General, 
Director of Central Intelligence (DCI) and Director, FBI. The report 
made 46 concrete recommendations to improve the effectiveness and 
efficiency of the DOE CI Program.
    On November 13, 1998, Secretary of Energy Richardson approved 
virtually all of the 46 recommendations identified in the 90-Day Study 
and furnished a DOE CI Action Plan to Mr. Sandy Berger, Assistant to 
the President for National Security Affairs. In the Secretary's CI 
Action Plan, my Office was directed to prepare a CI Implementation Plan 
within 45 days of the issuance of the Action Plan. This OCI 
Implementation Plan was delivered to the Office of the Secretary on 
February 3, 1999. In the Implementation Plan we assigned individual 
offices primary and supporting responsibility for each recommendation. 
We have since prioritized the 46 recommendations into three tiers.
                      implementation plan progress
    I would like to assure you that even while my Office was preparing 
the CI Implementation Plan we were also in the process of implementing 
many of the 90-Day Study's recommendations. I am pleased to inform you 
that to date, approximately 75% of the 46 recommendations have been 
implemented. Furthermore, almost 95% of the 24 most critical (``Tier 
One''), 60% of the Tier Two, and 50% of the Tier Three recommendations 
have been implemented. I would like to take just a few minutes to 
identify some of these implementation successes and elaborate on many 
of the procedures we have already put into place to address the 
deficiencies in DOE's CI Program.
Resources
    The most important part of developing a world-class CI Program is, 
of course, the resources. Historically, the DOE CI Program has been 
underfunded and the skills mix of the employees has been insufficient 
to effectively execute a complex-wide CI mission. Currently, the 
Department has over 110,000 cleared individuals placed in over 50 
laboratories and facilities, most of which are under separate 
contracts. These laboratories and facilities house most of the nation's 
premiere scientists, research and development, and most sophisticated 
technology applications in the world--yet when I came on board in April 
1998 to head the Department's CI effort, DOE had only seven full time 
Federal employees at headquarters dedicated to the CI mission, and just 
a few untrained CI Officers in the field. Each of these CI Officers 
reported to their separate laboratory or facility management without 
any consolidated headquarters oversight or direction for their 
programs.
    Today I have a staff of 130 Federal, contractor, and Intelligence 
Community CI professionals; I expect this number to increase to 156 by 
the end of this fiscal year. Next fiscal year it is our goal to hire a 
significant amount of CI-Cyber experts and place them at select DOE 
facilities. Importantly, at each of the five weapons laboratories, I 
have hired seasoned CI professionals, all of whom are retired FBI 
Special Agents. These CI Officers are no longer buried in the local 
bureaucracy; they have direct access to me and to the Laboratory 
Director should they need to discuss a CI matter.
    The DOE CI Program began in 1988 and from its inception through 
1996, the Department spent less than $3.0M annually on CI. In Fiscal 
Years 1997 and 1998, the Intelligence Committees approved a supplement 
for the DOE CI budget based on the numerous GAO reports and their 
continued, significant concerns regarding visitors at the laboratories. 
This supplement brought the total CI Program funding up to $6.6M in 
1997 and $7.6M in 1998. Since my appointment in April of last year, I 
successfully increased the DOE CI budget from $7.6M to $15.6M for 
Fiscal Year 1999 and $39.2M (which includes $8 million for CI-Cyber 
initiatives) for this fiscal year. This very tedious and exhaustive 
effort was accomplished with the exceptional support from Secretary 
Richardson and Members from the House Armed Services Committee (HASC), 
and the SSCI. Without their continued support and push for adequate 
financing, none of the improvements to DOE's CI Program, which I am 
about to describe would have been possible. Direct funding, along with 
headquarters OCI control and direction of funds to the laboratories and 
other DOE facilities, is the cornerstone of the 90-Day Study, CI Action 
Plan, CI Implementation Plan, and an overall effective CI Program at 
DOE. Without this level of control, meaningful oversight is impossible. 
Direct funding has helped us to have greater control over allocation of 
resources to the priorities I have set for the CI Program. I would like 
to share with you these programmatic priorities and the efforts OCI is 
undertaking to improve to the DOE CI Program.
                            program overview
    First, I will highlight some of the very critical and necessary 
changes in day-to-day operations of the CI effort at DOE Headquarters. 
As the result of PDD-61, a new and independent OCI was created that 
reports directly to the Secretary of Energy. As Director, OCI, the PDD 
gives me direct CI policy development, implementation and oversight 
responsibilities for all CI activities throughout DOE. The Secretary 
signed a Delegation Order confirming those responsibilities and 
delegating to me the appropriate authority to execute them. In addition 
to my direct reporting and access to the Secretary on CI issues, on a 
regular, bi-weekly basis, I meet with Under Secretary Moniz or Deputy 
Secretary Glauthier on CI issues, or as the need arises. Mr. Sanchez, 
Director of the DOE Office of Intelligence, and I both participate in 
these meetings since our offices work very closely together. As the 
result of the 90-Day Study findings, I determined the optimal OCI 
organizational structure includes six distinct areas: Analysis, 
Investigations, CI- Cyber, Training, Inspections, and CI Evaluation 
Board. Importantly, each of these programs must operate as a single, 
integrated program; none of them taken in isolation would constitute a 
viable CI Program.
Analysis Program
    The Analysis Program is headed by an experienced Analyst detailed 
from the FBI with over eight years of specific analytical experience. 
Her Deputy is also a detailee from the FBI with extensive analytical 
experience. They both are very familiar with DOE since they 
participated in the FBI study of DOE directed by the SSCI which I 
previously mentioned. They have six analysts currently working for 
them, and are in the process of hiring several more experienced 
analysts. We expect to place CI analysts at five laboratories this 
fiscal year. In my opinion DOE has a wealth of information which has 
not been analytically exploited in the past. The reports we have 
produced and will be producing are obviously of great importance to DOE 
but also to the Intelligence Community.
    For example:

<bullet> A DOE CI analyst played an extremely important role in the 
        preparation of the first annual threat assessment prepared by 
        the National Counterintelligence Center (NACIC) at the 
        direction of the DCI, published on November 27, 1998. This 
        report is required on an annual basis as the result of PDD-61. 
        OCI analysts are currently playing a critical role in the 
        second annual PDD-61 mandated threat assessment which should be 
        published next month. These reports are a direct result of the 
        President's direction and represent meaningful intelligence 
        produced by the Intelligence Community which directly impacts 
        DOE. In my opinion, if it were not for the tenacious efforts of 
        my DOE analysts in this annual effort, the reports would be far 
        less meaningful than they are.
<bullet> The Analysis Program has written and will continue to write 
        foreign intelligence threat assessments resulting from DOE's 
        extensive interaction with DOE ``sensitive countries.'' As the 
        U.S. Government's technical advisor to various bilateral and 
        multilateral non-proliferation and arms control initiatives, 
        DOE hosts hundreds of sensitive country foreign nationals each 
        year, and DOE officials are frequent travelers to sensitive 
        countries.
<bullet> The Analysis Program is also in the midst of a study of 
        potential economic espionage at the laboratories. The 
        laboratories engage in Cooperative Research and Development 
        Agreements (CRADAs) with private industry. OCI wants to ensure 
        that proprietary economic information is being properly 
        protected.
    The projects I mentioned above are expensive but the results and 
benefits to DOE and the Intelligence Community will allow us to detect 
and work toward neutralizing foreign intelligence activities being 
directed against DOE. These products also provide our policymakers with 
the information they need to make national policy decisions.
Investigations Program
    The Investigations Program is headed by another FBI supervisor 
currently on detail from the FBI with over 23 years experience in 
Foreign Counterintelligence operations. His primary responsibility is 
to ensure that any instances in which classified information is being 
or may have been compromised to an unauthorized party are reported to 
the FBI. I will continue to staff this Program with qualified and 
experienced investigators.
CI-Cyber Program
    The CI-Cyber Program is headed by an employee from the FBI's 
National Infrastructure Protection Center (NIPC). The CI-Cyber Program 
Director serves as OCI's representative to DOE's Critical 
Infrastructure Protection Task Force. Her daily activities include 
interaction with DOE headquarters and laboratory computer security 
professionals, as well as, the NIPC. With the additional $8 million OCI 
received for Cyber Programs in Fiscal Year 2000, we are implementing 
some of the recommendations in the 90-Day Study. For example:

<bullet> One of the 90 Day Study's recommendations was the development 
        and implementation of a complex-wide strategy to address the 
        potential CI implications of email to foreign nations.
<bullet> As mentioned above, the CI-Cyber Program will significantly 
        enhance the number of CI- Cyber experts this fiscal year in 
        order to further develop field intrusion detection and analysis 
        abilities. CI-Cyber personnel require skills in both computer 
        security and CI.
Training Program
    A DOE federal employee heads our Training Program. The purpose of 
the Training Program is three fold: 1) to formulate an in-house program 
to train our own CI personnel; 2) to provide professional awareness 
briefings and debriefings for our scientists traveling to sensitive 
countries; and 3) to provide awareness briefings for the general DOE 
population who have an interface with foreigners so they become 
sensitive to CI related issues. Professional training for CI Officers 
has been re-oriented to focus on core skills necessary to be an 
effective CI Officer.
    I would like to provide the following examples of our current 
outreach and awareness training efforts to the DOE population: The OCI 
currently has a CI professional assigned to the DOE High Enriched 
Uranium/Transparency Program. This person is responsible for all 
related CI issues and team briefings and debriefings. He is accepted 
and trusted as a total team member and the members are willing to 
discuss sensitive CI issues with him. I have established that same 
relationship with the scientists and DOE employees associated with the 
Materials Protection Control and Accounting (MPC&A) Program (the 
largest program within DOE dealing with the Russians), the Initiative 
for Proliferation Prevention, the Nuclear Cities Initiative, and the 
China Arms Control Exchange (CACE) by assigning a CI Officer to each 
team. Assigning a CI Officer to all such programs within DOE will help 
us to achieve our goal of briefing and debriefing all DOE personnel 
traveling to sensitive countries. Our CI goal is not only to protect 
technology, but also programs involving DOE personnel.
Inspections
    We have established an internal inspections process as required by 
PDD-61. There are two teams available at any given time to complete 
these inspections. One team is headed by a retired FBI agent who was 
the former Assistant Director in Charge of the Washington Field Office 
and was previously the Deputy Director in the FBI's Inspection 
Division. The second team is headed by a former FBI agent who retired 
from the FBI as the Special Agent in Charge of the Springfield office 
and was also an Inspector in the FBI Inspection Division. Both these 
individuals have over 25 years experience in the FBI and specifically 
in the CI arena. The Inspection teams are supported by experienced 
retired FBI and law enforcement officers who are experts in gathering 
information and resolving complex cases. The teams have been augmented 
by a senior retired personnel security expert from DOE along with 
retired DOE laboratory scientists.
    As of this date two inspections have taken place--Los Alamos 
National Laboratory and Lawrence Livermore National Laboratory. A third 
inspection--Sandia National Laboratories--is underway. All DOE 
facilities are subject to a CI inspection, and we have scheduled 12 
facilities for inspection next calendar year. The results of the first 
two inspections have been provided to me and the Secretary Richardson. 
In brief, these results show that significant improvements have been 
made in the CI Programs at these laboratories since PDD-61 was signed. 
I will provide summaries of these inspections to Congress in the Annual 
Report on Counterintelligence and Security Practices at the National 
Laboratories, as mandated by the National Defense Authorization Act for 
Fiscal Year 2000. Any significant CI relevant events will be provided 
to you immediately.
The CI Evaluations Board (CIEB)
    PDD-61 authorized the use of many tools designed to reduce the 
threat to classified and sensitive information at DOE and its field 
activities. The polygraph was specifically cited as being one of the 
tools which OCI, in coordination with the DOE Office of Security 
Affairs, may use to enhance the DOE CI Program. Research and analysis 
conducted for the 90 Day Study also indicated that the polygraph was 
one tool that could be used to enhance the effectiveness of the CI 
Program.
    OCI's CIEB is responsible for implementing the DOE CI Polygraph 
Program. A senior OCI officer is leading OCI's CIEB. I must stress that 
the Polygraph Program is only one of the six elements of the DOE CI 
Program; it cannot be considered in isolation. I do not believe that 
the polygraph is a CI panacea or an infallible CI tool. However, I 
believe that the polygraph serves as a valuable deterrent to 
individuals who currently have direct or indirect access to classified 
information and may be contemplating espionage. I also believe the 
polygraph serves as constructive screening device for individuals 
applying for positions requiring access to classified and/or sensitive 
unclassified information. The polygraph also can be used effectively as 
an exculpatory tool. The purpose of the Polygraph Program is to protect 
U.S. national security by attempting to determine if anyone with access 
has engaged in espionage, sabotage, terrorism, or had unauthorized 
contact with foreign nationals, or disclosed classified information in 
an unauthorized manner.
    I am extremely sensitive to the anxiety that the Polygraph Program 
has caused in the Department. I want to stress that we are only going 
to be administering polygraph examinations to a small percentage of DOE 
employees having access to the most sensitive ``high risk'' national 
security programs. These programs include: Special Access Programs 
(SAPS), Sensitive Compartmented Information (SCI), Personnel Security 
and Assurance Program, (PSAPS), and Personnel Assurance Programs 
(PAPS). The latter two programs involve DOE employees who are involved 
in the design of nuclear weapons and those who have direct access to 
these weapons.
    OCI has made every effort to reach out to potentially affected 
personnel to explain the polygraph. Technical briefings for employees 
of Sandia, Lawrence Livermore, and Los Alamos National Laboratories 
were held last month. In accordance with the rulemaking process, OCI 
participated, with General Eugene Habiger, Director of the Office of 
Security and Emergency Operations, in public hearings. The public 
hearings were held at:

<bullet> Lawrence Livermore National Laboratory, September 14, 1999,
<bullet> Sandia National Laboratories, September 16, 1999,
<bullet> Los Alamos National Laboratory, September 17, 1999 and
<bullet> Washington, D.C., September 22, 1999.
    Additionally, as you are aware, I provided a briefing on the 
Polygraph Program to this Subcommittee on October 4. We also briefed 
the White House Science Advisor this month.
    While DOE has approved a Notice on the Polygraph Program, it only 
applies to DOE Federal employees. We are currently in the latter stages 
of an Office of Personnel Management mandated ``rulemaking'' process to 
develop regulations for applying the program to DOE contractors. DOE 
contractors constitute the majority of individuals in the 
aforementioned ``high risk'' national security programs.
    As DOE participates in the rulemaking process necessary to apply 
the Polygraph Program to DOE contractors, we have been simultaneously 
administering the polygraph to DOE Federal employees and volunteering 
contract employees in OCI and the Office of Environment, Safety and 
Health. Additionally, some high-level Department officials, including 
the Secretary, Deputy Secretary and Under Secretary have taken the 
polygraph. I was the first volunteer to take the polygraph. Overall, 
approximately 85 personnel have been administered and passed a CI-scope 
polygraph thus far.
    To ensure quality control, the Polygraph Program is managed by an 
individual that has been the quality control on polygraphs for DOE 
since 1991. He is the Director of Quality Control for the American 
Association of Police Polygraph Examiners (AAPP) and the Sub-Committee 
Chairman of the QC-Committee for the American Polygraph Association 
(APA). The OCI Polygraph Program Manager also served as the Chief 
Instructor at the Federal Polygraph School (DODPI) from 1985-1991 and 
in Government Service Polygraph since 1974. The current DOE Polygraph 
Program has four layers of quality control; this is more than any other 
U.S. Government agency which administers polygraph examinations.
    Our decisions about who is granted access to classified information 
must be made with the sole criteria of protecting U.S. national 
security. The enhancement of the DOE Polygraph Program is not without 
precedent, as our efforts are bringing the Department in line with the 
rest of the Intelligence Community insofar as access to ``high risk'' 
national security programs are concerned. I believe that the 
Department's commitment to the overall CI effort is embodied in its 
support for the Polygraph Program. OCI has received strong support from 
the Secretary for this initiative, and with his and your continued 
support we will continue to use the polygraph as an important CI tool.
    I am very encouraged about the many initiatives we have begun and 
accomplishments achieved thus far. While there is work yet to do, I am 
pleased to say that I have received absolute cooperation from all the 
senior DOE officials at the laboratories and headquarters. In addition 
to the senior management support from DOE and the laboratories, I have 
received nothing but the utmost support and encouragement from 
Secretary Richardson, Director Freeh of the FBI and DCI Tenet. In 
addition to showing his support for the CI Program outside of DOE, 
Secretary Richardson has personally met with the Laboratory Directors 
and various DOE Assistant Secretaries to reaffirm his support and 
endorsement of an aggressive CI Program within DOE. This very vocal, 
personal commitment by Secretary Richardson to an aggressive CI Program 
at DOE has been paramount to our success thus far. With this continued 
level of support I am looking forward to appearing before you again to 
proudly discuss a fully implemented DOE CI Program as mandated by PDD-
61.

    Mr. Upton. Thank you very much.
    I would just note for the record that all members' 
statements on both the Oversight Subcommittee as well as Energy 
and Power will be made part of the record, and I noted that 
Chairman Bliley came in at one point.
    This point we will proceed with questions. I will be pretty 
strict with this 5-minute rule on the clock. I know that Mr. 
Cox has already gone to the floor. His bill is on the floor. We 
have a number of other subcommittees that are meeting as well, 
and we will start with my questions.
    I guess, Mr. Curran, noting your emphasis at the end 
particularly on polygraphs, there's been a lot of discussion on 
this for some time. I know you and I talked about it in my 
office last winter, but--I guess it was in early spring--and 
where are we on the polygraph?
    I noted that Secretary Richardson I think in a very visible 
way took the polygraph himself to try and illustrate to 
employees at one of the labs that it was nothing really to 
fear. There's been a lot of discussion. You talked about that 
this was a valuable deterrent, only a small percentage of 
folks, in fact, would be polygraphed. But it's my understanding 
that so far no DOE employees, other than the Secretary and 
yourself, but no scientists have been polygraphed; is that 
correct?
    Mr. Curran. That's correct, sir. We have polygraphed over 
95 Federal employees since the program started.
    Mr. Upton. Are these security people?
    Mr. Curran. Mostly it is CI people. We required that if 
we're going to be asking other people to take a polygraph, not 
just for that reason, because we have access to sensitive 
information, that all our people will take a CI polygraph. We 
give an exception as reciprocity for other employees who have 
received other types of polygraph from the CIA, DOD. We accept 
that, but CI we do not. We mandate that everybody in CI has to 
take it.
    Mr. Upton. At what point do you think sensitive folks in 
sensitive positions, in fact, may be asked to----
    Mr. Curran. We are--as I said, we are in the final stages. 
We meet almost daily. We could not legally polygraph 
contractors unless they volunteered to take that polygraph. We 
had to go through this rulemaking process where you had the 
four public hearings. We have concluded that. We have to now 
respond to the comments in the public hearing which we are 
doing. Once that is done, then it goes back to the Federal 
Register, and you have 30 days before you can actually 
implement.
    What we have been doing, because it is such a sensitive 
topic within DOE, we have been going over each one of these 
programs with the Secretary, the Deputy Secretary, and, 
basically, the rule is that we are relying on these people who 
run these programs, based on the criteria, to tell us who 
should be polygraphed. We have that list.
    Now, we are looking at it and re-examining it to determine 
are we down to the core, the hard-core people that we want. 
We're trying to minimize the impact as much as we can, but we 
still have to address the national security concerns. So I 
would expect that we would respond to the public hearings, then 
we have the 30 days in November, and then after that we would 
start polys.
    Mr. Upton. So beginning?
    Mr. Curran. December.
    Mr. Upton. December, okay.
    Mr. Podonsky, in my opening statement and in your statement 
as well, there was quite a bit of discussion with regard to the 
access, particularly from folks not onsite, through computers 
to information on those computers, the e-mail whatever. You 
indicated with the Lawrence Livermore that you thought that 
there were protections from unauthorized access. You indicated 
that there were some weaknesses. You were expecting some 
penetration testing used by hackers. At what point do you 
expect that to happen? December? Do you remember?
    Mr. Podonsky. Yes, sir. In December, as I mentioned, we're 
going back to all three laboratories. Our biggest concern in 
the cyber security were the unclassified, and it was not so 
much from the external penetrations but it was from people who 
had cleared access from foreign nationals.
    We didn't have an issue with foreign nationals. Our issue 
was if they were from sensitive countries, as we have stated in 
our classified report, and the potential that those individuals 
may or may not have to go through the unclassified net into 
other areas in the unclassified. We had no concern about the 
classified net. I want to make that clear.
    Mr. Upton. So you feel that the firewall is sufficient on 
the classified with all of the labs that you looked at?
    Mr. Podonsky. With all three laboratories, we felt that the 
firewall was sufficient. There are improvements to be made in a 
couple of the areas, but that would get into some classified 
area.
    Mr. Upton. Okay. I am watching the clock for me.
    Sandia, you indicated, was marginal and it was the rating 
that you gave them, prompt attention needed. Is that also with 
regard to the access to unclassified material?
    Mr. Podonsky. To the unclassified.
    Mr. Upton. Why is it that if Lawrence was satisfactory, 
Lawrence Livermore, and Sandia was marginal, you couldn't get 
those same type of systems, encourage those same type of 
systems at Sandia?
    Mr. Podonsky. Mr. Chairman, are you talking about the 
overall rating?
    Mr. Upton. Yeah. Your overall rating. I presume--well, you 
tell me--by giving a marginal rating at Sandia tells me that 
there's some obvious weaknesses there. Were some of those 
weaknesses in regard to access to unclassified information 
through the computers?
    Mr. Podonsky. Relative to all three sites, Los Alamos 
receiving overall satisfactory, the other two labs received 
overall marginals, but all of them received less than 
satisfactory in the unclassified cyber security because of 
weaknesses on the access of the internal approved individuals. 
For example, there are different tiers of an unclassified 
information. Some of it is sensitive, and we had the concern in 
terms of what kind of administrative controls were on at 
actually all three laboratories.
    Mr. Upton. I will follow up when we come up.
    Mr. Stupak, do you want to go next?
    Mr. Stupak. Sure. Thank you, Mr. Chairman.
    I apologize for being late. I just got in from Michigan, 
dealing with DOE no less.
    Mr. Podonsky, if the laboratories can reach satisfactory 
rating without more money, can you tell us why we should give 
them more money? Either they're satisfactory or they're not. Or 
are you just determined, as the General said that they have, 
and I am quoting his testimony, foundation to perform their 
security functions capably given adequate resources? So do you 
really need the money or are you playing off that statement?
    Mr. Podonsky. When we assign a rating that we believe that 
the individual site earns, it's based on their performance. A 
satisfactory rating does not mean that everything is perfect. 
It does not mean that there are not other management areas 
needing attention. Relative to resources or money, I would 
yield to the policy arm as well as the lead PSOs as to what 
moneys they do or do not need. When we look at it, we try to 
not look at programmatic needs. We look at strictly how 
effective the policies are being implemented or not.
    Mr. Stupak. If you're going to give a satisfactory rating, 
I don't say on appropriations, obviously, but I am sure the 
Congress would be probably hard pressed to give more money to 
an agency that's doing satisfactory work, and if it's 
satisfactory, how would you make the case to the appropriators 
that you need more money?
    Mr. Podonsky. Well, specifically if we take Los Alamos, 
there are many upgrades that are still needed regardless of the 
fact that they have received a satisfactory rating. 
Satisfactory is not the penultimate that we walk away from and 
say everything is fine. In the case of cyber security, 
unclassified, as I mentioned to the chairman, all three 
laboratories need extensive work in this area. So, obviously, 
there would be funds necessary----
    Mr. Stupak. What was the last rating of Los Alamos?
    Mr. Podonsky. The last overall rating, it was just rated in 
August as satisfactory.
    Mr. Stupak. And let me take it one step further. The last 
time we had a hearing here, it seemed to me we gave--there was 
a special line, $5.3 million I believe the number was--I am 
going off the top of my head, so I may have the number wrong. 
That's supposed to be for security, but two-thirds of that 
money went for administrative costs and administrative travel. 
What guarantee do we have that even if we gave you more on top 
of a satisfactory rating, that it is really going to go to this 
security upgrade that you need?
    Mr. Podonsky. Well, one point of clarification that I need 
to make, on the satisfactory rating, it may in fact also be 
because of compensatory measures which are short-term fixes, 
not long-term. So there are long-term fixes at all three of the 
sites. We add an oversight element of the Department. We cannot 
give you the guarantees that the moneys are going to be used 
appropriately. All we can do is report back on how effective 
the security is, and we report it back to the Secretary and to 
the lead PSOs.
    Mr. Stupak. So you don't oversee the security operations 
then?
    Mr. Podonsky. We oversee the security operations. We 
oversee the security implementations of improvements, but we 
don't oversee the security budget. That's General Habiger.
    Mr. Stupak. Sure. Okay. So you're the oversight. How much 
pressure do you have as oversight to get these security 
measures implemented in a timely, cost-effective manner?
    Mr. Podonsky. When the Secretary elevated our office to 
directly report to him, our responsibility was to go out and 
kick every stone, turn over every piece of information, find 
out where the vulnerabilities or the strengths were. But, at 
the same time, the Secretary encouraged us to work with the 
policy folks as well as the lead PSOs to help find solutions. 
Our main thrust as we provide information to the Secretary and 
to the Congress is how effective the policies are being 
implemented. The pressures that we have are strictly that the 
Secretary wants to make sure, as I am sure the Congress is, 
that there are no security problems in the department.
    Mr. Stupak. Speaking of your oversight roll in that, you're 
supposed to be independent of the rest of the security 
bureaucracy, are you not?
    Mr. Podonsky. That is true.
    Mr. Stupak. And you're supposed to be independent of 
General Habiger, and you don't report to him, do you?
    Mr. Podonsky. No, I do not.
    Mr. Stupak. Okay. Then who do report to?
    Mr. Podonsky. I report directly to the Secretary of Energy.
    Mr. Stupak. Okay. You're supposed to be the outsider in 
this whole thing to give your recommendations, right?
    Mr. Podonsky. We are supposed to give an unbiased, 
unfiltered, independent look at how effective the Department is 
implementing its policies, how effective its policy is and 
report that back to the Secretary, report it to the lead PSOs. 
We're the outside, independent, internal group.
    Mr. Stupak. Well, in the General's statement, he says, and 
I am quoting now, Glenn and I are working closely together to 
ensure an integrated approach through policy development and 
oversight. Well, you're supposed to be doing oversight, not 
policy development, right?
    Mr. Podonsky. We do not develop policy.
    Mr. Stupak. Okay. Well, that statement would indicate an 
integrated approach to a policy development oversight, so I 
want to make sure that you're truly independent and that we're 
developing security with an independent look at it and not back 
into the culture of DOE which has neither been accountable nor 
accept responsibility for past breaches at DOE.
    Mr. Podonsky. I can't answer for the General, but if you 
indulge me----
    Mr. Stupak. Sure.
    Mr. Podonsky. One of the major changes that have occurred 
in the last year, and I have been with the Department for 15 
years, is that the security infrastructure that the Secretary 
set up is working together. In the last 15 years, it was not 
always so. For example, we do not develop policy, but we 
evaluate the effectiveness of that policy. In previous years, 
we would inform the policy people of our concerns about some of 
the unclear policies. Oftentimes, we had disputes and with no 
resolution.
    What General Habiger, I believe, is inferring is that we 
now have an infrastructure where when we provide information 
directly to the General and his people. We're seeing corrective 
actions. We're seeing an adult dialog, which has not been the 
norm of the Department.
    Mr. Stupak. From where we're sitting, and it seems like 
maybe too much of a cozy relationship in that I think--and I 
don't speak for all of the members--but I always thought your 
idea would be to have General Habiger write policy and 
implement it and then it was your job to see that it got done.
    Mr. Podonsky. That's what we're doing.
    Mr. Stupak. Okay. Just from the statements there it sort of 
looked it's not really what's going on, maybe too close of a 
relationship. And I want to make sure that, you know, the 
General's shop is not determining how oversight should be done, 
but that really should be on your side and be independent 
thereof.
    Mr. Podonsky. Just as an illustration, the General has a 
number of findings in our reports that he's responsible and his 
office is responsible for providing corrective actions to.
    Mr. Stupak. Thank you.
    Mr. Upton. Mr. Burr.
    Mr. Burr. General, welcome. Glenn, good to have you here 
again. Mr. Curran, also good to have you.
    Mr. Curran, you mentioned polygraph 27 times. The General 
mentioned it once. I don't think Mr. Podonsky, unless I missed 
it, mentioned it. Polygraph was one of, if not the biggest 
initiative that the Secretary announced in his revelation that 
we had a problem. He conveyed not only this Congress, but to 
America that it would start the next day. To date, 85 people, 
if your first statement was correct, 95 if your second 
statement was correct, have been given the polygraph. They are 
CI individuals. They are the Secretary, they are the General, 
and they are you. To date, no DOE employed scientist have been 
given a polygraph; am I correct?
    Mr. Curran. Correct.
    Mr. Burr. Do you need further policy directives to have the 
jurisdiction to administer a polygraph to DOE employees?
    Mr. Curran. Contractors?
    Mr. Burr. DOE employees.
    Mr. Curran. No.
    Mr. Burr. You do for contractors?
    Mr. Curran. I don't need any further regulation for DOE 
Federal employees, correct.
    Mr. Burr. And are there Federal employees that you intend 
to administer a polygraph to?
    Mr. Curran. All Federal employees assigned to my office 
have been polygraphed.
    Mr. Burr. Is there anybody in the lab structure that is a 
Federal employee?
    Mr. Curran. That has not been polygraphed, no.
    Mr. Burr. Have all the managers of those facilities that 
are deemed DOE employees been polygraphed?
    Mr. Curran. Some of them, not all of them.
    Mr. Burr. Not all of them. Do you intend to polygraph the 
other ones?
    Mr. Curran. They would--they would come under the matrix to 
be polygraphed.
    Mr. Burr. But they have not been done yet?
    Mr. Curran. Have not.
    Mr. Burr. You also made the statement that we're relying on 
the individuals that run these programs to tell us who should 
be polygraphed; is that correct?
    Mr. Curran. That's correct.
    Mr. Burr. Are these the same individuals who have had the 
responsibility to oversee security at these facilities?
    Mr. Curran. No. There's a catchall there, also. The manager 
who runs a specific SAP program or is required to provide me 
with a list, based on the criteria that I give him, of who he 
thinks should be polygraphed. I then have the option to 
disagree with the manager's decision.
    What we're asking is to work this as a concerted effort at 
this point, since these people know more about the SAPS and the 
PSAPS than I do, but we have the authority to go back.
    Mr. Burr. Do you agree that the intent to polygraph, as far 
as the size of the population based upon where the Secretary 
originally made statements from than what it is today, has been 
reduced significantly?
    Mr. Curran. No. The rulemaking process that we have just 
been through covers all the areas that I identified in the PDD 
report. That's the total population.
    Now, I have said right from the beginning I do not believe 
that all those people involved in those programs need to be 
polygraphed. That's why we're in this process now. For example, 
a SAP program has different layers of access, Tier I to--one's 
in administrative access; one's a technical, which is the most 
critical; and one's a security.
    Now, in some SAPS, we may say everybody gets polygraphed. 
In other SAPS, we might just say Tier III people get 
polygraphed. That's what we are looking for the program 
managers to help us out with. But they're not deciding what the 
criteria is. We are. We're working with them to do that.
    Mr. Burr. Well, clearly, if program managers had their 
choice, the answer would be none.
    Mr. Curran. Excuse me, sir?
    Mr. Burr. If the program managers had their choice, I think 
the answer would be none.
    Mr. Curran. I have been meeting with the Secretary and the 
Under Secretary almost daily for the last 3 weeks. They have 
come up with a number that is pretty close to what we had 
originally. I can honestly tell you the program managers in 
these programs have been very, very cooperative.
    Mr. Burr. I wait curiously to see what your number is and 
to go back and read the Secretary's statements when he made it 
about how many people he sought to be administered polygraphs.
    General, I need to ask you a question, and I hope you will 
take this in the spirit that I ask you. Who wrote your 
testimony?
    Mr. Habiger. Who wrote it?
    Mr. Burr. Yes, sir.
    Mr. Habiger. I wrote 90 percent of it, sir.
    Mr. Burr. Ninety percent of it. The part about the budget, 
did you write that?
    Mr. Habiger. Yes, sir, I personally wrote it.
    Mr. Burr. You personally wrote that.
    Mr. Curran, have you ever been denied of any of the 
resources you have requested?
    Mr. Curran. No, I have not, sir.
    Mr. Burr. Let me give you a description of what the Budget 
Committee said about the $35 million requested for DOE, which 
was emergency money, I think either slightly before or upon 
your arrival that I'm certainly not tagging to you. I won't use 
the word, but it's four letters. It started with C-R and ended 
in A-P.
    They asked for that request to go back and for there to 
actually be specifics tied to it as far as what it was going to 
be used for.
    Now, we've got one of the gentlemen who will testify in a 
minute, Mr. Weigand. He's the Deputy Assistant Secretary for 
Research and Development. He says we have committed an 
abundance of resources to fix the problems and to date have 
reprioritized funding within our existing budget.
    Let me ask you, General, can this be reprogrammed and meet 
our needs? I think there's currently $800 million that is 
devoted to security. Or will the Congress have to appropriate 
new funds within DOE to meet this need?
    Mr. Habiger. Sir, let me make this very clear. When I took 
this job, I asked the Secretary to do two things: No. 1, allow 
me to work directly for him. Done. No. 2, I told him I couldn't 
do the job without having absolute total control over the $800 
million. We're in the process of doing that. We're going to be 
working with the appropriations committees and authorization 
committees. For the fiscal year 2000 budget, we're tagging the 
money. I have oversight over security dollars in the fiscal 
year 2000 budget.
    The fiscal year 2001 budget, which will be coming over to 
the President in early February, the money will be broken out, 
stripped out under a different appropriation, be titled 
security. I'll be accountable. I'll be responsible. We're going 
to spend it in the right place.
    Mr. Burr. I feel very confident that your intentions are, 
in fact, correct. One of the hesitancies of this committee has 
been I think a thing that Mr. Podonsky and this committee 
share, that we have been in the process a heck of a long time, 
and I hope in the next 5 minutes, Mr. Chairman, in the next 
round we will be able to ask some more questions.
    Mr. Upton. We'll do so.
    Mrs. Wilson.
    Mrs. Wilson. Thank you, Mr. Chairman.
    I have a number of questions with respect to computer 
security, and I don't know, Mr. Curran, if you're the correct 
one to address these to. If not, these others chime in.
    I understand that you have conducted security reviews at 
the national laboratories. What other DOE facilities have you 
conducted cyber security audits on ?
    Mr. Curran. That's more a function----
    Mr. Podonsky. That would be more in our area, ma'am.
    Mrs. Wilson. Okay.
    Mr. Podonsky. We just finished an inspection at Oak Ridge 
at Y-12 facility.
    Mrs. Wilson. Have you ever conducted an audit on DOE 
headquarters?
    Mr. Podonsky. We did, in 1991.
    Mrs. Wilson. Have you conducted one within the last year, 2 
years?
    Mr. Podonsky. No, ma'am, we have not.
    Mrs. Wilson. Are there connections between the DOE 
headquarters or DOE Germantown computer systems and the 
national laboratories, either through wide area networks, 
client servers or anything?
    Mr. Podonsky. I believe there are.
    I was just told, no, there is not.
    Mrs. Wilson. There are no computer links between Germantown 
or DOE headquarters and our national laboratories?
    Mr. Podonsky. There is communication links between, and it 
varies. There's classified networks----
    Mr. Chairman, may I introduce the director of the Office of 
Cyber Security?
    Mr. Upton. I think you should, and we probably need to give 
him the oath, too. We will stop this clock here. I don't know 
that we'd be such good 2-minute coaches here, 2-minute drills, 
but if you could state your name for the record.
    Mr. Peterson. My name is Brad Peterson.
    [Witness sworn.]
    Mr. Upton. You may proceed in answering that question.
    Mr. Peterson. The headquarters network is linked between 
Forrestal and Germantown as part of one DOE headquarters 
network. As far as a wide area network with other fields, as 
far as, you know, linked into one network, no. There is, of 
course, Internet connectivity. As far as on the classified 
side, there is a capability to send classified e-mail back and 
forth over an ES net, but it goes through NSA encryption as it 
leaves one site and would go through encryption on the other 
side as it would come out.
    Mrs. Wilson. Thank you.
    Mr. Podonsky, obviously the question that I am getting at 
here is the weakness of the computer system is only as strong 
as its weakest link, which means checking the laboratories 
themselves. That alone is probably insufficient for cyber 
security services, and I wonder if you could tell me what your 
plans are for auditing of DOE headquarter systems.
    Mr. Podonsky. Currently, Mr. Peterson, our office director, 
is working with John Gilligan, who's our CIO, in looking at the 
overall implications of what we are finding in the field and 
bringing it back to the national look. For example, there were 
just--the unclassified computer security order is just being 
put out now. It's been an issue that we've had for quite some 
time.
    Mrs. Wilson. Let me interrupt you here. When do you plan to 
do an audit of DOE headquarters or Germantown's systems or is 
it just not on the schedule?
    Mr. Podonsky. No. It's on the schedule for next year.
    Mrs. Wilson. Thank you.
    When you did your review of the national laboratories, were 
you able to penetrate the classified systems from outside of 
the fence--I mean, from offsite?
    Mr. Peterson. No, we weren't, ma'am. Their systems are air 
gapped, so you cannot actually gain access.
    Mrs. Wilson. Were you able to penetrate the unclassified 
systems? And, if so, what kind?
    Mr. Peterson. We were able to penetrate the unclassified 
firewall at Sandia. However----
    Mrs. Wilson. What kinds of systems? Was it personnel? Was 
it--what kinds of systems were you able to penetrate?
    Mr. Peterson. We were able to gain access to different 
servers. Our time we test is very limited, so we did not fully 
explore how far we could migrate through the system. At 
Sandia----
    Mrs. Wilson. Was it the personnel computer? Was it the 
telephone controller? What did you penetrate? Or if you can't 
do it in an unclassified forum, I understand.
    Mr. Peterson. It was a regular computer that might be 
sitting on a researcher desk type of a thing so you can get 
some types of files.
    Mrs. Wilson. So you penetrated researchers' computers at 
the national laboratories?
    Mr. Peterson. That was--and, again, this is probably 
something we should wait and go into at a different level to be 
able to answer your question fully. It's not appropriate in an 
unclassified environment.
    Mrs. Wilson. Thank you.
    I think we can probably answer this question in this forum. 
If you hired the same hackers, Mr. Podonsky, or contracted with 
them or conducted them to penetrate your computer on your desk 
or my computer on my desk, do you think they could do it?
    Mr. Podonsky. I think, without worrying about damage to 
your software or mine, yes, ma'am.
    Mrs. Wilson. Thank you.
    Mr. Upton. Mr. Cox.
    Mr. Cox. Thank you. I have got a handful of notes from 
staff who are trying to keep track of what was said. I 
apologize for my absence, and I also apologize if I cover any 
ground that's already been covered. I think I have a good idea 
of which topics were covered, and I will try not to be 
repetitive.
    Just as an overview, since you are all DOE employees, the 
President's Foreign Intelligence Advisory Board, as I mentioned 
in my opening statement, said the Department of Energy ``has 
had a dysfunctional management structure and culture that only 
occasionally gave proper credence to the need for rigorous 
security and counterintelligence programs at the weapons 
labs.'' That report, as you know, was as of mid-year 1999. Does 
any of you disagree with that? Anybody care to disagree with 
that?
    That's a pretty harsh assessment, and it is as of the 
middle of this year. It gives rise to the question why, if we 
are looking for something systemic here, did it take 20 years 
for the Department of Energy to come up with a 
counterintelligence plan? And I guess, Mr. Curran, since you 
have been tasked now with that----
    Mr. Curran. If I can answer your question.
    Mr. Cox. We didn't even have an Office of 
Counterintelligence created by the direction of the Secretary, 
then Secretary Pena, until 1998. Why did it take so long?
    Mr. Curran. I can't answer the whys to that, sir.
    I think in my opening statement we confirmed exactly what 
you did say. I mean, there was not any counterintelligence 
program within DOE that even met minimal standards.
    I am not a DOE employee. I am an FBI employee detailed to 
DOE. Since my initial 90-day study and the implementation plan, 
I can tell you that I have received outstanding cooperation 
from the senior management in the three weapons labs. I don't 
think we could have made the progress that we have made without 
their cooperation. The CI inspection process looks at executive 
management and their role and participation in a CI program. 
And if we don't have that, the program's not going to work. So 
I think we do hold their feet to the fire on that. I know the 
Secretary does.
    Mr. Cox. I know that there's been some discussion during 
the members' questioning of polygraphs, and so I'm going to be 
as brief as I can because I don't know exactly what was said, 
and I don't want to ask you the same questions over again.
    But, Mr. Curran, in your testimony you said that the plan 
for polygraphing is modelled on other intelligence agencies. 
Using the CIA as an example, what's your understanding of CIA's 
policy?
    Mr. Curran. As you know, Mr. Cox, I served for 3 years out 
at the CIA, post Ames, and one of the problems I faced was the 
fact that they had an exorbitant number of people who had 
failed the CI polygraph. They went back after Ames and 
retrieved all the charts in the hundreds. That's what I was 
faced with when I got there. Now, obviously you don't have that 
many spies in the agency. There was something wrong with the 
program, in my opinion.
    The counterespionage group that I ran at the CIA determined 
that we need to revise the polygraph itself. CIA has a 
lifestyle polygraph, the general polygraph. What I was 
interested in only was if the person was a spy or not. We were 
able to bring down the focus of the polygraph. The more focused 
the polygraph is, the more successful it is. The wider it is, 
the less useful it becomes.
    And basically we came down to two questions. When we asked 
a CI employee, have you ever passed on--have you ever had 
unauthorized disclosure of classified, they all flunk it. I 
mean, because that's their business. They are in that on a 
daily business.
    But if you ask them, have you illegally passed classified 
information to a foreign agent? Do you know what I mean? We 
were able to resolve--of the hundreds of cases we had, we 
resolved 85 percent of those that we said, hey, this person may 
have other problems, but the person is not a spy. They may have 
to pay their income tax for the last 10 years, but that's how 
we were able to get through that.
    Mr. Cox. What you're outlining is a distinction between the 
proper administration and use of this tool on the one hand and 
the universe of people to whom the test is applied. 
Particularly with respect to the latter, what do you understand 
CIA's policy to be?
    Mr. Curran. All employees of CIA get a lifestyle polygraph.
    Mr. Cox. Would that include a secretary?
    Mr. Curran. Yes, all employees.
    Mr. Cox. So the night watchman?
    Mr. Curran. Yes. I think it excludes the gardener. I am not 
quite sure.
    Mr. Cox. Now at DOE, as of today, as we meet here, is there 
any nuclear weapons scientist who has been polygraphed other 
than in the course of a law enforcement investigation?
    Mr. Curran. As far as I know, there has not been. Now, I 
think there's an area that we can go into that I don't think we 
should go into here where because of what that person can maybe 
do and may have been polygraphed, but I think 99 percent, no.
    Mr. Cox. My red light is on. Is my time expired? That's 
usually what it means.
    Mr. Upton. I indicated earlier that we wouldn't make very 
good 2-minute drill football coaches, unless you play for Notre 
Dame. They had a little trouble at the beginning of the year.
    We'll start the second round of questions. Just for the 
record, too, Mr. Peterson, if you could give your title.
    Mr. Peterson. Director of the Office of Cyber Security and 
Special Reviews within the Office of Independent Oversight and 
Performance Assurance.
    Mr. Upton. Thank you.
    Based on that, I don't know if this question would be more 
directed to you or Mr. Podonsky. But, as I understand it, that 
in the past the inspections in fact have found--even though 
there's a firewall that's been identified for access to 
classified information, in fact, as I recall, some inspections 
showed that classified information was on unclassified systems. 
Isn't that correct?
    Mr. Podonsky. The short answer to that is, yes, when we 
were doing some penetration tests a year ago that we did find 
on the unclassified one or two documents that were deemed to be 
classified by the Office of Classification.
    Mr. Upton. Has that been corrected? I know, I think in the 
Wen Ho Lee case that was indicated that he perhaps wittingly or 
unwittingly had transferred many, many lines, thousand perhaps, 
of classified on to the unclassified. Is that still--is that 
allowed? Is that possible?
    Mr. Podonsky. We have not found that during this round of 
inspections.
    Mr. Upton. And you would agree that if that was still 
possible, though, one could navigate and, in fact, get 
classified information on that unclassified system; is that not 
correct?
    Mr. Podonsky. If that is still possible, that is correct.
    Mr. Upton. I understand that each of the labs permit 
foreign nationals from sensitive countries, whether it be Iran, 
Russia, to have authorized user status on their unclassified 
systems, both onsite and via remote dial up. Is that correct? 
And, if so, how many folks would that be?
    Mr. Peterson. We would have to defer to the laboratories 
for the specific numbers, but it's our understanding that both 
Lawrence Livermore and Los Alamos have individuals from 
sensitive countries, foreign nationals from sensitive countries 
with remote access, including at Los Alamos one from Iran. At 
Sandia, to our understanding, there is no foreign nationals 
from sensitive countries with remote dial up access.
    Mr. Upton. There are none at Sandia?
    Mr. Peterson. Yes, sir.
    Mr. Upton. Is that possible that's going to happen at all 
three labs? I mean, is that a goal and is it anticipated to 
happen soon?
    Mr. Peterson. I do not believe so, sir.
    Mr. Habiger. Mr. Chairman, if I may?
    Mr. Upton. Yes.
    Mr. Habiger. Podonsky discovered the problem at Los Alamos 
in August. We have got policy that should have been out a week 
ago, but because of some legal verbiage, we will have policy 
out within the next 5 days that will greatly tighten this 
foreign access. And I think with your experience with the 
Department of Energy you could say this is unprecedented, to 
get policy out that quickly.
    Mr. Upton. Will it be prohibited with this new policy that 
will be in place?
    Mr. Habiger. No, sir. We have gone to the labs. We got 
their inputs. There are certain treaty implications that give 
foreign scientists access into some of our systems.
    Now, let me point out, we have to look at the different 
tiers of access in terms of the national laboratories versus a 
Brookhaven where we have medical research that's going on. We 
have scientists out there that need access to that kind of 
information, but the control and the approval will be at a very 
high level at the lab sites--so that there be accountability, 
and the security plans for each of these individuals--and there 
will be a security plan for each individual--will be brought to 
bear before that individual has access.
    Mr. Upton. What about access to some of these weapon parts 
that are at these sites? How would you describe the protection 
of those parts that might be, I don't want to say lying around, 
but stored at each of those sites. I don't know who would have, 
Mr. Podonsky.
    Mr. Podonsky. At all of the sites we had issue and concern 
about classified matter, classified parts. What we have found 
is that all the sites did take corrective action. For example, 
Los Alamos had over 105 different locations that are now down 
to 41 sites. They needed to be inventoried. They needed to be 
put into smaller storage areas so that they could be better 
protected. And if I am not correct, I do believe that all three 
sites have taken corrective actions, but we'll have a better 
feel for that in December when we go back to see how far they 
went.
    But relative to what type of access, we didn't see when we 
were out there that other folks had access. We were concerned 
about the potential of the vulnerability of the parts where 
they were stored.
    Mr. Upton. And what types of parts would they be that you 
looked at 41 different sites within one site? I mean, you're 
talking about cruise missile--what type of parts are you----
    Mr. Podonsky. Well, it varied at the different sites. At 
Los Alamos, it was very nonnuclear weapon components, an array 
of shapes. At one site earlier in 1998 there were cruise 
missiles, as you started to mention, but that was put into 
locked storage.
    Mr. Upton. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Podonsky, where does your office go if the Department 
puts its weapons facility into a new semiautonomous agency?
    Mr. Podonsky. That's not clear, sir. As far as we know, we 
still work for the Secretary, and if we fall into that nebulous 
area called Secretary staff to oversee the new agency, but 
there is no clear indication where that would be. It's my 
understanding in talking to the Secretary that that would be 
his intent, is that we would be the oversight arm for that new 
agency.
    Mr. Stupak. So you'd still see the weapons facilities 
operations then.
    Mr. Podonsky. That's our understanding, but right now the 
devil is still in the details, and we haven't seen all the 
details yet.
    Mr. Stupak. But that's only if the Secretary's plan is 
approved as he's laid out for us?
    Mr. Podonsky. That's as much as I know.
    Mr. Stupak. Okay. What would happen if there is any 
oversight?
    Mr. Podonsky. My personal opinion is it's kind of like the 
formation of the entire Federal Government, executive branch 
and legislative arm. It's based upon oversight existing--and my 
belief is that there's always going to be a need for an 
independent arm to just be a wake-up call, a reminder for the 
various elements in the Department or the new agency.
    Mr. Stupak. One of the lab's responsibilities is to protect 
special nuclear material, isn't it?
    Mr. Podonsky. I am sorry, sir?
    Mr. Stupak. One of your responsibilities is to protect 
special nuclear material.
    Mr. Podonsky. The Department's responsibilities, yes.
    Mr. Stupak. One of the lab's responsibilities?
    Mr. Podonsky. Yes.
    Mr. Stupak. We're going to hear later today that one of the 
labs has consistently met measurement inventory requirements 
for special nuclear material, but you told the staff a few 
weeks ago that Livermore has not been able to do measurements 
for a long time. Mr. Weigand has now said new procedures have 
been put in place to, quote, inventory different system 
analysis, end of quote, and that the reference material has 
just been acquired to measure uranium holdings. So has 
Livermore consistently met these measurements in inventory 
requirements?
    Mr. Podonsky. Not in the past, no, sir.
    Mr. Stupak. Where are they now then? Are they meeting it 
now?
    Mr. Podonsky. My understanding from my inspectors, yes, 
that they are moving forward in their material control 
accountability program. This is another area that General 
Habiger and his folks are going to need to take a look at 
across the complex in terms of the dealing of different 
materials that are difficult to measure.
    Mr. Stupak. Well, if they're doing it now, how are they 
able to measure it now? Is that because they have new 
equipment? Have they done a reinventory?
    Mr. Podonsky. When we were out there, they had committed 
that they were purchasing new equipment. My understanding is 
that's where they are moving toward. Again, I want to 
emphasize, we're going back out there in December to see the 
progress that have been made.
    Mr. Habiger. Sir, if I may, one of the organizations that 
works for me now, the New Brunswick laboratory, is responsible 
for getting some measuring isotopes out there. I was out at 
Lawrence Livermore here about 2 months ago. They told me that 
they could not go green, complete their material control and 
accountability by the end of the year unless they got that 
measuring standard. We pulled out all the stops, got the stuff 
there. It's there. They are in the process. They'll be fixed by 
the end of the calendar year.
    Mr. Stupak. So what did they do before then if they didn't 
have the equipment to do it?
    Mr. Habiger. They were--I am talking about one specific 
item that I was responsible for, but there's--part of the 
problem, and I am not going to go into a lengthy explanation, 
is that when you do inventories, let us say you did an 
inventory in 1991, you used a set of equipment. Then you did 
another inventory in 1995. Things looked okay using the same 
set of equipment. Then you bought a third set of equipment and 
higher technology, closer measurements. You have a delta in the 
amount of material. Then you have to go mitigate, figure out 
did you actually lose some or is it just the measuring 
standards. And that's part of the issue that I am most familiar 
with.
    Mr. Stupak. We don't have an answer yet on that part. We're 
still trying to figure out what happened there then for the 
discrepancies in the numbers then?
    Mr. Habiger. Yes, sir. And we're talking about very, very 
small bits.
    Mr. Stupak. That would be small bits of like plutonium?
    Mr. Habiger. I cannot answer that for you, sir. I will have 
to get back to you.
    [The following was received for the record:]

    The Department is confident that the discrepancies in 
inventory values at LLNL are not caused by actual losses of 
nuclear material but, instead are caused by measurement errors. 
A known source of these errors is the inability to accurately 
measure these materials (Highly Enricher Uranium). In the past, 
LLNL's inability to accurately measure portions of their 
inventory has been due to a lack of new measurement 
technologies and measurement standards. Recently, LLNL has 
acquired new technologies and measurement standards for use in 
their measurements program.
    With these new capabilities, LLNL and the responsible DOE 
offices have committed to performing all required measurements 
related to their nuclear material inventory.

    Mr. Stupak. Okay.
    Mr. Podonsky, do you believe that problems at the labs are 
particularly DOE's fault because their directives were 
ambiguous or completely lacking?
    For example, Sandia brags that it has a world-renowned 
security expert, but it didn't know enough to set up the secure 
password systems on its computers. So whose fault would that 
be, DOE's or the world-renowned lab?
    Mr. Podonsky. If you indulge me for a moment, I'd like to 
answer that. There's a lot of fault in terms of the security 
posture of this Department. Having spent 15 years inspecting 
and producing over a hundred classified reports, I would tell 
you that many of these issues, with the exception of the 
potential espionage--alleged espionage case we have identified, 
it's a matter of attitude and accountability. That's both on 
the Federal side as well as the contractor, be they lab or be 
they M&O contractor.
    We have seen cyclical periods in which the Department has 
focused on environment safety and health, security, back to 
security, back to environment safety and health. What we are 
seeing now is something starting to hopefully take hold, and 
that is that everybody has a responsibility, be it a safety or 
security responsibility. There is no question that there's 
expertise at the laboratory as well as within the Department. 
None of these issues that we have seen over time is, we call 
it, rocket science. A lot of responsibility rests with 
everybody that's involved in the Department, be they contractor 
or----
    Mr. Stupak. I don't disagree, but, you know, I asked just a 
question on passwords, who really would have the responsibility 
there, and we always seem to get back to the questions about, 
well, you know, it's the culture, there's been no 
accountability, there's been no responsibility, but it keeps 
going on. So, when you're going back from environment to 
nuclear to whatever it might be, if it's the same old culture, 
we don't break that cycle, it's going to continue, and we're 
going to be back here a few more years later.
    And when I asked the questions earlier about you and the 
General being cozy on your relationship of policy and 
implementation, I wasn't trying to do it in a negative light, 
but we've got to break that cozy relationship if you're really 
going to get some answers here. And so like I just took a 
simple example like passwords on the systems for the computers, 
who would responsible, DOE or the labs themselves. I guess 
that's what I'm trying to show, to break this up here, so we 
get some responsibility, so we have some accountability so we 
can change this culture.
    Mr. Podonsky. What we have seen--and I wish to reiterate 
this point--is that we have seen that the M&Os are taking the 
responsibility, the line in the Department is taking the 
responsibility, the policy folks. And I also want to emphasize, 
working together is important. Because there is such 
fragmentation within the Department, that also calls for 
confusion of what policies were meant to be implemented, what 
was expected, as well as what the expectations were for the 
various contractors.
    Mr. Upton. Okay.
    Mr. Stupak. I know my time is over. I appreciate it, Mr. 
Chairman, but I just--I even go back to the password. Someone 
has to know they need a password. I mean, that's pretty basic.
    Mr. Habiger. Mr. Chairman, if I could, 15 seconds.
    Mr. Upton. You got it.
    Mr. Habiger. Mr. Stupak, I am accountable--I'm responsible 
for policy, and one of things we found, we didn't have a policy 
for passwords. Within 10 days, we'll have policy out in the 
field for passwords.
    Mr. Stupak. I wouldn't think that these world-renowned labs 
would need a policy that you have to have a password to get 
into a computer. Good grief, the basic level in my office know 
that.
    Mr. Upton. Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Podonsky, I'd like to just ask your help in 
understanding some of your findings. There's already been some 
Q and A about classified parts. In your view, are the inventory 
problems fixed at the labs?
    Mr. Podonsky. In our view, they are on their way to being 
fixed at the labs.
    Mr. Cox. That's different than they are fixed, I take it?
    Mr. Podonsky. Well, we would like to see--we would like to 
see more, but we are pleased at the progress that has been made 
thus far.
    Mr. Cox. So they're better than in 1998 for example?
    Mr. Podonsky. Yes, absolutely.
    Mr. Cox. This cruise missile incident that the chairman 
mentioned was fall of 1998; is that right?
    Mr. Podonsky. That was in 1998, yes, sir.
    Mr. Cox. Now, I take it that the external aspect of the 
cruise missile is not classified so that photographing it from 
the other side of the chain link fence--where it was visible--
would not have been a breach of the classification?
    Mr. Podonsky. I'm not aware as to what parts of the missile 
would or would not be classified.
    Mr. Cox. What can you tell us about that incident?
    Mr. Podonsky. One of my inspectors found a number of--
number--3 or 4, I am not sure, I don't recall which--of cruise 
missiles that were being stored, and we felt that they were not 
in a secure environment. If I'm not mistaken, they were stored 
outside--they were stored inside a block building, but there 
was no protective force that we could see during the 
inspection. Now, since then, all these parts have been put into 
a secure environment.
    Mr. Cox. I take it the problem with classified parts is one 
that's gone on for a number of years?
    Mr. Podonsky. Yes, sir.
    Mr. Cox. If I understand your report correctly, you raised 
concerns about Los Alamos' protection strategy in 1994?
    Mr. Podonsky. As far back as 1994, yes.
    Mr. Cox. In your 1997 report on Los Alamos, 3 years later, 
you stated that the lab received clear direction from the 
Department and its field office in 1995. Now, that 1995 
direction would have come a year after your 1994 report finding 
problems, that Los Alamos received clear direction again in 
1996 to fix its problem with classified parts protection, and 
that when you returned in 1997 you found that the situation, 
``remains essentially unchanged since 1994.'' So we've got 
1994, 1995, 1996, 1997, 4 years where there's a clear signal 
going to Los Alamos to fix the problem, and in your estimation, 
nothing happened; is that right?
    Mr. Podonsky. Yes, sir, that's a correct characterization.
    Mr. Cox. Since you have been around this, do you know why 
that would be?
    Mr. Podonsky. I can only give you my personal opinion, but 
relative to--relative to the focus at that time, I would defer 
that to line defense programs and the laboratory to explain why 
that reoccurred.
    Mr. Cox. I take it that if you don't have a good inventory 
system for classified weapons parts, that creates an immediate 
problem because you don't know when a piece has gone missing; 
is that right?
    Mr. Podonsky. You have a potential for that.
    Mr. Cox. And so when it then comes to questions of 
adequately securing those parts, in other words, they're not 
guarded properly, we don't know whether in consequence of this 
long-running problem, that at Los Alamos we have said recurred 
throughout 1994, 1995, 1996, 1997, whether or not something was 
stolen and we no longer have it; is that right?
    Mr. Podonsky. You could infer that. We have no evidence 
that anything was missing. We were concerned about the 
practice.
    Mr. Cox. But, of course, you don't have an adequate 
inventory either.
    Mr. Podonsky. No, they do not.
    Mr. Cox. Let me ask you about the Superblock. This is the 
area at Livermore which we are most concerned about from a 
security standpoint, I would take it, because that's where we 
store our nuclear material. Now, your report tells us that we 
had a guard force that I take it was adequate in 1995. Was it 
adequate in 1995?
    Mr. Podonsky. They started to go through some reductions. 
Adequate training, yes. Adequate numbers----
    Mr. Cox. From 1995 to 1997 your report says that guard 
force got cut almost in half. Why did that happen?
    Mr. Podonsky. The Department was going through reductions 
in attempts to save, save money.
    Mr. Cox. In your view, is that a good place to save money 
and a good way to save it?
    Mr. Podonsky. It was never our view, no, sir.
    Mr. Cox. You describe the measures that have been taken to 
upgrade that security since you pointed out the deficiencies as 
temporary, pending permanent fixes. What is the nature of the 
temporary fix compared to the permanent fix that you expect?
    Mr. Podonsky. Without getting into classified because of 
the open session, we are working to--we are following what they 
are doing in terms of their testing. What's of critical concern 
to us is their ability to perform against various scenarios. 
They have, to their credit, have increased the numbers of 
guards at the Superblock. The next piece of it is going to be 
their ability to protect assets they are assigned to.
    Mr. Cox. Given that you have been around this block several 
times, around the Superblock, given that you've had to write 
reports in successive years pointing out that nothing has 
changed, when we hear that fixes are pending, that, for 
example, the accounting problems are not solved, parts of 
accounting problems are not solved but they are on their way to 
being solved, that the temporary fix is in place for the 
nuclear material guard force, will be made permanent, what can 
you tell Congress that will assure us that this time it's 
different?
    Mr. Podonsky. I have served through four Secretaries. I 
have reported to many congressional committees. It's only in 
this last year that I have seen a Secretary of Energy fully 
engaged and a Congress fully engaged to follow through on many 
of the issues that we have identified over the years. So I and 
my people feel very confident, albeit somewhat guarded, that 
there's so much attention being paid that perhaps now we will 
finally get there. We know the Secretary is committed. We know 
the Department is committed. I know that my colleagues that 
report directly to the Secretary, such as General Habiger, is 
committed. We haven't seen that before.
    Mr. Cox. My time has expired I see, and I don't want to 
test the goodwill of the chairman.
    My understanding is that you're gone in a year; is that 
right? Well, I'm sorry--I'm happy you're not gone in a year. I 
would have hated to be the one to bring you that news.
    Mr. Podonsky. I think I need to be resuscitated.
    Mr. Cox. No, no. It's a problem of having things whispered 
to you from staff. The staff were just pointing out that the 
Secretary is going to be gone in a year, of course, or perhaps 
not, but we do have changes of administration and changes of 
personnel which leads to me what I hope will be a question that 
I will finally be permitted, and that is, whether or not any of 
the three of you can tell us that you are reasonably far along 
in narrowing a field of candidates for the new administrator of 
the NNSA? Is that something that you are taking responsibility 
for, any of you?
    Mr. Podonsky. No, sir.
    Mr. Cox. You haven't been asked for suggestions or to 
review credentials or qualifications of people?
    Mr. Habiger. No, sir.
    Mr. Cox. Well, I think that concerns me a little bit. 
Oughtn't you to be consulted on such a thing? Don't you have 
some expertise in those areas?
    Mr. Habiger. If I could, sir, not necessarily. The 
Department of Defense, as the commander-in-chief of one of our 
commands, I was asked to make inputs on people that work 
directly for me, but my colleagues at very high level, that was 
never an issue of discussion.
    Mr. Cox. All right. Well, I do certainly hope that this is 
progressing and that we don't have the Secretary acting as the 
administrator.
    I thank the chairman.
    Mr. Upton. Thank you.
    I have two additional questions, and I want to make an 
announcement, in conferring with my colleagues. We are going 
to--I'm going to ask--I have a couple of questions. Mr. Burr, 
who is in the next room, is going to ask another round of 
questions--I hope that's not a vote that I hear--and then we 
are going to adjourn. We will finish then with this panel, be 
finished, and we will start with Panel II at one o'clock.
    Mr. Podonsky, at Sandia you found problems with access 
controls in areas where classified matter was used and stored. 
Can you give us just a couple of examples of that, help us with 
that?
    Mr. Podonsky. I am going to have to defer for a question in 
terms of whether I would get into classified or not.
    Mr. Upton. Maybe if you could just submit that for the 
record. And at this point, that gives me a good transition. All 
members will be able to ask and submit written questions, and 
they will stay in a classified state if you deem them to be, 
and we will put that in there.
    The last question that I have before I yield to Mr. Burr, 
what troubles me as I look at these ratings, and you indicated 
that two were satisfactory, one was marginal. Marginal to me is 
not satisfactory. I guess by definition it's not.
    I'd be interested to hear from each of the three of you 
with regard to what attention or what measures do you think we 
should impose on the outside contractors when, in fact, that 
rating is not satisfactory, is--in other words, when it's not 
satisfactory or marginal? What additional pressures should we 
be able to see to bear on those when that happens, Mr. Curran?
    Mr. Curran. Sir, I can only speak for our inspection 
process. If the inspection finds a CI program to be less than 
satisfactory, or even if it is satisfactory, there are 
recommendations we make to improve the system. If it's less 
than satisfactory, but they still have effective program, yet 
they're not where we would like them to be, we clearly state 
that, and we give them recommendations to fix it and fix it 
immediately. We will go back in 6 months to see if they fixed 
it. If they haven't, then we need to make changes. We don't 
keep going back. I mean, you either fix the problems----
    Mr. Upton. Can you provide--you know, one of the things I 
indicated my opening statement was the fact that we are going 
to be talking with Chairman Bliley about a bipartisan trip of 
members to visit a couple of these labs probably early next 
year. Would it be possible for us to see a list of the items--
--
    Mr. Curran. Yes, absolutely.
    Mr. Upton. [continuing] by the labs in terms of what you 
found?
    Mr. Curran. Some of these issues that we raised--for 
instance, in Livermore, we found it had a satisfactory program. 
There are issues that we say, you know, you need to do this 
better than you have been doing it, and there's other issues 
that they raised with us.
    For instance, we need our people, our CI people at the 
laboratory to have access to security files, which they don't 
have at this point. General Habiger and I have been working on 
that, and that's going to be fixed. Our contractors, CI people 
at the labs, don't have a personnel list of people who are 
involved in high-risk programs. They need to know that for 
briefing, debriefing and whatever. We are going to fix that.
    So not all the recommendations pertain particularly to lab. 
What we are looking for is to improve the overall DOE program 
as best we can.
    Now, these items are coming out that need our attention 
that we have these Special Access Programs that are taking 
place in. The CI people are not aware of what those are. We 
need to fix those programs. But if a lab is less than 
satisfactory or marginal--if it is marginal, we may have to 
make changes right on the spot. If it is an effective program, 
but should be a lot better, then we will go back there and fix 
it. It is one shot. We don't just keep going back and back 
until we run out of narrative here.
    Mr. Podonsky. Mr. Chairman.
    Mr. Upton. Mr. Podonsky. Mr. Podonsky. One of the things 
that we also look for--and there is a requirement as of August 
31, 1999--after every one of our inspections, the facility, 
together with the PSOs, needs to provide us with a corrective 
action plan for comp measures and long-term corrective actions. 
And one thing that has never happened before in the Department 
is, security findings and issues do not always result in 
corrective action plans that got implemented.
    Mr. Upton. Does that corrective action plan include a time 
line in terms of when it is going to be fixed?
    Mr. Podonsky. Yes, sir, it is supposed to include that.
    Mr. Upton. That would be interesting for us to see before a 
visit to look, just since August 1999.
    At this point I yield to the vice chairman, Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. Let me follow up on 
where the chairman was, and that is with contractors because 
the contractors also go through an annual evaluation; and I 
think in hearings past, we have pointed out the discrepancies 
in what you found, Mr. Podonsky, as it related to their 
security status and, in fact, what the annual assessment of 
their job performance was. In some cases, at the end, it was 
satisfactory. You came with marginal or unsatisfactory, and at 
some point during the year, deficiencies were noted.
    In June, Secretary Richardson issued a memo that said DOE 
is drafting a new contract clause that would place the labs' 
annual performance fee at risk.
    General, what do you think about that proposal?
    Mr. Habiger. It is a great idea.
    Mr. Burr. The contractors are not going to be too happy 
with that.
    Mr. Habiger. This gets back, sir, to the accountability 
issue, in terms of the contractors being accountable, as well 
as DOE employees being accountable.
    We certainly got the University of California's attention. 
Sitting behind me as a spectator here is recently retired Air 
Force Colonel Terry Owens, who was in charge of security and 
counterintelligence for all of Europe. He is now the full-time 
Security Administrator for the University of California. 
Before, they had a part-time individual who came in 3 or 4 days 
a month.
    Mr. Burr. General, out of all the things that you told me, 
that is one of the things that I hope is 100 percent accurate, 
because one question that I asked yesterday in our briefing 
was, did the University of California understand after their 
visit up here the seriousness with which we're going to take 
this issue. And I hope, in fact, that did get through to them 
and that your former colleague is not there just for window-
dressing alone.
    Mr. Habiger. I guarantee you, sir, he is not. I know him 
well. He used to work for me.
    Mr. Burr. Part of this requires a cultural change at the 
DOE because, in fact, when Mr. Podonsky goes into a facility, 
or Mr. Curran, when there is a suggestion from the security 
side of our inspection team that they had a deficiency, the 
contractor, as I understand it, cannot carry anything out until 
there is a policy directive from the Department of Energy.
    You shake your head, General, but when there is a 
recommendation made--now, correct me if I am wrong, Mr. 
Podonsky--when there is a recommendation made, the Department 
of Energy has to then write the policy before the contractor--
--
    Mr. Podonsky. No, sir, first we don't make recommendations. 
We make findings and we issue findings that are tracked to see 
what the corrective action is going to be. Our findings are 
based on existing policy and performance.
    I am not aware that the contractor does not take corrective 
action until there is a policy. It's--it's the lead PSOs that 
have the responsibility to make sure that these things are 
being implemented and corrected.
    Mr. Burr. Would I take for granted then that all the 
findings that you found are currently being acted on and that 
none of the findings are, in fact, idle?
    Mr. Podonsky. I wish that would be the case.
    Mr. Burr. Then, of the findings that you have addressed, 
why is there not action on 100 percent of them?
    Mr. Podonsky. I would ask you to ask that of the PSOs and 
the laboratory, because what we tried--when we identify, it is 
a simple----
    Mr. Burr. I think at the last hearing--I think you were in 
attendance when the University of California and other people, 
as well as the lab managers, testified, and I will look to our 
counsel in case I misunderstood it--my understanding was that 
their reasoning was that they didn't have the policy directive 
from the Department of Energy. I am told in certain cases, yes. 
I don't know that that gets us any further down this road. But 
what you're saying is that where you have had a finding, 100 
percent of them haven't been acted on and that we need to ask 
the contractors and the labs why; is that correct?
    Mr. Podonsky. One hundred percent have not been acted on 
for various reasons. Some may, in fact, be resources. What we 
were talking about before, they may take compensatory measures, 
and we are looking for long-term fixes.
    Mr. Burr. Did your team send to DOE management findings 
that DOE has not acted on?
    Mr. Podonsky. Yes.
    Mr. Burr. And what percentage of your total findings would 
that be?
    Mr. Podonsky. It is a low percentage today, but part of 
that--and we understand the business of prioritizing those 
which are the priority ones, but I must hasten to say that what 
we have seen today in terms of response is a far better picture 
than what we've seen in past years.
    Some of it is resource requirements, be it money or 
manpower; some of it is technology like in the cyber security 
arena. But I'm not--my point, that I'm trying to answer your 
question to, is it's not always, as far as we are concerned, 
tied to a policy shortcoming; there may be other variables 
there. But, to date, since the Secretary created this office in 
May of this year, most of the findings are being addressed, at 
least with compensatory measures.
    Mr. Burr. Do we still have a policy of remote access to 
unclassified computers at the labs?
    Mr. Podonsky. I think General Habiger----
    Mr. Habiger. I addressed that while you were out of the 
room.
    Mr. Burr. I apologize if I was out of the room.
    Mr. Habiger. No problem.
    The problem was identified in August by Glenn. We have 
policy that will be out late next week that greatly tightens up 
that shortcoming, that his people identified, Glenn's people 
identified. They will make--if we're going to have people on 
that list of 25 countries that are sensitive and the terrorist 
countries that will have access to unclassified systems----
    Mr. Burr. Is that a policy, then, that the contractor will 
administer?
    Mr. Habiger. You bet. And he will be accountable.
    Mr. Burr. Tell me, was this not a road we were just down, a 
finding, a policy?
    Mr. Habiger. Well, let me, if I could, sir--and I think 
this is an important point because I got into this when I 
started getting smart about how the Department operates, 
legally, the contractor doesn't have to comply unless there is 
a policy. But I can tell you my relationships with the three 
national laboratory directors, and I have a very close working 
relationship with them; every time I've called them and talked 
to them about these kinds of issues, they've taken immediate 
action.
    Mr. Burr. General, I hope that--I assure you that I will 
and I hope that you will go back and read the testimony of 
those individuals who testified in front of this subcommittee 
and how many times they said, we can't do it without the policy 
written by the Department of Energy. And I am sorry they're not 
here to testify as well.
    Let me ask you, Mr. Podonsky, one last question. If we had 
a weapon stored at one of these facilities--and I think it is 
safe to say that we do--and somebody wanted access to that 
weapon, would they steal the weapon or would they steal the 
blueprint of the weapon, given that both had access that was as 
easy as the other?
    Mr. Podonsky. I think the way I would answer that is that 
we do not believe that nuclear material or weapons parts or 
components are at risk today. Our area that we are most 
concerned about is the information security. So, your 
hypothetical situation, I would say that they would be more 
attractive to go after the information as opposed to the actual 
material.
    Mr. Burr. Thank you. I thank all three of you.
    I yield back.
    Mr. Upton. Thank you.
    Mr. Cox, do you have any further questions?
    Mr. Cox. Actually, Mr. Chairman, I have a number of 
questions, and I think if the panel would be willing to respond 
to the committee and follow up with written questions and 
answers we can handle most of them that way. There are a number 
of details that I think the committee ought to be very 
interested in, and so I would prefer to follow up that way on 
these details.
    They are not just details. Many of the things--I think we 
could spend an hour talking about e-mail, because we are 
becalmed there. I know we are doing a lot to try to change the 
status quo, but in terms of results I think we're sort of where 
we started. And on and on.
    There are a number of these issues that I think need to be 
covered. So if you are all willing, and if the committee is 
planning to do this in any case, I will pursue my questions 
through that route.
    Mr. Upton. We have indicated that we will, in fact, be 
pursuing that course.
    Panel, thank you very much. We appreciate your time, your 
testimony, and we want very much to encourage your continued 
commitment to try and do your very best to make sure that all 
of these secrets and facilities are, in fact, properly and 
adequately safeguarded.
    Thank you very much. We will reconvene at 1 o'clock.
    [Brief recess.]
    Mr. Upton. Okay. We are back. As you saw with the first 
panel, we have a long tradition of taking testimony under oath. 
Do any of you have objection to that?
    We also, under both committee rules and House rules you are 
allowed to have counsel, do any of you wish or desire to have 
counsel?
    If you would stand and raise your hands.
    [Witnesses sworn.]
    Mr. Upton. Thank you very much.
    We will start with Dr. Robinson.

   TESTIMONY OF C. PAUL ROBINSON, PRESIDENT AND LABORATORIES 
    DIRECTOR, SANDIA NATIONAL LABORATORIES; JOHN C. BROWNE, 
  DIRECTOR, LOS ALAMOS NATIONAL LABORATORY; C. BRUCE TARTER, 
DIRECTOR, LAWRENCE LIVERMORE NATIONAL LABORATORY; GIL WEIGAND, 
DEPUTY ASSISTANT SECRETARY, STRATEGIC COMPUTING AND SIMULATION, 
 U.S. DEPARTMENT OF ENERGY; AND JAMES TURNER, MANAGER, OAKLAND 
          OPERATIONS OFFICE, U.S. DEPARTMENT OF ENERGY

    Mr. Robinson. Thank you, Mr. Chairman. I think I, as well 
as all my colleagues, will try and be somewhat careful in our 
remarks today in an open session. In security matters, it is 
better to put any sensitive questions that involve 
vulnerabilities into a closed session--I don't know if that is 
possible--or else answer them for the record.
    We also make a practice, which I think is also common 
sense, of not fully revealing the methods and practices that we 
put into use in monitoring because we get a bigger deterrent 
force by those.
    Sandia has indeed had a long history of R&D responsibility 
for security technology, including the design of systems for 
nuclear weapons storage, for transportation and for site 
security. We have designed the site security for major military 
bases with high value as well as for airport security.
    We have also become, over the years, specialists in cyber 
security. Thus, I take that our laboratory, as well as all the 
members of our staff, I believe, should have a higher 
obligation to be sensitive to security matters.
    I would certainly like to clear up a problem in the last 
session where it was suggested that Sandia does not have 
security passwords for its computers. That was not the case. A 
very narrow question was raised in the I&E inspection about 
passwords, certainly not an across-the-board. Sandia has had a 
secure system of three levels of access for its computers since 
1989, and a full fire-walled system between the restricted 
information and the open unclassified network. And we have 
always had a fully air-gapped system to our secure computers.
    The sites that we operate do have distinct advantage, at 
least our New Mexico site, our site in Kauai, Hawaii and in 
Tonopah, Nevada. They are the equivalent of living in a gated 
community, though perhaps a little stronger. They are fully 
contained within operating military bases. The principal site 
is completely within the site of Kirtland Air Force Base, and 
we carry out a close relationship with the security forces of 
our laboratory and the Air Force.
    The DOE's independent oversight office in their inspection 
and evaluation in August of this year, in six of the areas, 
they declared ``satisfactory,'' three areas they declared 
``marginal'' with problems having been found in one area 
``unsatisfactory'' and an overall of ``marginal.'' I would 
point out that in prior years, in 1994, 1996 and 1997 and other 
DOE inspections of our security, we were satisfactory in all of 
those.
    In 1998, a partial inspection had been done and we were 
marginal in a couple of areas there. I believe the review was, 
in fact, a useful review this time. And certainly a set of 
fresh eyes is always good to look at what's going on and spot 
something that you, operating every day, may not see, though I 
believe the biggest change is, in fact, that threats are 
changing and have changed over time. And we are not always as 
rapid to respond to those, and it is a good wakeup call when we 
do find something that does need to be fixed, and we have given 
high attention to fixing those.
    We are trying to institute an approach to security that we 
found is successful in other areas, and I would call it 
applying quality methodologies in the security area. It is 
certainly not enough to try and inspect out all the defects in 
security. You have got to build the quality in as the 
foundation. That means getting every individual in the 
laboratory involved in their responsibility for security and 
put most of your emphasis there, which is what we do. We try to 
install an integrated security management system in a similar 
way to which we have done it in the environmental safety and 
health area with, I think, very high success.
    I attached to my statement, which I assume you will accept 
for the record, a much longer statement, a comment about 
polygraphs. And, again, in the earlier session there was a 
statement that people hadn't been polygraphed. At our 
laboratory just under 200 people have been polygraphed, not as 
a result of a DOE directive but as part of other programs. The 
wish to extend polygraphs to a much wider area has caused me to 
have to look a lot more carefully at the underlying science of 
polygraphs if we are to, in fact, risk the future of the 
laboratory on this.
    I attached as an appendix to my statement a report done by 
a number of my senior scientists which I commissioned to look 
at the underlying basis of polygraphs. I was not pleased with 
their findings. I don't think you will be either when you read 
as to the adequacy of polygraphs. If not applied carefully, we 
may in fact be making things less safe because when you crank 
down the polygraph to try and get a smaller and smaller number 
of false positives, you must at the same time open the doors to 
let real deceptives get through. And in particular, when 
polygraphs such as these are to be used to apply--to allow 
someone to be given a clearance in advance of a background 
investigation, I think you are putting in a risk that I would 
find unacceptable.
    Finally, let me say I think we've got to, in the future, 
put more attention on stopping the espionage problems in other 
routes than just looking at security. I think attacking it 
directly. First of all, better background investigation--and I 
am pleased with the legislation that was just passed. I think 
our site will probably go up to exclusively Qs, which is how we 
used to operate throughout most of our history; and we will 
celebrate our 50th anniversary at end of this month.
    I also believe it's appropriate with the level of security 
material and the responsibility we are given that sting 
operations are an approach to directly attack security 
problems, as well as greater surveillance activities of 
laboratory activities.
    With that, I'll complete my oral statement.
    [The prepared statement of C. Paul Robinson follows:]
   Prepared Statement of C. Paul Robinson, Director, Sandia National 
                              Laboratories
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify today. I am Paul Robinson, director of 
Sandia National Laboratories.
    Sandia National Laboratories is a multiprogram laboratory of the 
U.S. Department of Energy and one of three DOE laboratories with a 
research and development responsibility for nuclear weapons. Sandia's 
job is the design, development, and certification of nearly all of the 
non-nuclear subsystems of nuclear weapons. Our responsibilities include 
arming, fuzing, and firing systems; safety, security, and use-control 
systems; engineering support for production and dismantlement of 
nuclear weapons; and surveillance and support of weapons in stockpile. 
We perform substantial work in programs closely related to nuclear 
weapons, such as nuclear intelligence, nonproliferation, and treaty 
verification technologies. As a multiprogram national laboratory, 
Sandia also performs research and development for DOE's energy offices, 
as well as work for other agencies when our unique capabilities can 
make significant contributions.
    As you know, the DOE Office of Independent Oversight and 
Performance Assurance recently concluded a comprehensive inspection of 
safeguards and security at Sandia National Laboratories, New Mexico, 
and issued a report on August 23, 1999. The inspection gave 
``satisfactory'' ratings in six topical areas in security at Sandia, 
``marginal'' ratings in three areas, and an ``unsatisfactory'' in one 
area, resulting in an overall facility rating of ``marginal.'' The 
security areas receiving ``marginal'' rankings were

<bullet> Unclassified Visits and Assignments by Foreign Nationals,
<bullet> Unclassified Cyber Security, and
<bullet> Protection Program Management.
    The area receiving the ``unsatisfactory'' rating was Classified 
Matter Protection and Control. Our corrective action plan for 
addressing the findings and issues identified in the inspection is well 
under way.
    A ``marginal'' facility rating is clearly unacceptable to Sandia, 
and we are committed to achieving a satisfactory evaluation at our next 
opportunity. However, I do not believe this score necessarily indicates 
that security has deteriorated at our site. Rather, I believe it 
reflects a new reality of higher threat levels than existed in the past 
and more rigorous requirements to counter them.
    Because the inspectors' report is classified ``SECRET,'' we cannot 
discuss its specific findings in open session. Consequently, I will 
give a general overview of Sandia's security programs and the 
initiatives that we are taking to improve performance. If the committee 
wishes to discuss the details of the inspectors' findings and our plan 
for corrective actions, I will be happy to provide information in 
closed session.
             sandia is committed to excellence in security
    The espionage threat against the DOE nuclear weapon laboratories is 
a matter of great concern to me and my colleagues at Los Alamos and 
Lawrence Livermore national laboratories and at the Department of 
Energy. We are all taking vigorous steps to address this threat in its 
various forms.
    Sandia National Laboratories has always been managed by an 
industrial contractor. I believe our laboratory culture has been 
strongly influenced by its industrial heritage, which began under the 
AT&T Bell Laboratories and continues today with Lockheed Martin. That 
heritage includes a strong cultural commitment to security. I am 
pleased but not surprised that the inspectors noted a positive and 
cooperative attitude among Sandia managers with whom they worked during 
the inspection. Sandians care!
    In a programmatic sense, Sandia is one of the nation's top centers 
of expertise in security. For decades, Sandia National Laboratories has 
been a leader in security research for nuclear weapons, nuclear 
facilities, and nuclear materials. We have designed security systems 
for sensitive military installations and other facilities such as 
airports, for example. For more than thirty years, we have worked 
closely with the National Security Agency on nuclear control codes and 
hardware that implement the highest levels of code protection. We 
design and maintain the usecontrol systems (including the hardware, 
software, and code management subsystems) that ensure that the nation's 
nuclear weapons can be used only with proper authorization. We also 
design and develop the equipment, facilities, and information systems 
for secure transportation and storage of nuclear weapons. These systems 
are subjected to extensive testing to ensure that they are secure.
    Sandia's design engineers and scientists associated with the 
nuclear weapons program and related national security programs have a 
deep appreciation of the gravity of their security responsibilities. 
And I can assure you that management at Sandia is equally serious about 
security. It is a fact, however, that the technological challenges of 
information security have grown enormously in recent years. It is a 
tougher problem than it used to be. The recent attention given to 
security at the DOE Defense Programs laboratories is salutary and will 
help us focus on the emerging challenges of security in the cyber age.
                  security as a contractual obligation
    Sandia National Laboratories is managed and operated by Sandia 
Corporation, a subsidiary of Lockheed Martin Corporation. As an officer 
of Sandia Corporation, I am well aware of my contractual 
responsibilities for security. Effective security is not a choice, it 
is a requirement. The management contract for Sandia National 
Laboratories is quite explicit in this regard:
          The contractor shall conduct safeguards and security 
        programs, including counterintelligence, physical security, 
        protection of government property and information; 
        classification and declassification of information and 
        materials; safeguards of nuclear materials control and 
        accountability; foreign national program; computer security; 
        and personnel security and access control for laboratory staff 
        and visitors.
    Moreover, several DOE directives relating to security are 
incorporated by reference into the contract:

<bullet> DOE Order 470.1, ``Safeguards and Security Program''
<bullet> DOE Order 471.1, ``Identification and Protection of 
        Unclassified Controlled Nuclear Information''
<bullet> DOE Order 471.2A, ``Information Security Program and Manual 
        for Classified Matter Protection and Control''
<bullet> DOE Order 472.1B, ``Personnel Security Activities''
<bullet> DOE Order 474.1-2, ``Nuclear Materials Management and 
        Safeguards System Reporting and Data Submission''
<bullet> DOE Manual 475.1-1, ``Identifying Classified Information''
<bullet> DOE Order 1240.2B, ``Unclassified Visits and Assignments by 
        Foreign Nationals''
<bullet> DOE Acquisition Regulation 952.204-70, ``Classification/
        Declassification''
    Sandia Corporation's prime contract with DOE is a performance-based 
contract. Performance under the contract is determined through a 
laboratory appraisal system. DOE evaluates Sandia's performance 
annually and issues the Sandia National Laboratories Multiprogram 
Laboratory Appraisal Report. This performance appraisal is based on a 
jointly negotiated appraisal agreement that defines specific 
performance objectives, performance measures, and performance 
expectations to be evaluated each fiscal year.
    I and the directors of Sandia Corporation are mindful that 
unsatisfactory performance will impact our annual laboratory appraisal 
and reflect on the reputation and credibility of Lockheed Martin 
Corporation. Security performance is a part of each corporate officer's 
performance management plan. Thus, contractual motivations for 
satisfactory security performance exist, and they are tangible to 
management.
                  trends in security during the 1990's
    Protection philosophies were clearly affected by the end of the 
Cold War. Concerns over espionage took a back seat to other worries, 
such as whether we could sustain the program and the stockpile and 
whether we could get sufficient resources to do our work. There was a 
willingness to assume, perhaps, that the fall of the Soviet Union 
signaled the beginning of a new era of global peace in which espionage 
would not require the same level of concern.
    The more relaxed attitude toward security was evident in certain 
policy changes. Secretary O'Leary ordered an aggressive 
declassification review program early in her tenure. In 1992 DOE 
relaxed the accountability requirements for controlled documents. The 
modified accountability program omitted requirements for unique 
document numbers and maintenance of accountability records for certain 
classes of documents, inventories, destruction certificates, written 
authorizations to reproduce, and internal receipting. DOE also 
eliminated the requirement that all personnel with access to limited 
areas have a Q clearance, encouraging instead the use of the less 
rigorous L clearance for employees without need-to-know.
    The end of the Cold War also resulted in substantial budgetary 
reductions for the DOE laboratories. From fiscal year 1992 through 
1995, the Defense Programs budget dropped 25 percent in constant 
dollars. In response to criticism by Congress and the Galvin Task Force 
(Secretary of Energy Advisory Board) that costs were too high, 
Secretary O'Leary pledged to reduce costs at the nuclear weapon 
laboratories by $1.7 billion over five years beginning with fiscal year 
1995. In response, Sandia committed to achieve $250 million in cost 
reductions. The bulk of the savings came from reducing administrative 
support costs and overhead, such as processes for procurement and 
materials management, human resources, financial management, 
information systems, and facilities services including security. We 
reengineered our corporate processes to streamline these activities and 
achieve efficiencies comparable to those in private industry.
    Meeting the cost reduction targets for security during this time 
was very challenging. Even so, Sandia's safeguards and security program 
continued to receive satisfactory ratings in external appraisals and 
assessments. We were complying with the applicable directives for DOE 
security programs. We didn't consider, however, that such compliance 
might not be a reliable indicator of actual performance. In my view, 
this was a logical flaw that lulled the DOE community into feeling good 
about security when it should have felt rather uneasy. Yes, we complied 
with the DOE directives without serious consideration as to whether our 
security programs were truly effective with respect to the evolving 
threats. As a result, our security capabilities remained static while 
the threats advanced.
    In 1998 DOE and the laboratories both began to realize that their 
security capabilities had not kept pace with the evolution of security 
threats. A review by the DOE Albuquerque Operations Office that year, 
as well as our own internal assessment, identified areas where security 
capabilities and performance required improvement. We took immediate 
corrective actions (as we do whenever an inspection indicates 
vulnerabilities), we tried to identify root causes, and we formulated 
an action plan to develop long-term solutions to the issues. I am 
pleased that the recent comprehensive inspection of safeguards and 
security by the DOE Office of Independent Oversight and Performance 
Assurance found that Sandia made significant progress in correcting the 
deficiencies identified in last year's special survey. Nevertheless, 
our goal is not merely to correct items identified by inspections, but 
to improve and sustain the capabilities and performance of our security 
programs.
overview of security program management at sandia national laboratories
    We are implementing an approach to security management at Sandia 
that draws from a successful strategy DOE adopted a few years ago for 
managing environmental, safety, and health programs. Sandia's 
integrated safety management system (ISMS) is designed to enable safe 
and compliant mission work performance, rather than being focused on 
compliance alone. Integrated Safety Management is a DOE-wide program 
that Sandia helped develop and which we wholeheartedly support. The 
program has proved to be an effective and rational approach to 
sustaining excellence in safety performance over the long term. We are 
adopting a similar approach for security.
Sandia's Integrated Safeguards and Security Management System (ISSMS)
    Sandia is in the process of implementing--with DOE's support and 
encouragement--an Integrated Safeguards and Security Management System 
(ISSMS) for all its security responsibilities. The first principle of 
security management under ISSMS is that line management is responsible 
for the protection of the assets entrusted to them: It is the 
realization by employees that security is not someone else's job, it is 
part of your own job. We can't just bring in security experts and give 
them the job; every single person bears responsibility.
    ISSMS will establish clear and unambiguous lines of authority and 
responsibility for ensuring that secure operations are established and 
maintained at all organizational levels. It will ensure that personnel 
possess the experience, knowledge, skills, and abilities necessary to 
discharge their security responsibilities. And it will provide a way to 
allocate resources efficiently to address security and operational 
needs.
    Our ISSMS methodology stresses the need to identify applicable 
security standards and requirements before work is performed. 
Administrative and engineering controls to prevent and mitigate 
security risks are tailored to the work being performed and designed 
into work processes. ISSMS will measure security performance in a way 
that will help us identify effective and ineffective practices. We 
will, of course, comply with all applicable DOE directives for 
security; but the ISSMS program will go beyond compliance to measure, 
evaluate, and improve actual security performance.
Funding for Internal Security Programs
    Sandia National Laboratories and DOE spent about $43 million on 
internal security programs at Sandia in fiscal year 1999. Of that 
total, $37 million supported general safeguards and security programs, 
such as control and accountability of special nuclear materials, 
physical security systems, classified matter protection and control, 
protective force, and personnel security. Counterintelligence was 
funded at $850,000 in FY1999; I expect the budget for 
counterintelligence (which is provided directly from DOE headquarters) 
to increase substantially in FY2000. Total funding for Sandia's 
internal security programs in FY2000 is expected to be nearly $50 
million.
    Cyber security operations were funded at $2 million in FY1999 and 
were increased by 30 percent in FY2000. In addition, we invested $2.6 
million for information security (InfoSec) improvements in FY1999 but 
discovered that much more is needed to meet the challenges revealed in 
the Cox Report. The Integrated Security Management Program of DOE's 
Office of Defense Programs calls for investments of approximately $100 
million per laboratory in FY2000 and about $35 million per year in 
subsequent years for cyber security. That level of investment is far 
beyond what can be accommodated within the FY2000 budget.
Physical Security
    Assets protection at Sandia encompasses a multitude of security 
interests ranging from government property to special nuclear 
materials. Naturally, with such a broad range of assets, there must be 
a graded approach to protection. The level of protection afforded a 
particular asset depends on the potential risk to national security, 
program continuity, and the health and safety of employees and the 
public. Sandia's security program is based on risk management, which in 
this context requires that higher risks get greater protection. This 
approach minimizes activities that add little protective value but 
increase program costs.
    Physical security areas are established with appropriate levels of 
protection for the nature, sensitivity, or classification of protected 
material or information:

<bullet> Property Protection Areas are security areas established for 
        the protection of unclassified DOE property against damage, 
        destruction, or theft.
<bullet> Limited Areas are security areas defined by physical barriers 
        used for the protection of classified matter or special nuclear 
        material, where protective personnel or other internal controls 
        can prevent access by unauthorized persons. Exclusion Areas may 
        be established within limited areas where mere presence in the 
        area would result in access to classified matter.
<bullet> Protected Areas are established for the protection of special 
        nuclear materials or vital equipment. Material Access Areas are 
        contained within Protected Areas and have separately defined 
        physical barriers constructed to provide sufficient delay time 
        to impede or deter unauthorized access. Vital Areas are areas 
        located within Protected Areas used for the protection of vital 
        equipment.
<bullet> Restricted Access Areas are areas established to protect 
        sensitive compartmented information facilities, central alarm 
        stations, secondary alarm stations, secure communication 
        centers, and automated information system centers.
    Classified matter may not be stored or used in a facility until 
specific approval has been granted by DOE, based upon review and 
acceptance of the facility security plan and, if appropriate, an onsite 
survey. Control procedures are established to protect classified matter 
appropriately under all conditions: in use, storage, and transit.
    Sandia's laboratory facilities in New Mexico, and its testing 
facilities in Nevada and Hawaii, are located on military installations, 
which provide significant additional security buffers. DOE limited 
areas are protected by physical barriers, access control systems, and 
alarm systems. Sandia's protective force patrols such areas during 
nonstandard hours and has the capability to respond immediately to 
intrusion. In addition, the protective force at Sandia's major 
laboratory site on Kirtland Air Force Base, New Mexico, can coordinate 
with U.S. Air Force security police if necessary to respond to any 
major incident.
Personnel Security
    The personnel security program at Sandia National Laboratories 
involves security clearances, security awareness and education, special 
personnel security assurance programs, and the foreign visits and 
assignments program. Personnel security is the keystone of an 
integrated security program. All functional areas of security depend on 
assuring that only people with the proper credentials have access to 
protected information and materials, and that those people are fully 
trained and equipped with the proper tools to carry out their security 
responsibilities.
    Security Clearances--The first line of defense in personnel 
security is the requirement for security clearances. The vast majority 
of employees and resident contractors at Sandia National Laboratories 
today must obtain a U.S. government security clearance as a condition 
of employment. A DOE Q clearance is required of the subset of employees 
who may have a need to access nuclear weapon design information (secret 
and top secret restricted data). Most other employees must obtain the 
DOE L clearance, which is approximately equivalent to the DoD SECRET 
clearance. The DOE Q clearance requires a background investigation of 
the individual by an agency independent of DOE and a reinvestigation 
every five years. An L clearance requires only a national agency 
records check for violations of law or bad credit, and is repeated 
every ten years.
    In addition to the requirement for a security clearance, the 
laboratories operate under the DOE policy of ``need-to-know.'' This 
security principle requires that access to classified matter ``be 
limited to persons who possess appropriate access authorization and who 
require such access (need-to-know) in the performance of official 
duties'' (DOE Manual 471.2-1A, Manual for Classified Matter Protection 
and Control). A Q clearance alone does not provide access to nuclear 
weapons restricted data.
    Until 1993, all employees and contractors were subject to a Q-level 
background investigation. In 1993, DOE changed that policy: The 
laboratories were urged to maximize the use of the less rigorous L 
clearances for employees whose job assignments did not require access 
to nuclear weapon restricted data. Consequently, thousands of 
individuals began to work and move about in the limited areas of the 
nuclear weapons laboratories without having been subject to the 
exhaustive background checks required for Q clearances.
    I am pleased that the Defense Authorization Act for Fiscal Year 
2000 requires Q clearance background investigations for all personnel 
who work in or around locations where restricted data is present. The 
law also empowers the Federal Bureau of Investigation to perform 
background investigations for special access programs and personnel 
security and assurance programs. These requirements should 
significantly strengthen personnel security at the laboratories.
    Security Education and Awareness--The principle objective of the 
Security Education and Awareness Program is to ensure that employees, 
consultants, and subcontractors are equipped to protect sensitive and 
classified information, classified material, special nuclear material, 
and other government assets entrusted to them. An equal objective of 
this program is to motivate and instill a high level of security 
awareness in individuals concerning the protection of national security 
interests.
    Four types of security briefings are conducted for our personnel. 
An initial security briefing is given to all new employees before they 
report to their job assignments. The purpose of this briefing is to 
inform both cleared and uncleared employees who will have access to 
security areas about their obligations to protect materials and 
information, and to educate them on local security procedures and 
access control requirements. A general facility overview is also given 
which familiarizes employees with their responsibilities in the 
protection of DOE interests.
    A more comprehensive security briefing is provided to employees, 
consultants, and subcontractors prior to granting access to classified 
information. The purpose of the briefing is to inform individuals who 
have been granted a DOE security clearance of their security 
responsibilities when working with sensitive and classified 
information.
    Annual security refresher briefings are required of all employees, 
consultants, and subcontractors possessing an active DOE clearance to 
reinforce information about security policy and responsibilities. The 
annual briefings are presented using a variety of delivery methods, 
including an on-line option, department meetings, or seminars and 
workshops.
    A termination security briefing is given to all Sandia and contract 
employees when their security clearance is terminated, regardless of 
the reason. This briefing informs individuals of their continuing 
security responsibility.
    On June 21 and 22, 1999, at the direction of Secretary of Energy 
Bill Richardson, Sandia (and the other DOE Defense Programs 
laboratories) suspended normal operations to conduct security immersion 
training for all employees. At Sandia, we reiterated long-standing DOE 
and laboratory security policies and briefed staff on the Secretary's 
zero-tolerance security policy. We placed special emphasis on the new 
implementations in cyber security. The laboratory's center directors 
were required to prepare training plans for those two days covering 
security topics appropriate for their work environments. Employees 
studied and discussed security policies and procedures, and many issues 
and suggestions were raised for follow-up. Frank discussions were held 
on the issue of the laboratory's culture and how it shapes attitudes 
toward security. In general, the two-day exercise was well received by 
our staff. Feedback indicates that it was an interesting, stimulating, 
and businesslike exercise.
    I am aware that the House Committee on Science reported that 20 
percent of the population of the DOE Defense Programs laboratories did 
not participate in the security stand-down training in June. That 
statistic is grossly inaccurate for Sandia National Laboratories. 
Ninety-three percent of our personnel completed the security stand-down 
training on June 21 and 22. Of the seven percent who did not 
participate on those dates, five of those percentage points were for 
people who were on previously scheduled vacations--not an unusual 
figure for late June (we insisted that employees not take vacation on 
those dates if they had not already scheduled it). Another one and one-
half percent of the lab population were ill or excused for legitimate 
personal reasons. Less than one percent of the lab population were in 
work status on June 21 and 22 who did not take part in the security 
immersion activities. Some of those people were on business travel that 
could not reasonably be rescheduled. In addition, quite a few jobs--in 
our security and medical departments, for example--must be staffed at 
all times. However, all employees who missed security training during 
the stand-down have been required to make it up.
    Foreign Visits and Assignments Program--To ensure compliance with 
DOE regulations, Sandia conducted a self-assessment of its foreign 
visits and assignments program prior to the recent safeguards and 
security audit. All the findings reported in this topical area by the 
DOE Office of Independent Oversight and Performance Assurance had been 
self-identified by Sandia. In addition, Sandia made several 
enhancements in its program in an effort to administer it more 
effectively:

<bullet> We increased the staff of the foreign visits and assignments 
        program by 60 percent over the last year.
<bullet> We improved and expanded our education and awareness programs 
        in their coverage of the requirements for foreign visits and 
        assignments.
<bullet> We created a Foreign Interactions web page on Sandia's 
        intranet, which is used as an information tool for the entire 
        Sandia National Laboratories population and especially for 
        Sandia hosts of foreign national visitors.
<bullet> Sandia's executive management formalized and published 
        discipline guidelines as a mechanism for imposing consequences 
        related to violations of foreign visits and assignments rules 
        and regulations.
    Nearly all of the foreign nationals who come to Sandia National 
Laboratories visit facilities that are outside the fence of the 
laboratories' limited (secure) area. Such facilities are called, in DOE 
jargon, ``property protection areas'' (PPAs). That terminology reflects 
the fact that no classified information or activities exist in those 
areas and that government property, rather than classified information, 
are the principal assets that require protection there. Ninety-eight 
percent of the uncleared foreign nationals who came to Sandia National 
Laboratories during 1998 visited property protection areas only. 
Nevertheless, we know that within that 98 percent, some visitors could 
be information-gatherers for their governments. For that reason, we 
brief Sandia employees on the risks and responsibilities of hosting 
foreign visitors. We require hosts to file a report after such visits 
to determine if any unusual activity occurred.
    The two-day security immersion stand-down in June raised employee 
awareness of the policies and responsibilities with respect to hosting 
foreign national visitors or assignees. As a direct result of that 
exercise, several employees came forward to disclose previously 
unreported incidents during visits or assignments where security 
procedures had not been followed. We are reviewing those incidents to 
determine root causes and establish procedures to prevent recurrences. 
Security infractions may be assessed against some individuals if 
warranted.
    We recently implemented additional measures to strengthen our 
controls over foreign visits and assignments:

<bullet> Sandia's foreign national program integrates key program 
        elements (foreign interactions, counterintelligence, computer 
        security, operational security, classification, and export 
        control) in the approval process for foreign visits and 
        assignments. The Foreign Interactions Office is the focal point 
        for such visits and coordinates the reviews and approvals with 
        the key program elements.
<bullet> Visits by uncleared foreign nationals must now be approved by 
        a vice president of Sandia National Laboratories. The 
        laboratory's executive vice president or president must approve 
        visitors who are affiliated with sensitive countries. In 
        addition, all visits and assignments from countries on the 
        State Department's ``Patterns of Global Terrorism 1998'' list 
        require prior approval by the Secretary of Energy. These 
        countries are Cuba, Iran, Iraq, Libya, North Korea, Sudan, and 
        Syria.
<bullet> Sandia requires indices checks for all visits and assignments 
        by foreign nationals who are citizens of or employed by a 
        government or institution of a sensitive country, and for all 
        visits and assignments requiring access to limited (secure) 
        areas or involving sensitive unclassified subject matter. All 
        indices checks are coordinated through Sandia's 
        counterintelligence office. Any exception to this requirement 
        must be approved by the laboratory director, and very few 
        exceptions have been granted.
<bullet> Anytime a Sandia employee hosts a meeting or conference off-
        site where foreign nationals will be present (regardless of 
        whether the meeting is held in Albuquerque, Livermore, or 
        elsewhere in the world) the Sandia employee is responsible for 
        going through the same formal approval process unless the event 
        is open to the general public (per DOE Policy 142.1, the formal 
        approval process does not apply to events open to the public).
<bullet> Foreign assignees (post-docs, limited-term employees, etc.) 
        must be certified by the host as possessing unique technical 
        skills not readily available to the laboratory from U.S. 
        nationals.
<bullet> Foreign nationals visiting for longer than one day receive a 
        red badge with photo and citizenship displayed.
<bullet> Badging of foreign nationals is centralized for consistency 
        and better control.
<bullet> Foreign visitors and their hosts receive more extensive 
        briefings on their responsibilities and obligations.
<bullet> A list of sensitive technologies recently developed by DOE is 
        being used to help evaluate the appropriateness of visit access 
        and topics.
<bullet> All foreign visit and assignment activity for Sandia is 
        tracked on Sandia's own database systems. In July 1999, Sandia 
        implemented the Foreign National Request (FNR) system to track 
        foreign visits and assignments. The application can precisely 
        identify, in real time, numbers of foreign nationals on-site, 
        identities of foreign nationals and hosts, technologies, 
        security restrictions, and statistical information used in 
        managing foreign visit activity.
    I must emphasize that foreign nationals are pervasive in the U.S. 
high-technology sector. Many of the top graduate schools in science and 
technology in the United States have majority populations of foreign 
students. U.S. companies have hired vast numbers of foreign nationals 
with technical degrees into their ranks. Forty-five percent of the 
visitors to Sandia National Laboratories who are affiliated with 
sensitive countries are from U.S. universities or U.S. companies. This 
exceeds even the number of visitors who represent their countries for 
official activities related to agreements in arms control, 
nonproliferation, and nuclear materials control (approximately 40 
percent).
    As you know, the FY2000 Defense Authorization Act imposes a 
moratorium on foreign visits and assignments to the DOE Defense 
Programs laboratories by citizens of sensitive countries. This 
requirement may prevent the laboratories from collaborating with U.S. 
universities or companies on some projects where citizens of sensitive 
countries are involved as students or faculty of universities, or as 
employees of U.S. companies. Consequently, we will work very hard to 
get our foreign visits and assignments program certified by the DOE 
Office of Counterintelligence, the Federal Bureau of Investigation, and 
the Central Intelligence Agency, as required by the law, as quickly as 
possible. We hope that those agencies will cooperate with us to perform 
that requirement expeditiously.
Cyber Security
    Sandia has long been recognized as a leader in network security. 
Our three-level security structure, which has been in place since 1989 
and fully deployed since 1995, has been adopted by DOE as a model for 
DOE laboratories and plants through the Tri-lab InfoSec Plan of April 
1999. Sandia has stringent computer security procedures already in 
place, and we are improving our procedures based on our own research 
and by adopting best practices from other DOE laboratories, industry, 
and other government agencies.
    However, we recognize that policy, personnel training, and 
technology must continually be improved to meet the escalating threats. 
Recent attempts at espionage through cyber attacks highlight the 
necessity of very substantial action, and I appreciate the greater 
attention and support that cyber security is attracting. The Task Force 
for Integrated Security Management, referred to as ``ISecM,'' is a 
joint endeavor of the three nuclear weapon laboratories and DOE, in 
consultation with DOE's production plants and field offices. The task 
force has recommended an ambitious program for a major enhancement of 
cyber security as a system of policy, people, and technology.
    We have been working closely with DOE's chief information officer 
and the other Defense Programs laboratories to identify best practices. 
Three of these deserve special mention: The TAP utility, developed at 
Lawrence Livermore National Laboratory, supports the critical second 
layer of our three-layer process for monitoring email going to the 
unclassified internet for classified content. NADIR, developed by Los 
Alamos National Laboratory for monitoring usage patterns to detect 
suspicious behavior is another promising tool. StatePoint Plus software 
developed by Westinghouse is being implemented for security 
configuration management on our switched network. Cooperation among the 
laboratories and DOE has been excellent.
    Sandia's classified network and computing environment has 
repeatedly earned high marks for security during numerous audits. 
Unfortunately, it has not earned high marks from the people who have to 
work in that environment for functionality and ease of use. We 
recognize that we must enhance the functionality of our classified 
multi-site network environment to allow secure, effective, and facile 
collaboration among the laboratories and DOE for classified work.
    Sandia has aggressively implemented the action plan developed as 
part of the Tri-Lab Information Security (InfoSec) Nine-point Plan in 
April and the Secretary's Six Enhancements in June, 1999. We have 
completed 42 of the 46 actions called for in our InfoSec action plan. 
Two more actions will be complete before the end of the year. The 
remaining two are ``red team'' assessments that will be completed early 
next year, as soon as these scarce personnel resources are available.
    Let me summarize some of the important actions we have completed as 
part of our InfoSec action plan:

<bullet> We have configured our unclassified restricted access networks 
        at our sites in New Mexico and California so that electronic 
        mail flows through a single control point. We are monitoring 
        email messages to scan for classified content. So far, we have 
        found that less than one in 10,000 of the email messages from 
        high-risk areas of the laboratory are of concern, and those 
        have been at the confidential level.
<bullet> We are strengthening the need-to-know controls over 
        information on classified systems. For nuclear weapons data, we 
        are improving the information infrastructure so that we can 
        migrate from a set of physical islands of need-to-know groups 
        to a more auditable and controllable need-to-know network. This 
        new architecture will guarantee password protection, provide 
        automated need-to-know controls, and record attempts to achieve 
        access.
<bullet> We are reviewing and strengthening the need-to-know protection 
        for sensitive unclassified information on our internal 
        restricted-access networks.
<bullet> For authorized transfers of unclassified files from classified 
        computers to unclassified computers, we are documenting 
        approved transfer procedures that (1) require review of the 
        material to be transferred by an authorized derivative 
        classifier; (2) specify authorized transfer points and the 
        required content for transfer logs; and (3) enforce two-person 
        control by Qcleared personnel, one of whom must be current in 
        the DOE Personnel Security Assurance Program (PSAP).
<bullet> We are exploring the feasibility of technical measures to 
        prevent unauthorized transfers of classified files. We are also 
        exploring the potential of individualized encryption codes for 
        compartmentalized information.
<bullet> We are enhancing software protections on classified, secure 
        email to provide redundant assurance that only the desired 
        recipient has access to a classified message and attachment.
<bullet> We will perform red-team assessments of our unclassified and 
        classified networks annually. Experts who are organizationally 
        independent of the technical groups that design, maintain, or 
        administer the networks will perform the assessments.
<bullet> We are monitoring all three levels (open, restricted 
        unclassified, classified) to detect intrusion attempts and to 
        respond decisively to those attempts.
<bullet> We have instituted a rigorous training program for our people 
        who operate in the classified environment to ensure that they 
        follow proper procedures in this quickly changing environment.
    We are reviewing available U.S.-designed and built commercial 
products to augment the intrusion detection mechanisms on our networks. 
We employ user authentication, network intrusion, and vulnerability 
analysis software from industry, universities, and other government 
laboratories. Some years ago, Sandia implemented its own firewall 
between its open and restricted networks because we were not satisfied 
with any of the commercial firewall software available at that time. We 
recently identified a product from a domestic source that may provide a 
better firewall, and we are testing it for possible installation on our 
network.
    The most popular commercial firewalls are produced by foreign owned 
companies. To mitigate the potential vulnerability of a nation-state 
attack through those foreign interests, we are working to validate and 
implement a commercial firewall from a U.S. vendor. A vendor has been 
selected and the firewall software has been acquired and installed in a 
test system. In hopes of meeting the December date for the next 
inspection, we are working through issues of reliability, vendor 
support, data-handling capacity, compatibility with our California 
site, and some apparent security anomalies that must be understood. We 
are committed to prudence even if the date for deployment has to be 
delayed.
    We are pleased that our classified network received the 
satisfactory rating and our unclassified policies, networks, and 
personnel practices received favorable comments. However, we take 
seriously the overall rating of marginal for the unclassified system. 
The inspectors from the Office of Independent Oversight and Performance 
Assurance explained to us that the requirements for a rating of 
satisfactory have been tightened in response to the escalating threat. 
The standard is being raised faster than we have been able to respond. 
We are aggressively addressing the five action items from the audit to 
correct deficiencies. I must emphasize, however, that the 
recommendations of the Defense Programs' Task Force for Integrated 
Security Management (ISecM) must be funded and implemented in order to 
robustly address the escalating threat.
    The cyber security threats encountered by DOE plague many agencies 
across the government, including the Department of Defense and the 
National Aeronautics and Space Administration. Unfortunately, the cyber 
security problem is very difficult and very complex. It is fruitless to 
attack this problem on a site-by-site basis; we need to address the 
problem in a systematic way for the complex as a whole.
    The InfoSec Task Force recently published its report outlining an 
integrated system of policy, people, and technology for the nuclear 
weapon complex. In contrast to the current site-specific planning and 
accreditation that makes the system only as strong as its weakest link, 
the task force proposes integrated security at the system level for the 
nuclear weapons complex as a whole. Experts in computer science and 
communications from all three defense programs laboratories and the 
nuclear weapons production complex worked together to identify 
vulnerabilities and propose and implement countermeasures in the plan. 
According to their report, an investment on the order of $100 million 
per DOE site and a continuing maintenance of approximately $35 million 
per site to achieve very low levels of risk. Funds of that magnitude 
cannot be provided from existing programs and will require additional 
appropriation. The DOE Defense Programs Complex Information Security 
Action Plan is available from the DOE Office of Defense Programs.
Counterintelligence
    We are building a counterintelligence program at the laboratory 
that responds to the President's direction in PDD-61 and implements 
DOE's Counterintelligence Implementation Plan. During 1998, Sandia's 
counterintelligence office actively contributed to the design of the 
DOE Counterintelligence Implementation Plan, which resulted in 
revamping the counterintelligence program at the laboratories. We moved 
Sandia's counterintelligence office out of the safeguards and security 
organization to a position with direct access to the laboratory 
director. We hired a 30-year veteran of the FBI to manage our 
counterintelligence program. The FBI is the lead agency with cognizance 
and expertise in all national counterintelligence and espionage 
matters, and it is appropriate that the laboratories' 
counterintelligence programs be staffed by individuals with that 
experience. Because of their professional ``CI'' background, they are 
knowledgeable of the FBI's investigative methodology. At the same time, 
because the counterintelligence personnel at the laboratories are part 
of the laboratory community, they are in a position to earn the trust 
and confidence of the scientists and engineers that is so important to 
the job.
    Counterintelligence activities are now funded directly from DOE 
headquarters. The counterintelligence program at Sandia National 
Laboratories was funded at $850,000 in fiscal year 1999. We expect 
FY2000 funding to increase substantially. The higher level of funding 
will permit us to support four counterintelligence officers, a 
counterintelligence research analyst, one or more technical experts in 
cyber security, and additional support staff.
                          polygraph screening
    Many employees have expressed deep concern to Sandia's executive 
management and DOE about proposed polygraphy testing. In acknowledging 
the confusion and anxiety on this issue, I asked a group of Sandia's 
senior engineers and scientists for their thoughts and inputs. The 
seniors reviewed the literature on polygraphy and submitted a report 
summarizing expert opinion and expressing their own conclusions. Their 
report is attached as an appendix to this statement.
    The report highlights several issues that as a laboratory director 
I find rather troubling:

<bullet> Many experts in the field of psychology believe that 
        polygraphy is not theoretically sound and that claims of high 
        validity for the procedure cannot be sustained. (This 
        information was derived from a survey of members of the Society 
        for Psychophysiological Research and Fellows of the American 
        Psychological Association.)
<bullet> Studies performed by the Office of Technology Assessment and 
        the Polygraphy Institute of the Department of Defense show that 
        claims and estimates for the rate of false results in polygraph 
        testing vary greatly.
<bullet> Reports by the Office of Technology Assessment, the Polygraphy 
        Institute of the Department of Defense, and independent experts 
        in polygraphy state that the effectiveness of polygraphs as a 
        screening tool has not been established and appears to be much 
        less than their utility for specific-incident investigations.
<bullet> The Office of Technology Assessment and independent 
        authorities state that polygraph tests can be beaten through 
        learned countermeasures.
    (Reference citations for these issues are in the report.)
    These issues raise serious concerns for those of us who bear 
responsibility for the long-term health and vitality of the 
laboratories and the success of the national security programs they 
serve. The Department of Energy must be very careful in how it designs 
and conducts its polygraphy program. If the program is mishandled, the 
resulting personnel problems could be very damaging to the laboratories 
and their national security programs.
    Notwithstanding the safeguards and protections that DOE intends to 
incorporate into its regulations for the polygraphy program, 
significant issues remain for laboratory managers. One issue is the 
legitimacy and validity of the polygraphic process itself. Laboratory 
directors will have difficulty persuading their employees to embrace a 
screening methodology that they know is not generally accepted by the 
psychology profession, that many polygraphy experts regard as 
unreliable for screening applications, that is not amenable to 
objective measures of accuracy, that is prohibited by law in the 
private sector, and that can be fooled with learned countermeasures.
    Thus, a major concern for the laboratories is what impact the 
polygraphy program will have on our retention of personnel in sensitive 
programs. Will those programs lose good people? Will they lose people 
with critical skills?
    A related issue for laboratory directors is how the polygraphy 
requirement will affect recruitment. It has already become more 
difficult for us during the last several years to attract top graduates 
in engineering and science. We must already compete for those people 
with private corporations that can offer challenging technical work and 
more attractive packages of salary, benefits, stock options, and career 
advancement. If we will have to tell candidates that they may be 
subject to a scientifically questionable polygraph exam every few 
years, I am sure that many good people will be dissuaded from 
considering employment in the national laboratories. One study of 
polygraphy found that individuals with college degrees tend to have 
higher rates of false positives. My fear is that within ten to twenty 
years of a polygraphy program, we may not have the nation's best and 
brightest scientists and engineers looking after the reliability, 
safety, security, and control of nuclear weapons.
    Finally, I am worried that excessive confidence in polygraphy may 
divert attention and resources from essential security programs that 
are more productive. We could put a lot of resources into a polygraph 
program for DOE and fail to aggressively improve the funding, staffing, 
and sophistication of our programs in cyber security, personnel 
security, security education and awareness, counterintelligence 
investigations, inter-agency coordination, and comprehensive periodic 
background reinvestigations. Polygraphy is probably the weakest tool in 
the security and counterintelligence toolbox, and we should not cherish 
unrealistic expectations for it.
    In view of the many uncertainties surrounding polygraphy, I believe 
DOE must proceed cautiously with a limited program that will be subject 
to reevaluation after an appropriate time.
                               conclusion
    The escalating security threat against the DOE nuclear weapon 
laboratories is a matter of great concern to me and my colleagues at 
Los Alamos, Lawrence Livermore, and the Department of Energy. The 
recent inspection of safeguards and security at Sandia National 
Laboratories by the DOE office of Independent Oversight and Performance 
Assurance was a useful independent review and provided me with insights 
that can only be seen with ``fresh eyes.'' It helped identify several 
ways in which we can strengthen our security posture. We are taking 
vigorous steps to resolve all findings and issues identified by the 
inspection as quickly as possible. For the long term, we are 
implementing an Integrated Safeguards and Security Management System 
which will help us achieve excellence in security performance on a 
consistent basis.
    The unmistakable message of the recent inspection is that security 
must stay ahead of the threats. The threats will always change as 
technology changes. Measures that were sufficient in the past no longer 
afford an adequate defense. Security policies and systems must be 
designed for capability and performance against real, current threats. 
Compliance is simply not enough.
[GRAPHIC] [TIFF OMITTED]61036.001

[GRAPHIC] [TIFF OMITTED]61036.002

[GRAPHIC] [TIFF OMITTED]61036.003

[GRAPHIC] [TIFF OMITTED]61036.004

[GRAPHIC] [TIFF OMITTED]61036.005

[GRAPHIC] [TIFF OMITTED]61036.006

[GRAPHIC] [TIFF OMITTED]61036.007

[GRAPHIC] [TIFF OMITTED]61036.008

[GRAPHIC] [TIFF OMITTED]61036.009

[GRAPHIC] [TIFF OMITTED]61036.010

[GRAPHIC] [TIFF OMITTED]61036.011

[GRAPHIC] [TIFF OMITTED]61036.012

[GRAPHIC] [TIFF OMITTED]61036.013

[GRAPHIC] [TIFF OMITTED]61036.014

[GRAPHIC] [TIFF OMITTED]61036.015

[GRAPHIC] [TIFF OMITTED]61036.016

[GRAPHIC] [TIFF OMITTED]61036.017

[GRAPHIC] [TIFF OMITTED]61036.018

[GRAPHIC] [TIFF OMITTED]61036.019

[GRAPHIC] [TIFF OMITTED]61036.020

[GRAPHIC] [TIFF OMITTED]61036.021

[GRAPHIC] [TIFF OMITTED]61036.022

[GRAPHIC] [TIFF OMITTED]61036.023

[GRAPHIC] [TIFF OMITTED]61036.024

    Mr. Upton. Thank you very much.
    Dr. Browne. By the way, as in the first panel, your entire 
statement will be made a part of the record. Thank you.

                   TESTIMONY OF JOHN C. BROWNE

    Mr. Browne. Good afternoon, Mr. Chairman. I am John Browne, 
Director of Los Alamos National Lab, and I am pleased to have 
the opportunity to provide your subcommittee with a statement 
on the status of security programs at our laboratory. I have 
been Director for not quite 2 years. And during that time, 
security has been one of the main focus areas that I've 
identified for improvements at our laboratory. It has been one 
of my top priorities.
    The recent DOE audit confirmed that we've made significant 
progress in upgrading our security programs during the last 
several years, but it's clear to me that there's still many 
improvements that need to be made. As Dr. Robinson mentioned, 
security is integral to accomplishing our mission, and we 
recognize that the security threats that we face today are 
different from those during the cold war. And as such, our 
responses have to be continuously improved to address the newly 
emerging threats.
    To meet these threats, I have reorganized our security and 
counterintelligence programs and hired new leadership to 
provide us with the best program possible. And I think I'm 
starting to see the results of having both new programs and new 
people in place.
    I want to point out just a few things that I think are very 
important. First, discuss personnel security since people are 
the heart of anything related to security, whether it's 
information or materials control. And I think perhaps the most 
fundamental change in our security posture during the last 2 
years has been the increased buy-in and involvement of our 
staff and our employees. Although the employees have always 
taken security seriously, the new challenges that we face have 
been met with an increased commitment at the laboratory.
    To help the employees understand the threat and their 
responsibilities for security, we've significantly improved our 
employee security training and awareness program. Our 
management team has communicated to all employees the 
expectations for improved individual security responsibilities. 
We've had experts communicate the nature of past and present 
threats. We have reiterated that people will be held 
accountable for their actions, and we have taken disciplinary 
action when appropriate.
    In the area of access control to our site, we are 
implementing a more stringent badging and control system. And 
this new system ties together through a central computer 
network key information such as citizenship, clearance level, 
clearance status, training needed to get into any given site, 
so that as an individual comes up to an access point and they 
hand their badge to a guard, the guard not only can see the 
badge, they can swipe it through and find out what's up to date 
on everything; and we think that's going to be an important 
capability that will improve our security.
    During the early 1990's, the number of Q clearances was 
reduced for cost-cutting purposes, and this action led to an 
increase in the number of people at the laboratory cleared at 
the lower L-cleared level. This mix of clearance levels has led 
to additional administrative controls required to restrict 
access of L-cleared people to secret restricted data, which of 
course requires a Q clearance. In my opinion, this cost-saving 
measure actually lessened security during this period; and we 
would like to see an increase, as Dr. Robinson also pointed 
out, in the number of Q clearances for people who must work in 
our facilities containing secret, restricted data. We think 
this would definitely enhance security effectiveness.
    In the 1998 annual report to the President on safeguards 
and security, inadequate protection of classified non-nuclear 
weapons parts was identified as the single biggest information 
security problem at Los Alamos. We have made major improvements 
in protecting these classified items. The number of storage 
locations has been reduced from 105 to 41 and will be reduced 
to 22 by the end of this calendar year. We have added 25 
additional protective force personnel and the patrol frequency 
has been significantly increased.
    Cyber security is the fastest changing security issue for 
the laboratory and the Nation. Our classified computers where 
our nuclear weapons work is done are totally separated from our 
unclassified systems. It is a true air gap that exists between 
the classified and the unclassified. Classified networks have 
no connections to the outside world except through a National 
Security Agency-approved encryption device.
    The recent DOE audit found that our classified computer 
network was secure and fully compliant with DOE orders. The 
recent DOE audit also tested our unclassified network fire 
walls that we began installing in November 1998, almost a year 
ago. DOE inspectors could not penetrate these barriers from 
outside Los Alamos. However, they did find areas that we must 
protect against the insider threat and we are taking corrective 
actions to close some of those vulnerabilities.
    With respect to the insider threat, I think this is 
probably the biggest challenge we all face. We are now allowing 
no electronic transfer of authorized unclassified information 
from our classified systems to our unclassified systems. That's 
been since the April security shutdown. We are doing 100 
percent scanning of all outgoing unclassified e-mail and our 
unclassified--the ``yellow network,'' as we refer to it, which 
is fire walled, is being strengthened with even stronger 
password protection, enhanced network scanning and switching 
which allows people to only remain--have access to the 
information they need.
    Let me close by saying that we recognize that although the 
audit this year came out very positive in the sense that we 
received a ``satisfactory,'' the opinion at our laboratory is 
that we want to continue to receive a ``satisfactory'' and that 
means making continual improvements in how we approach 
security. It is a never-ending game. You have to maintain 
yourself strong against new and emerging threats.
    I believe we have a solid foundation to build on. I feel 
strongly now that I have the right people in place and they 
have the right attitude and we can make this happen. Thank you.
    [The prepared statement of John C. Browne follows:]
  Prepared Statement of John C. Browne, Director, Los Alamos National 
                               Laboratory
                              introduction
    I am pleased to have this opportunity to provide your subcommittee 
a statement on security programs at the Los Alamos National Laboratory 
(LANL).
    I would like to make three key points in my testimony today:

1. Security is a top priority at the Department of Energy and the 
        Laboratory. When I became Director two years ago, security was 
        one of my focus areas for improvement. As such, I strengthened 
        our security and counterintelligence activities by increasing 
        employee training and awareness, hiring new leadership to 
        increase our effectiveness, and increasing institutional 
        resources to fix problems.
2. We have made significant progress in upgrading our security programs 
        during the past two years. Secretary Richardson was 
        particularly instrumental in focusing attention to this 
        important matter. Our security progress is documented in our 
        own self-assessments and was recently validated by a Department 
        of Energy (DOE) security audit. The Office of Independent 
        Oversight and Performance Assurance performed this audit.
3. There are still improvements to be made. The recent DOE security 
        audit confirmed the results of our own self-assessment; there 
        were no surprises. We aggressively pursued corrective actions 
        before, and during, the audit. The University of California and 
        Laboratory management is committed to implementing corrective 
        actions until all findings are addressed.
                                overview
    The Los Alamos National Laboratory mission is to ensure the safety 
and reliability of US nuclear weapons and to help reduce the threat of 
weapons of mass destruction. In performance of this mission, we ensure 
the security of our people, our information, and our nuclear materials. 
Security is integral to the success of our mission. We recognize that 
the security threats we face today are different from those during the 
cold war. As such, our response must be continuously improved to 
address newly emerging threats.
    Our Laboratory, located in a relatively remote part of northern New 
Mexico, occupies 43 square miles. This location presents both 
opportunities and challenges to security. We have 158 security areas 
where classified work is performed. These security areas contain over 
6.5 million classified documents, 75,000 nonnuclear classified weapon 
parts, over 2,000 classified computers, and 3 major nuclear facilities 
holding several metric tons of special nuclear materials.
Our Security Approach
    Los Alamos uses a layered methodology to protect classified 
documents and materials. With our security protection, one must 
overcome several barriers before obtaining access to classified matter. 
This methodology applies to our security programs for physical 
security, cyber security, information security, etc. An example of this 
may be observed in special nuclear materials protection at our 
plutonium facility. The double fence surrounding this facility has a 
perimeter intrusion detection system (the outer layer). The second 
layer is the well-trained, well-armed professional guard force 
patrolling the facility 24 hours a day. The third layer is the armored 
guard post controlling access. The fourth protective layer is alarmed 
vault type rooms and safes within the plutonium facility.
    Los Alamos has made enhancements in all these areas of security 
over the past two years. Using the plutonium facilities as an example, 
our improvements include the following:

<bullet> improved protective forces response plans for plutonium 
        facilities--we now get there faster with more firepower,
<bullet> state-of-the-art protective masks to counter chemical threats 
        against protective forces,
<bullet> portable explosive-detection equipment, and
<bullet> use of a special vehicle with built-in delay and denial 
        technologies for intrasite transport of nuclear material.
    Our protective forces are capable of responding to the full 
spectrum of threats we face. We provide an average 250 hours of 
intensive training per person per year using a DOE-certified program. 
The results are exceptional. Over the past two years, 98.5% of the 
protective force have passed the critical performance tests on the 
first attempt. Performance is tested in areas of firearms, physical 
fitness, handcuffing, and unarmed defense techniques.
    In August, the DOE's Office of Independent Oversight and 
Performance Assurance performed a comprehensive security audit. This 
audit inspected the five major security areas: program management, 
information security, cyber security, nuclear material control and 
accountability (MC&A), and personnel security. The DOE overall security 
rating for the Laboratory was Satisfactory, the highest possible 
rating. More importantly, this audit confirms that our corrective 
actions are effective. General Habiger, the DOE's ``Security Czar,'' 
commented on this audit while visiting LANL on September 17, 1999. 
General Habiger stated: ``Los Alamos just came through an evaluation 
with an overall satisfactory, which is the highest rating you can get, 
and this . . . was deemed the best evaluation in the history of Los 
Alamos. That's a phenomenal achievement.''
    We have structured this testimony to follow the categories used by 
DOE for their audit. I will now discuss the actions we have taken which 
contributed to receiving this overall Satisfactory rating.
                           program management
    In April 1998, I reorganized all security functions into one 
division. At the same time, we began implementing Presidential Decision 
Directive 61 and established an independent counterintelligence 
program. I hired experienced professionals to lead both organizations. 
A former United States Air Force security officer, a specialist in 
running complex nuclear security organizations, leads the Security 
Division. The Internal Security Office is responsible for our 
counterintelligence program. Leading this office is a retired Federal 
Bureau of Investigation special agent with 30 years of field and staff 
experience in counterintelligence. We have continued to add external 
expertise to staff of both organizations. Additionally, the University 
of California strengthened its national laboratory security oversight 
by hiring a safeguards and security manager. This professional is a 
former United States Air Force officer who specialized in investigative 
programs involving computer security, personnel security, asset 
protection, anti-terrorism, and vulnerability assessment.
    Since 1996, the Laboratory has been augmenting security funding by 
10 percent per year in our overhead budget to address new demands. We 
increased the annual security budget from $44 M to $64 M. We increased 
the protective force by approximately 70 uniformed personnel, for a 
total of 390. Eight new armored vehicles were purchased to replace 
antiquated vehicles, and $1.5 M was invested in a new radio system that 
provides improved and flexible protective force communication.
    Perhaps the most fundamental change in our security posture has 
been the increased buy-in and involvement on the part of our employees. 
Employees have always taken security seriously, but new challenges have 
been met with increased commitment at the Laboratory. Direct 
involvement by our management team has communicated to all employees 
the expectations for improved individual security responsibilities. We 
reiterated that people will be held accountable for their actions and 
have taken disciplinary action when appropriate. Secretary Richardson 
ordered two security immersion stand-downs this year. Both were very 
effective in increasing employee awareness of the changing threats and 
employee responsibilities for security.
    Additionally, Laboratory management continues to track and correct 
identified security issues. For tracking, management uses a 
comprehensive database system called ``The Red Book.'' This book 
includes all findings and their status from every self-assessment, DOE 
audit, and Government Accounting Office report, plus a variety of 
Presidential and Congressional commission reports.
                          information security
    In the 1998 [DOE] Annual Report to the President on Safeguards and 
Security, inadequate protection of classified nonnuclear weapons parts 
was identified as the single biggest information security issue at Los 
Alamos. Los Alamos has made major improvements in protecting these 
classified items. Examples of our improvements include the following:

<bullet> Storage locations have been reduced from 105 to 41. This 
        number will be reduced to only 22 locations by the end of this 
        calendar year.
<bullet> Storage locations have been organized into security clusters. 
        To protect these clusters, 25 additional protective force 
        personnel were assigned to augment the existing forces.
    In another area of information security, classified documents, Los 
Alamos was judged to have effective document control and protection 
over the millions of classified documents maintained at the Laboratory. 
DOE security audits since 1994 have validated this result. Equally 
important, our strategies for securing special access programs and 
intelligence information have been closely scrutinized in numerous 
inspections and determined to meet all requirements.
                             cyber security
    Cyber security is a critical element of the Laboratory's overall 
security posture. The Laboratory maintains classified and unclassified 
computer networks. The classified computers are totally separate from 
unclassified systems--a true air gap. The classified networks have no 
connections to the outside world except through National Security 
Agency--approved encryption devices.
    The following list highlights important accomplishments in Los 
Alamos's cyber security:

<bullet> During the recent DOE audit of security, the classified 
        computer network was determined to be secure and fully 
        compliant with DOE orders.
<bullet> This audit also tested the unclassified network firewalls. DOE 
        inspectors could not penetrate these barriers from outside Los 
        Alamos.
<bullet> Los Alamos fully participated in two security stand-downs 
        directed by the Secretary of Energy this past spring. Extensive 
        training on security and threat awareness was provided to the 
        employees and contractors.
<bullet> A nine-point Tri-Lab Action Plan to improve cyber security was 
        written and an implementation plan was approved. To date, Los 
        Alamos has met all milestones.
<bullet> Controls to prevent any unauthorized classified-information 
        transfer from classified to unclassified computer systems were 
        strengthened, and an action plan for technical prevention is in 
        place.
<bullet> No electronic transfer of authorized unclassified information 
        from classified systems to unclassified systems has been 
        permitted since the security stand-down. New controls, 
        including a revised two-person information control policy, are 
        in process of development and approval.
<bullet> Scanning outgoing unclassified e-mail and computer files for 
        possible classified information was initiated and is ongoing.
<bullet> A stronger and improved certification program was implemented 
        for those foreign nationals who require access to unclassified 
        computer resources as part of their job. These foreign 
        nationals must meet stringent programmatic criteria before 
        access is granted. Their computer access is subject to 
        additional monitoring and management review.
    Los Alamos continues to upgrade its cyber security to adapt to 
changing technology and meet continuously evolving threats.
               material control and accountability (mc&a)
    Our nuclear material control and accountability needed improvement 
in past years. After taking corrective actions, we now have a great 
deal of confidence in our inventory accuracy. More importantly, our 
control measures have been strong, and we are equally confident that 
our material has been adequately safeguarded from theft or diversion.
    In the 1998 [DOE] Annual Report to the President on Safeguards and 
Security, we received a Marginal rating in MC&A. The issue identified 
in that report questioned our ability to ensure that nuclear materials 
were in their authorized locations and at stated quantities. Much of 
this issue dates back to old measurement practices tied to imprecision 
in previous generations of measurement equipment. Through a 
comprehensive program involving new equipment and new procedures, we 
have revised and rebuilt our MC&A program. Within the last two years, 
our MC&A program has achieved a new level of performance that was rated 
by the most recent audit team as ``the best in the DOE complex.'' Los 
Alamos has been a leader in international safeguards technology for 
close to 30 years. We are proud of our improved internal practices to 
meet the MC&A standards.
                           personnel security
    People are the heart of information control. We have increased 
employee security training and awareness. Additionally, we have 
improved our security procedures, and we are tracking and correcting 
deficiencies. The positive results of our effort were validated in the 
DOE audit. Clearance processing, human reliability programs, and 
security badging were determined to be operating effectively, with no 
findings identified.
    Los Alamos continues to improve personnel security. For example, we 
are implementing a more stringent badging and access control system. 
This new system ties together, through a central computer network, key 
information such as current training status, citizenship, clearance 
level, and clearance status for each employee and visitor. This 
enhancement will improve our real-time ability to tie security-area 
access to virtually all of the eligibility requirements for area entry. 
We also are installing electronic badge readers at all manned entry 
posts so that we have an electronic screening of each badge as well as 
a physical check. Our access controls also include the most extensive 
use in the DOE complex of collateral biometrics checks (hand-geometry 
readers) for access control. In addition, we have begun rebadging the 
entire workforce to move to the new color-coded DOE badge that will 
allow employees and security officers to more readily identify a 
person's clearance level.
    During the early 1990s, there was a well-intended DOE objective to 
reduce the number of Q clearances for cost-cutting purposes. This 
action led to an increase in the number of people at the Laboratory 
cleared at the lower L level. This mix of clearance levels has led to 
additional administrative controls to restrict access of L-cleared 
people to secret restricted data (which requires a Q clearance for 
access). In my opinion, this cost savings measure has lessened 
security. We would like to see an increase in the number of Q 
clearances for those people who must work in our facilities containing 
secret restricted data. This change would enhance our security 
effectiveness.
                     foreign visits and assignments
    All foreign nationals visiting or on assignment to the Laboratory 
require prior DOE or DOE-delegated approval. In March 1999, we 
implemented a new internal policy that established a rigorous approval 
and verification process to support our foreign national visits and 
assignments. Every visitor has a Laboratory host, who is trained, 
briefed, and debriefed on the visit. The recent DOE audit verified this 
process through performance testing and interviews. Additionally, the 
auditors attempted to infiltrate foreign national ``actors'' into our 
security areas on several occasions, using false badges, ruses, and 
intervention by ``co-opted'' senior managers--the actors failed to gain 
access in every case. Strict access limitations are in place and 
verified by our Operations Security staff.
                         areas for improvement
    Despite our recent documented successes, we recognize further work 
is required to maintain the appropriate level of security at the 
Laboratory. Significant examples include the following:

<bullet> We will continue to expand and improve the comprehensiveness 
        and quality of our security-training program. Clearly, our 
        employees are our first and best lines of defense in meeting 
        the tremendous challenge of safeguarding nuclear material and 
        classified information. Training is the key through which we 
        keep our employees knowledgeable of and vigilant to security 
        threats. We have a number of initiatives underway, which are 
        relevant and meaningful to our mission and the security 
        challenges we face.
<bullet> We will continue our efforts to protect against the insider 
        threat to our cyber security. Our efforts will be coordinated 
        with the IsecM Task Force, which is composed of representatives 
        from the three nuclear weapons laboratories, the DOE nuclear 
        weapon production plants, and the DOE.
<bullet> We recently obtained release of funds from DOE for the first 
        segment of our Nuclear Material Safeguards and Security 
        Upgrades Project (NMSSUP), which is intended to replace our 
        aging security alarm system. We will work to ensure this line-
        item construction project is accomplished within scope, 
        schedule, and budget. We have assigned one of our best project 
        managers to this project, and it receives regular review by my 
        senior managers and me.
<bullet> We have added an effective firewall to protect our 
        unclassified network. We will continue to expand the 
        vulnerability testing of these unclassified computer systems to 
        ensure our systems are adequately protected from within the 
        firewall (the insider threat).
<bullet> We will reduce the use of temporary nuclear material access 
        areas. Our older facilities require the occasional use of 
        temporary material access areas. These areas are created to 
        utilize specialized equipment outside the normal special 
        nuclear materials protective area. These temporary areas 
        provide full protection for the nuclear materials. However, 
        they are more difficult to protect and require expensive 
        compensatory measures. Minimizing the use of these areas and 
        obtaining newer secure facilities are the best solutions to 
        this issue.
<bullet> We will continue to improve our internal Laboratory 
        coordination between counterintelligence, security, and foreign 
        visitor and assignment organizations.
                            closing remarks
    I am very pleased that the recent DOE security audit recognized 
many improvements to the Los Alamos security programs. In those areas 
identified for further improvement, I want to assure you that we are 
committed to making those improvements. We are committed to continuous 
improvement of our security program, just as we are with safety, 
facilities, project management, and other areas of business and 
operations. We have a solid foundation to build on, we have a detailed 
plan for the path forward, and most importantly, we have the right 
people, with the right attitude, to make it happen. I would like to 
thank Secretary Richardson and other DOE leaders for their support of 
our Laboratory's efforts to improve security. With the continued 
support of the administration and Congress, we will continue to achieve 
established security goals.

    Mr. Upton. Thank you very much.
    Dr. Tarter. Welcome back.

                  TESTIMONY OF C. BRUCE TARTER

    Mr. Tarter. Thank you, Mr. Chairman. Let me begin by 
saying, in partial answer to a comment Mr. Podonsky made this 
morning, we are responding to 100 percent of all of the 
findings which were found in the OS&E inspection. Let me 
briefly comment on our response in the three areas that I've 
discussed before: physical security, computer security and then 
personnel security.
    In the area of physical security, I think the three major 
areas in which there were significant findings, I think the 
most important, as alluded to earlier by, I believe, 
Congressman Cox, was essentially on the Superblock and the 
guarding of special nuclear material. And I think--as Mr. 
Podonsky said this morning, I think we have done a number of 
things. We have done a very, very large number of computer 
simulations to test all kinds of scenarios for possible 
intrusion into that area. And I think those have--I think 
exposed and allowed us to take measures to work on that 
facility.
    I think we carried out a physical force-on-force exercise 
during September, which again will have to be judged eventually 
by his team, but I think we did it in concert with the Oakland 
operations office, with the defense programs office in DOE, and 
I think, learned a great deal; and I believe we were reasonably 
satisfied with the results of that exercise.
    The third piece, which I alluded to in my July response, we 
have been adding special response team personnel and they 
basically go through extensive training. The first new class I 
believe will graduate this December, and then the other classes 
will soon come on line, which will bring us to full strength in 
terms of the special people to respond in those areas.
    In terms of the materials control and accountability 
overall, we have essentially completed, in our judgment, the 
work in all but one area; and as was discussed this morning, 
that last area involved acquiring measurement capability, which 
we have basically done this week, and we will begin to use that 
to take measurements on the inventories in this one area, which 
I don't want to go into further in an open hearing, but that 
will be well under way.
    Finally, in the classified part of physical security we 
expect to have all of our storage areas brought into the 
standard configurations by the end of the year, and we're using 
special patrols to guard that during the interim until we have 
done that.
    In the area of computer security, I think our major 
activity both in response to the Secretary's 6-point plan and 
the 9-point plan, but also the findings, is to bring a very 
extensive new fire wall into operation in the unclassified part 
of our systems. A second--and that's acquired, but it will take 
extensive work to separate into all of its components; and that 
is where we're putting much of our effort.
    The other activity I would mention, in which all three of 
the laboratories are participating, and which I think Dr. 
Weigand could comment on further, is that all of the labs and 
external experts in computer security have basically spent a 
great deal of time trying to assess all of the conceivable 
measures. And this is done in concert with things like the 
National Security Agency and the other parts of the government 
which have to work at high levels of cyber security; and I 
think we have carried out an extensive set of discussions and 
workshops with a number of recommendations for cyber security 
in general, but I would rather let Dr. Weigand, or perhaps Dr. 
Gilligan, comment on how those are going to be responded to and 
how they will fit into the 6- and 9-point plans.
    Let's see. In terms of the foreign national access, which 
was clearly a topic of significant discussion this morning, we 
have tightened the administrative controls along the lines 
General Habiger indicated so that we have even more extensive--
we have always had an extensive review process for the foreign 
national access, but we have added layers of additional review 
before any foreign national has access to the computer site.
    Finally, I will just mention briefly in the area of 
personnel security, I think, as both Dr. Robinson and Dr. 
Browne have commented, that a significant issue for us has been 
the presence of L clearances. I think we have asked again for Q 
clearances; I think we're pleased--we would like to have an 
all-Q site. In the first proximation--in the interim, we have 
added a number of physical barriers so that it is not--so that 
L-cleared people cannot simply administratively and easily get 
into the Q areas as an interim measure. But I think our 
preferred result is to have essentially a Q-cleared facility 
inside a Q-cleared--basically inside the restricted areas. I 
think we are--for all kinds of reasons we think that was a 
vulnerability, and we think changing that will enhance the 
security of the site.
    Finally, in response to another comment this morning, we 
have used polygraphs. We have not done them as part of the new 
CI program, but they have been used historically as part of the 
investigative process, and so the tool has not been part of the 
systematic thing, but has been part of the investigative 
process used with staff members in the past.
    And so I will leave that with that, and I will be happy to 
take questions again from the staff.
    [The prepared statement of C. Bruce Tarter follows:]
  Prepared Statement of C. Bruce Tarter, Director, Lawrence Livermore 
             National Laboratory, University of California
    Mr. Chairman and members of the committee, I am the Director of the 
Lawrence Livermore National Laboratory (LLNL). Our Laboratory was 
founded in 1952 as a nuclear weapons laboratory, and national security 
continues to be our central mission. Livermore is a principal 
participant in the Department of Energy's Stockpile Stewardship 
Program, heavily involved in programs to prevent the proliferation of 
weapons of mass destruction, and engaged in energy, environmental, and 
bioscience R&D as well as industrial applications of our core 
technologies.
    Our National Security Mission and safeguards and security are 
inextricably linked, and we take both of them very seriously. In my 
testimony to this committee on July 20, 1999, I stated our commitment 
and described our efforts to provide increased confidence in the 
security of the Laboratory. I would like to report to you today the 
substantial progress that has been made in addressing the issues 
resulting from the May 1999 inspection by the DOE Office of Security 
Evaluations (OSE).
    In the area of protection of Special Nuclear Materials (SNM), we 
are well along in executing an action plan to analyze, document, 
performance test, and enhance the Laboratory's comprehensive protection 
strategy. There have been several progress reviews by DOE Defense 
Programs (DOE/DP) and the Oakland Operations Office (DOE/OAK). Hundreds 
of simulations have been performed, and a force-on-force performance 
test against an outside adversary team has validated the protection 
strategy. In parallel with this effort, there have been numerous 
physical and procedural upgrades and interim staffing increases. A new 
class of Special Response trained officers will graduate in December 
and enhance our staffing.
    In the area of Materials Control and Accountability (MC&A), we have 
demonstrated the ability to consistently meet SNM measurement and 
inventory requirements and resolve inventory differences in a timely 
manner. Specific concerns raised by the OSE, ranging from statistical 
sampling procedures to verification of tamper indicating devices, have 
been addressed. This past week LLNL took delivery of a new certified 
calibration standard from DOE's New Brunswick Laboratory that will 
allow us to begin making certain specific accountability measurements.
    We have also made improvements in the area of physical security and 
protection of classified matter. Performance issues identified by OSE 
in several vault-type rooms (VTRs) have been corrected, and two newly-
hired alarm testers are conducting a detailed inspection of all vaults 
and VTRs at the Laboratory. Alarming and other physical upgrades of 
non-compliant classified parts storage areas are being aggressively 
pursued and will be completed by the end of the year. Over 100 non-GSA-
approved repositories have been replaced, and we are in the process of 
replacing or relocating the remainder to VTRs. Physical barriers have 
been installed in many Q-clearance-only areas to restrict accidental 
access by L-cleared personnel, and a comprehensive cost and engineering 
study for completing the remainder is nearing completion.
    The Laboratory has taken many steps to improve cyber security. 
Computer access by any foreign national must be approved through a 
rigorous review process. For cases where dial-in access is allowed for 
foreign nationals, the access is routed through a single terminal 
server running state-of-the-art network intrusion detection software. 
In addition, unclassified systems are being scanned for 
vulnerabilities, and outgoing e-mail is being scanned for classified 
content. No issues have arisen. Steps have also been taken to limit the 
physical possibility of accidental transfer of information from a 
classified system to an unclassified system. We have installed a 
firewall between the open and restricted partitions of the unclassified 
network and are beginning transition of servers to the appropriate 
partition. And finally, we are actively participating in the DOE/DP 
Integrated Security Management (ISecM) initiative to further improve 
computer security.
    In summary, much progress has been made in addressing the issues 
identified by the DOE/OSE security evaluation, and we are well on our 
way to reaching the goals we have set. I am committed to achieving an 
excellent Safeguards and Security Program at the Laboratory.
                        progress on ose findings
Protection Program Management
     During the inspection in April, DOE/OSE (now DOE Office of 
Independent Oversight & Performance Assurance, DOE/OA) cited a concern 
that LLNL had not demonstrated assurance of the SNM Protection 
Strategy. Immediately, LLNL responded with a ``Path Forward'' action 
plan to analyze, document, performance test, and enhance the 
Laboratory's comprehensive protection strategy. With the support and 
concurrence of DOE/OAK, DOE/DP and DOE/OA, LLNL has performed over 300 
tabletop and computer modeling simulations of possible adversary 
scenarios. The results provided LLNL with the credible scenarios that 
were performance tested during the first two weeks of September. During 
the week of September 12, DOE/OAK validated and DOE/DP verified the 
LLNL protection strategy through force-on-force testing conducted with 
an outside adversary team. The validation and verification testing was 
observed by representatives of DOE/OA and the Office of Security and 
Emergency Operations (DOE/SO). General Habiger was present for part of 
the validation and verification exercise.
    LLNL will implement the new protective force posture in December 
1999, when a new group of Special Response Officers graduate from their 
SPO III Academy training. In the interim, increased protective force 
personnel are staffing the facility around the clock. Significant 
physical and procedural upgrades developed during the Path Forward 
analysis and performance testing have been implemented, with other 
upgrades on target for completion in February 2000.
Material Control and Accountability
    LLNL has made great strides in achieving its commitment to the DOE 
Assistant Secretary for Defense Programs to rectify all MC&A issues, 
including those cited in the Annual Report to the President on 
Safeguards & Security and those of the DOE/OSE inspection report. Of 
the seven issues, all but one has been closed and validated by DOE/OAK. 
In particular, LLNL's MC&A team has demonstrated the ability to meet 
DOE's requirements for SNM measurements and inventory monitoring. The 
team has implemented procedures that are able to quantify and resolve 
inventory differences within a prescribed time frame and that process 
has been validated. Other validated procedures include means for 
assuring that personnel removed from the Personnel Assurance Program 
(PAP) and the Personnel Security Assurance Program (PSAP) are not 
permitted access to SNM, providing inventory confirmation of in-process 
material, and verifying the integrity of tamper indicating devices. In 
addition we have developed an improved sampling plan, based on item 
attractiveness, to be used to confirm inventory.
    The Laboratory has now received shipment of certified measurement 
standards from New Brunswick Laboratory for use in inventory and 
measurement accountability. These standards will enable LLNL to begin 
certain accountability measurements by the close of 1999.
Physical Security
    The physical security program at LLNL was rated satisfactory; 
however, DOE/OSE identified five areas of weakness. Two of the concerns 
were addressed through modeling and performance tests as part of the 
Path Forward activity for Protection Program Management. LLNL's final 
protection strategy, which was validated by DOE/OAK, mitigated those 
concerns. One of the remaining concerns was closed through updated 
operational directives and was validated by DOE/OAK.
    One of the remaining issues relates to the protection of classified 
matter and the adequacy of sensor coverage and proper testing. LLNL has 
taken aggressive action to address this concern. Two additional alarm 
testers have been hired and all alarm testers have now completed formal 
physical security training through the DOE Non-Proliferation and 
National Security Institute. The VTRs that were questioned in the OSE 
report have all been brought into compliance and there is an aggressive 
schedule to inspect and test all other VTRs and vaults at LLNL by the 
end of the calendar year.
    The other remaining issue deals with the barrier delays for SNM 
laboratory doors. The validated protection strategy uses the delay 
value of the existing doors and basically mitigates the need for doors 
with longer delay times. The existing doors are not in compliance with 
the current DOE order. LLNL is developing a project plan, including a 
cost/benefit analysis, for the replacement of the doors to meet the DOE 
standard.
Classified Matter Protection and Control
    In the area of the protection of classified matter, LLNL took 
immediate action to mitigate the OSE's concerns regarding the non-
standard storage of classified parts. We established a two-hour roving 
protective force patrol for the identified storage areas and now are 
fully compliant with pertinent DOE Orders. In addition, LLNL has 
completed a comprehensive self-assessment to assure that all facilities 
housing non-standard storage of classified parts, including those 
identified during the OSE inspection, are appropriately protected.
    LLNL has initiated an aggressive upgrade program to bring all 
identified areas of non-standard storage to either the VTR standard or 
to relocate the items to vaults or VTRs by December 15, 1999. That 
program is well under way with alarm and physical upgrades currently 
being installed and items being consolidated or destroyed.
    LLNL has identified all the locations of non-GSA-approved 
repositories and a comprehensive plan to replace all non-GSA 
repositories not stored in VTRs has been initiated. The plan also 
includes bringing into operation a new identification method that will 
permit the location of all repositories to be tracked in the LLNL 
property management database and verified by protective force patrol 
checks. Over 100 new repositories have been replaced to date, with 
additional containers on order. It is the goal of LLNL to either 
replace, relocate to VTRs, or provide off-hour checks of all non-GSA 
repositories by December 31, 1999.
    A DOE/OSE concern was raised about the procedures and barriers used 
in Limited areas where personnel with both L and Q clearances have 
access. A survey of such areas is complete and a cost/benefit analysis 
is due on October 31, 1999. Options include the use of barriers and 
access control or requests for additional Q clearances. Many programs 
at LLNL have already installed, or are in the process of installing, 
physical barriers and access control to segregate L-cleared employees 
from Q-only areas. LLNL does not have any L-cleared foreign national 
employees. We have, however, implemented a policy to require any 
potential L-cleared foreign nationals from elsewhere in the DOE complex 
to be escorted in general limited areas.
    LLNL has implemented other actions to address the OSE concerns in 
the area of protection of classified matter, including modification of 
the Laboratory's Operations Security plan to place added emphasis on 
the highly critical and sensitive topics.
Cyber Security
    LLNL is actively participating in the ISecM initiative chartered by 
DOE/DP. ISecM aims to achieve a comprehensive, integrated solution to 
improving security in the DOE Nuclear Weapons Complex, particularly 
security against the ``insider'' threat. ISecM constitutes a major 
upgrade to security in the Nuclear Weapons Complex and will require 
several years with significant new funding to implement. When 
implemented, ISecM will integrate security more fully and more 
transparently into classified computing across the Complex. In the long 
term, ISecM will comprehensively address the concerns expressed by the 
OSE while broadly improving security in the Complex.
    In the near term, LLNL has taken immediate actions to address OSE 
concerns. LLNL has installed a state-of-the-art system to monitor all 
remote dial-in access by foreign nationals. In addition, LLNL has 
strengthened its existing foreign national approval process. We now 
require review and approval by the LLNL Chief Information Officer (CIO) 
and the LLNL Associate Director for National Security for cyber access 
by any sensitive-country foreign national.
    We are also vigorously addressing OA concerns related to LLNL's 
implementation of the Nine Point Action Plan:

--LLNL is applying Tamper Indicating Devices (seals) to classified 
        computers to increase the assurance that users do not modify 
        their computer systems to add ways of transferring data.
--LLNL has instituted rigorous new procedures for the authorized 
        transfer of unclassified files from classified systems.
--LLNL is scanning all its unclassified computer systems to determine 
        whether or not those systems have vulnerabilities.
--LLNL has procured new software that has the potential to 
        significantly increase the Laboratory's ability to 
        automatically scan e-mail for classified information.
--LLNL has installed a firewall between the open and restricted 
        portions of the unclassified network and is beginning 
        transition of servers to the appropriate partition. The 
        firewall will be fully operational by March 1, 2000.
In addition, LLNL's programs have re-evaluated the need-to-know 
boundaries pertaining to the information they handle and their 
personnel. Each LLNL program area is restructuring its computer systems 
appropriately to enforce more stringent need-to-know separations.
    To guide computer security in the future, the Laboratory has 
created a Computer Security Policy Board headed by the LLNL CIO to 
promulgate policy regarding computer security for the site.
                            closing remarks
    The security evaluation conducted by OSE noted many improvements to 
LLNL's security system while identifying areas for further improvement. 
We are carrying out a comprehensive corrective action plan to address 
those areas, and much progress has been made. I have committed the 
resources and set priorities to ensure that this plan is executed. Many 
corrective action milestones have already been achieved, and we are on 
schedule with the remainder. Most milestones are expected to be 
achieved by the end of the year. DOE has evaluated and concurred in or 
validated much of our work to date. OA has noted LLNL's strong 
commitment to action.
    I appreciate the opportunity to provide an update to the Committee 
on the status of security improvements at LLNL. I am confident that our 
Special Nuclear Material and sensitive and classified information are 
secure.

    Mr. Upton. Thank you very much.
    Dr. Weigand, welcome back.

                    TESTIMONY OF GIL WEIGAND

    Mr. Weigand. Thank you, again. I would ask that my full 
text be entered into the record, and then I will attempt to be 
extremely brief and you can get on with the questioning.
    I do appreciate the opportunity to appear before the 
committee again. I want you to know that as I have indicated 
before I am fully committed to strengthening the security 
posture at the laboratories and in defense programs, and doing 
so by the end of the calendar year. I hope to achieve a 
``satisfactory'' rating on the report that goes back over to 
the President.
    You are fully aware that last year's report that went to 
the President did not have a ``satisfactory'' rating, it had a 
``less than satisfactory''; and as a result of that, the 
Assistant Secretary, along with the cooperation of Deputy 
Assistant Secretaries like myself have created a set of 
corrective action plans and reported those corrective action 
plans to Under Secretary Moniz in a memo we call the ``goalpost 
memo.''
    It is a classified memo in which we lay out the plan by 
which we expect to achieve our ``satisfactory'' rating by the 
end of the year. It was clearly based upon the information we 
had at the time we drafted the memo.
    I think why I am very confident that we are going to come 
to this ``satisfactory'' rating or very close is because the 
three things it takes to make this happen are in place. One, 
there is a corrective action plan. That corrective action plan 
two, has milestones, measurable; if not week-by-week, they are 
appropriate, and they are reported to my office on a regular 
schedule. And we can audit those a bit.
    And third and most important is that a corrective action 
plan with milestones and clear objectives is one thing, but 
funding it is the other. And this plan has been funded. I have 
letters from each of the directors of the laboratories that 
they will fully fund those corrective action plans.
    I think on the positive side here, we have just recently 
gone through a set of inspections by the independent office. 
Those inspections, as you have heard today from Mr. Podonsky, 
are showing very good progress, very good signs we had an 
overall satisfactory rating at one of the laboratories, Los 
Alamos, and we are very proud of that progress.
    One other thing I did want to mention here is that we 
aren't just leaving this to a goalposts memo that ends at the 
end of this December. Those are what I call the intermediate 
set of actions.
    I have asked the laboratories to form a laboratory-industry 
task force to create a plan for continuous improvement. The 
purpose of the plan is to ensure that our security will be 
sustainable in the long run and capable of adapting to the 
threat as it increases. And I really want to emphasize that. 
This is not a game where the threat lies dormant and lets you 
have some slack. This is a slippery pole. As you climb and 
achieve new technological advances to overcome the current 
threats, those technologies are used against you in the future 
to overcome the barriers you put up.
    So this is a slippery pole on which we have to constantly 
be climbing. I am very interested in the continuous 
improvement.
    I asked this task force to work jointly with myself and the 
Office of the Chief Information Officer, Mr. Gilligan, who is 
here with us today. If you wish to question him, I am sure he 
will be willing to offer his viewpoints.
    I also charged this task force to make cyber security 
within defense programs ``best in class.'' We would do as good 
as the rest of the government and hopefully adapt what good 
ideas they use throughout the government. But I insisted they 
take one additional step, and that is that I wanted them to be 
very forefront on insider espionage. I think that is a 
capability that the Department of Energy could contribute 
across the government. Given the concern of this committee on 
insider espionage, I think that we need to step up to that, and 
I ask the committee to do that.
    To ensure objectivity in this task force, I established a 
leadership team that was chaired by Bill Crowell, who is the 
Chief Executive Officer of Cylink and the past Deputy Director 
of the National Security Agency. The majority of the leadership 
team was selected from commercial enterprise, including Boeing, 
IBM and TRW who have a very large enterprise in classified work 
for the Federal Government, IBM and TRW. The TRW representative 
was Bill Studeman, Admiral Studeman, was the former Deputy 
Director of the Central Intelligence Agency.
    I stacked this committee in favor of the industry 
representatives who knew the cyber security world from inside 
the government and outside the government. They can outvote the 
labs at any given time.
    The task force proposed a long-term system-level approach 
to cyber security and provides a basis for creating the 21st 
century classified information system for defense programs that 
will continue to enhance the protection of our classified and 
sensitive nuclear weapons information, on ongoing and 
increasing threat.
    We have a draft from them. We are evaluating that draft. We 
are looking at options on how to implement and options on how 
to fund. And, again, because this is a system-level approach 
that we are taking here, it has many nuances to it, and we need 
to assess them fully before we get back to the committee with 
what we think we should be doing.
    So, in conclusion, I just believe there has been 
significant progress. I think you have a pretty good team in 
place right now. I think we just need to move the ideas and the 
plans that we have forward, and hopefully by the end of this 
year we will be reporting back to you a ``satisfactory'' along 
with our report to the President with a ``satisfactory.''
    [The prepared statement of Gil Weigand follows:]
   Prepared Statement of Gil Weigand, Deputy Assistant Secretary For 
Research, Development and Simulation, Office of Defense Programs, U.S. 
                          Department of Energy
                             introduction:
    Mr. Chairman, and distinguished members of the Committee, I 
appreciate the opportunity to testify on security issues. We, in 
Defense Programs, are fully committed to ensuring that our laboratories 
and facilities enhance their safeguards and security protection 
postures and achieve a Satisfactory rating by the end of the calendar 
year. As line managers, we fully recognize that effective safeguards 
and security protection is required in order to meet our National 
Security mission. APPROACH:
    As documented in the most recent Annual Report to the President, 
several Defense Programs' sites were rated less than Satisfactory. 
These ratings were based on previous oversight reviews (surveys, 
assessments, inspections). On May 24, 1999, the Assistant Secretary of 
Defense Programs set forth in a ``Goal Post'' memorandum to the Under 
Secretary, our get-well plan and approach to correct deficiencies by 
the end of the calendar year. The ``Goal Post'' memorandum was 
coordinated with Non-Proliferation and National Security and the Office 
of Independent Oversight and Performance Assurance and accepted by the 
Under Secretary. It committed to ``fix the problems'' through immediate 
and interim actions and follow-on corrective actions with associated 
milestones to be completed by the end of the calendar year. We have 
committed an abundance of resources to fix the problems and, to date, 
have reprioritized funding within ourexisting budget. Finally, we are 
closely tracking all Corrective Action Plans to assure milestones are 
being appropriately met.
    Also, there have been inspections completed at Lawrence Livermore 
National Laboratory, Sandia National Laboratories, and Los Alamos 
National Laboratory subsequent to the Annual Report to the President. 
These inspections by the Office of Independent Oversight and 
Performance Assurance focused on a review of safeguards and security 
programs with documented problems and evaluated the effectiveness of 
cyber security programs in both the classified and unclassified areas. 
While work remains to be done, recent inspections have documented that 
significant progress and improvements have been accomplished at all of 
the weapons laboratories in the safeguards and security, as well as 
cyber security areas.
    As you are aware, the Department has recently been giving much 
attention to the area of cyber security. This began with action plans 
to address the Secretary's nine points and six enhancements. Once the 
plans had been developed and implementation had begun, I asked the 
laboratories to create an Integrated Security Management (IsecM) Task 
Force. The task force was to prepare a plan for continuous improvement. 
The purpose of this plan is to ensure that our security will be 
sustainable in the long run and be capable of adapting to the threat as 
it increases. Specifically, I charged the task force with developing a 
plan that has been coordinated with the Department's Chief Information 
Officer to make the cyber security within Defense Programs the best in 
class and preeminence against the insider threat. To ensure 
objectivity, I established a leadership team for the task force that 
was chaired by Bill Crowell, Chief Executive Officer of Cylink and past 
Deputy Director of the National Security Agency. The majority of the 
leadership team was selected from commercial enterprises, including 
Boeing, IBM and TRW, the TRW representative being Bill Studeman, former 
Deputy Director of the Central Intelligence Agency.
    The task force has proposed a long-term system-level approach to 
cyber security. It provides the basis for creating a 21st Century 
classified information system for Defense Programs that will continue 
to enhance the protection of our classified and sensitive nuclear 
weapons information in the face of ongoing increases in the threat. The 
task force completed the plan in September and is currently refining 
the associated cost estimate. The plan has been submitted to the 
Department and is currently being reviewed. I hope for a decision on 
further action soon.
    I will now provide a brief summary of specific actions taken and 
planned to correct weaknesses in safeguards and security at the DP 
laboratories by the end of the calendar year.
             lawrence livermore national laboratory (llnl):
    All worst case adversary paths and scenarios have been reassessed 
to include re-running of all computer modeling and performance tests to 
validate the protection posture at the ``Superbloc'' (where SNM is 
processed/stored). There has been an increase in protective force 
manning at the Superbloc and additional physical security upgrades have 
been put in place. New and enhanced procedures have been put in place 
and validated by Oakland Operations Office to address weaknesses in the 
material control and accountability area (addresses Tamper Indicating 
Device integrity, Inventory Differences Analysis, Inventory Sampling 
Plans based upon attractiveness of SNM, and acquiring reference 
materials for measurement of uranium holdings). In the area of 
Classified Matter Protection, LLNL has established two-hour patrols 
during off hours, holidays, and weekends of classified matter/parts 
pending the matter/parts being relocated to vaults or alarm system 
upgrades completed by December 15, 1999. All vault type room alarm 
coverage is being assessed with corrections by December 31, 1999; those 
identified during the inspection have already been corrected. Also, 
additional alarm testers have been hired and trained. Lawrence 
Livermore National Laboratory is in the process of consolidating its 
classified holdings destroying unnecessary classified materials. In 
addition, over 100 GSA approved repositories have been received with 
additional on order.
    In the area of unclassified cyber security, LANL is scanning E-mail 
to detect classified information that has been accidentally or 
deliberately placed in an unclassified message. Across the Lab 
vulnerability assessment scans are being conducted. Also, the Computer 
Security Organization has instituted ``spot checks'' to assure the 
vulnerability scans are being completed and to further assure that 
significant vulnerabilities uncovered by the scans are corrected. 
Finally, foreign nationals are not permitted access to a Limited Area 
unless under escort. In addition, intrusion detection is in place to 
monitor off site foreign national access to LLNL's open terminal 
server.
                   sandia national laboratories (snl)
    SNL has taken several immediate actions to improve security 
including restaffing a protective force tower position, creating an 
additional elevated protective force response position, and adding 
physical barriers at the material access portals to protect the 
protective force members. Additional physical security enhancements 
have included securing tamper switches on alarm cabinets and the 
implementation of metal detector procedures to detect items in shoes. 
In the area of materials control and accountability, SNL has updated 
its physical inventory and tamper-indicating procedures as well as 
ensuring that existing measurement plans reflect the procedure of 
always measuring 100% of Category I nuclear material holdings. In the 
area of classified matter protection, SNL has increased the frequency 
of protective force patrols of buildings containing classified parts 
and has placed a Security Police Officer in one building containing 
Secret Restricted Data parts during non-operational hours to perform a 
full perimeter walk-around. All classified containers, including space 
savers, have been made accessible to the protective force and SNL will 
provide a plan to DOE by December 23, 1999, for the approved standard 
storage of classified materials either in GSA safes, vaults, or vault-
type rooms. Also, deficiencies in the SNL security infraction/inquiry 
program are being addressed with the recent addition of 3 staff members 
to the Security Incident Management Program Team with the elimination 
of the backlog of security inquiries/investigations to zero by December 
23, 1999.
    In the area of unclassified cyber security, SNL is moving forward 
aggressively to implement the Secretary's six further enhancements to 
cyber security . Also, SNL now has in place a formal process requiring 
SNL Vice Presidential approval for any foreign national access to the 
unclassified Sandia Restricted Network (SRN). They have also applied 
tamper-indicating solutions to unused ports of classified computers 
collocated with unclassified computers and implemented the NT secure 
model on the SRN servers with deployment to individualized computers by 
December 23, 1999. They will also correct all significant 
vulnerabilities on the Sandia Open Network (SON) and SRN computers as 
an interim measure and implement the automated NT server model with 
monitoring on the SON plus servers by December 23, 1999. Finally, SNL 
plans to implement the UNIX SECURE Model on SRN and SON by September 
29, 2000.
                 los alamos national laboratory (lanl):
    The LANL protection program was rated in the February 1999 Annual 
Report to the President as Marginal with all topical areas also rated 
as Marginal. However, the August 1999 comprehensive inspection of LANL 
resulted in an overall SATISFACTORY rating. This represents the 
commitment of senior line management to address the actions needed to 
correct past deficiencies and weaknesses. LANL has effectively 
addressed long-standing problems in the accountability of nuclear 
materials and has made significant progress in addressing deficiencies 
in the protection of classified weapons matter/parts. There have been 
significant physical security upgrades put in place and the protective 
force response has been robustly improved and performance tested. Aging 
security systems are being addressed by a line item construction 
program. LANL will be down from 105 buildings containing classified 
parts to 22 buildings within 8 building clusters with 8 dedicated 
patrols by December 31, 1999. In the area of material control and 
accountability, LANL is using current limit of error inventory 
difference data for inventory calculations and will review all nuclear 
material characterized as not amenable to measurement and revise, as 
appropriate, their plan by November 30, 1999. The inspection team 
characterized the LANL materials control and accountability program as 
the best in DOE.
    In the area of unclassified cyber security, LANL has strengthened 
its policy on foreign national access to their unclassified network and 
by November 1, 1999, will assure that all systems accredited to process 
classified material employ tamper indicating seals on unused ports. 
They will also have finished by November 1, 1999 the strengthening of 
their pass word protection and implementation of a scanning process and 
on-going performance-based testing. LANL hasalready begun 
implementation of switched networks (65% completed on red, 40% on 
yellow networks- all to be completed by FY-2000).
                                closing:
    As you can see, significant progress has been, and continues to be, 
made. We are prepared to brief the Committee in more detail on the 
specific actions underway to meet ``goal post'' commitments and to 
correct weaknesses noted by the recent inspections. Mr. Bill Hensley is 
available to provide these briefings.
    In closing, I want to again express Defense Programs' continuing 
line management commitment to improving our Laboratory and facility 
protection programs and obtaining Satisfactory protection programs by 
the end of the calendar year.

    Mr. Upton. Thank you very much.Dr. Turner?

                    TESTIMONY OF JAMES TURNER

    Mr. Turner. Thank you, Mr. Chairman. I have a short 
statement.
    I am pleased to return to give you a status report on our 
efforts to address safeguards and security findings at the 
Lawrence Livermore National Laboratory. I am the manager of the 
DOE Oakland Operations Office. Our role in security consists of 
two parts: First, we provide Federal oversight of the 
laboratory through the presence of Federal personnel on the 
site and in the facilities. These Federal staff, one, perform 
spot checks on activities; two, conduct focused reviews and 
issue findings where appropriate; three, validate that 
corrective actions are complete and effective; and four, 
maintain a constant presence in key facilities to understand 
what is being done and to offer suggestions for improvement.
    Second, I am the DOE contracting officer for the contract 
with the University of California for the management and 
operation of the Lawrence Livermore National Laboratory. In 
addition to administering the terms of the contract, we work 
with headquarters to develop performance measures and to assess 
the laboratory's performance annually.
    When we were here in July, a corrective action plan had 
been agreed by the parties in the field and headquarters, 
several upgrades and improvements were under way, and Livermore 
was working cooperatively with Sandia and Los Alamos in areas 
of common interest, such as cyber security. At that time, 
Livermore was meeting all time lines and milestones in the 
corrective action plan. To date much more work has been 
completed and the laboratory is still on track with the agreed 
schedule.
    Some examples of specific actions taken are: increasing the 
numbers of protective service officers within the Superblock 
where plutonium, enriched uranium and classified parts are 
stored; successful completion of performance tests to 
demonstrate the capability to protect Superblock assets in 
scenarios consistent with the design basis threat; successful 
completion of bimonthly inventories of special nuclear material 
to address previous deficiencies in nuclear materials controls 
and accountability; the acquisition of measurement standards 
for precision measurements of quantities of nuclear material--
this was accelerated through the assistance of General Habiger; 
increasing the number of sensors and alarms in open storage 
areas to protect classified parts; and implementing the Trilab 
cyber security plan for classified and unclassified computers.
    In summary, the laboratory is still on track to complete 
the steps necessary to have the safeguards and security rating 
assessed by Mr. Podonsky's office changed from the current 
``marginal'' to ``satisfactory,'' that is, to have the 
laboratory ``green'' by the end of the calendar year. This is a 
commitment I made to Secretary Richardson. Dr. Tarter made a 
similar commitment. In my view, we're working hard, working 
well and working together to implement this commitment.
    In addition, for fiscal year 2000, the performance 
evaluation points allocated to security in the contract have 
been increased such that they are now equal in weight to 
safety.
    The final point I want to make is that we're committed to 
continue the pressure and the momentum to improve security 
against the current threat, new, emerging threats and evolving 
threats such as those in the cyber security area. I agree with 
Mr. Podonsky that security is an attitude. It is a 
responsibility that all of us who deal with national security 
and economic security matters accept when we take such 
positions. To be most effective, security and safety should be 
an integral part of the work needed to accomplish the program 
mission.
    Thank you, sir.
    Mr. Upton. Thank you very much.
    As we did with the first panel, members will be allowed to 
ask questions for about 5 minutes. And we will rotate between 
sides and probably have one or two rounds of questions.
    First of all, I appreciate all of you for--those of you who 
testified before, certainly--coming back. And our subcommittee 
has had a long history, whether it be Republican or Democrat, 
in trying to identify abuse, going after it and then making 
sure that it's corrected. And I do believe that we are on the 
right track to correct it. I just want to make sure that we are 
on a fast enough track to make sure that secrets in the future 
will not be allowed to be given away.
    And I guess, with that in mind, I have a couple of 
questions. No. 1, Dr. Robinson, you indicated and so did Mr. 
Tarter, background checks, polygraph checks have been taken--
wait, maybe you didn't say so, Dr. Tarter, but Dr. Robinson, 
you indicated that polygraph tests had been taken from a number 
of DOE employees more than just the CI folks?
    Mr. Robinson. These are laboratory employees who are 
involved in special compartmented programs. And to participate 
in those programs, agreeing to be available for polygraph was a 
part of the condition for joining those programs. I'm giving 
you the statistics on the actual number of folks who were 
involved in such programs, who have been called on and have 
been polygraphed.
    Mr. Upton. Dr. Tarter, you indicated that you wanted more 
Q-cleared folks as compared to L, which I assume is a lower 
clearance?
    Mr. Tarter. Yes.
    Mr. Upton. But Q-cleared folks don't have the background 
check, do they? Or don't they? Do they--what is the difference 
between an L and a Q other than the M-N-O-P.
    Mr. Tarter. Perhaps Rich Mortensen ought to come up----
    Mr. Upton. What level of degree is different for a Q than 
an L?
    Mr. Tarter. Rush?
    Mr. Inlow. I am Rush Inlow, Deputy Manager, Albuquerque 
Operations. A Q is a full field investigation currently done by 
the Office of Personnel Management in most cases. It also 
includes a records check and a statement from the applicant, 
filling out a questionnaire that deals with both background and 
lifestyle issues.
    An L is merely a records check and a statement submitted by 
the applicant.
    Mr. Upton. Now, these clearances are only for U.S. 
Government employees; is that correct?
    Mr. Tarter. No, U.S. citizens who are----
    Mr. Upton. U.S. citizens that are participating at the labs 
or employed at the labs?
    Mr. Robinson. There are a few exceptions of foreign people 
who have obtained clearances. We have a UK employee working in 
a limited cleared area with a Q clearance.
    Mr. Upton. What percentage of foreign nationals that would 
have access to unclassified information, what type of 
clearance, if any, would those individuals have?
    Mr. Inlow. None.
    Mr. Robinson. They would have none.
    Mr. Upton. And they do have access; is that not right?
    Mr. Robinson. No.
    Mr. Upton. Not even to unclassified?
    Mr. Turner. Unclassified, yes.
    Mr. Upton. But not classified?
    Mr. Turner. Correct.
    Mr. Upton. Is that 100 percent guaranteed?
    Mr. Robinson. To the best of our abilities, yes.
    Mr. Upton. Dr. Weigand, you mentioned a goalposts memo. I 
don't know whether I asked our staff if we had a copy and we 
may have one in my--though I'm not sure. I've not seen it, 
though we may have it. One of the things that I indicated in my 
opening statement was that I think a number of members may be 
interested in going to see for themselves a number of the labs, 
probably come January when Congress is in recess and it will 
not interfere with our votes here.
    Do you know whether the goalposts memo has been shared with 
our committee staff?
    Mr. Weigand. Mr. Chairman, your staff has the memo and we 
would be glad to supply another copy.
    Mr. Upton. One of the things that I would ask is that 
before we embark on such an adventure, going to these three 
labs, I wonder if it would be possible for you to come up and 
give a briefing to those members who might be interested and go 
through the goalposts memo and look at the recommendations and 
look at the time lines that you suggested. And as you indicated 
in your testimony, the milestones that are there are on a 
regular schedule and you believe that they are fully funded, 
but I wonder if we might get a report at that time, in January 
maybe, in a private meeting of those members to see how the 
labs in fact are doing with regard to the suggestions that you 
offered, to make sure that in fact we are achieving the 
milestones and the direction that you thought was wise?
    Mr. Weigand. Sir, so I'm really committed, let me commit 
myself to do the following: Since it's on the record--I just 
got through looking at the cyber security, the nine points and 
so forth corrective action plans; and I asked for an informal 
audit by some of my staff to do that. And I get reports back of 
different things that we see happening and we are responding to 
some of those. I will be perfectly willing and happy to again 
have my staff informally meet with the laboratories and find 
out exactly where they stand on these corrective action plans.
    To my knowledge, they are on time and sort of on schedule, 
but there are always little concerns here and there that come 
up, and I'll be glad to share that with your staff before you 
go out.
    Mr. Upton. Thank you.
    Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Browne, you became director of Los Alamos lab in 1997; 
did you not?
    Mr. Browne. That's correct. November.
    Mr. Stupak. I had a couple of questions about the Wen Ho 
Lee investigation, and I would like to ask you, since you're 
here today, when were you first briefed about this 
investigation?
    Mr. Browne. It was about 2 weeks after I became Director.
    Mr. Stupak. Give me a month. Do you know a month?
    Mr. Browne. I believe it was November 1997.
    Mr. Stupak. When did you first become aware that the FBI 
concluded that it had finished its investigation and Wen Ho 
Lee's clearance should be lifted?
    Mr. Browne. If you're referring to the remarks that have 
been reported in the paper by FBI Director Freeh--is that what 
you're referring to?
    Mr. Stupak. Yes.
    Mr. Browne. I think I read about those in The Washington 
Post sometime in like April 1999. I was never directly informed 
of those.
    Mr. Stupak. No one ever told you?
    Mr. Browne. No.
    Mr. Stupak. So that was April 1999?
    Mr. Browne. 1999, whenever that story came out.
    Mr. Stupak. Any idea why you weren't told by the FBI? Did 
they make attempts to contact you before the stories appeared 
or anything?
    Mr. Browne. I certainly had meetings with the people in the 
local FBI office, but they never raised that issue with me 
directly. We certainly discussed--the ongoing investigation is 
the way it was presented to me; it was not present as if there 
was a change in the status of that case.
    Mr. Stupak. So you knew about the ongoing investigation and 
the next thing you knew is what Director Freeh had said in the 
newspaper; correct?
    Mr. Browne. Correct.
    Mr. Stupak. Okay. Did the FBI--they were requesting a 
search warrant for Dr. Lee's computer, but they were told that 
DOE's policy was not too clear, or was not clear about 
expectations of privacy of lab employees that might have access 
on a government computer?
    Mr. Browne. No, it was--my understanding of this is that 
there was a ruling by the FBI counsel about the adequacy of the 
approval, that all of our employees signed a waiver, basically, 
when they became employees, and it was part of our security 
updates that you signed, saying that ``I know that my computer 
is subject to search by the government, it is government 
property,'' et cetera.
    My understanding was that when the FBI and the Department 
of Justice counsel looked at it, they thought that was not 
adequate unless every day when you signed onto the computer a 
banner appeared that reminded you of that every day.
    Mr. Stupak. So the FBI made that determination? It wasn't 
you or your administration personnel there telling the FBI they 
could not grant access to the computer without a search 
warrant?
    Mr. Browne. That's right.
    Mr. Stupak. Did your policies require the FBI to get a 
search warrant for this?
    Mr. Browne. No, no.
    Mr. Stupak. Okay.
    You said that the FBI--you knew the FBI was doing the 
investigation, and they were sort of advising you. Were you or 
any of your people involved--personally involved with this 
issue, whether it is getting the search warrant or directing 
the FBI? Or assisting the FBI; I won't say directing.
    Mr. Browne. When the FBI opens a case, they were 
responsible for the conduct of that case, and we certainly 
supported them in all their requests that they made with 
respect to the investigation. So our people had to help them 
with access to certain information regarding the individual; 
and any attempts they were trying to make, they kept us 
informed about as well. We were in complete communication with 
both them and the Department of Energy throughout this whole 
period.
    Mr. Stupak. This was a pretty high-profile case going on, 
especially as the news stories started to break. Were you 
personally involved in some of the decisions being made and 
things like this?
    Mr. Browne. Up until December 1998, I would say that it was 
a low-profile case. And it became much more of a high-profile 
case after December 1998, when we started to obtain our own 
information in the Department and the FBI obtained more 
information about the security violations that this individual 
committed.
    Mr. Stupak. You said that was about December 1998, but if 
my memory serves me correctly, by then it had taken on a 
pretty--it had become a high-profile case; even--if my memory 
serves me correctly, I think even the President was briefed on 
this by December 1998.
    When--were you just sort of out of the loop on this one?
    Mr. Browne. No, we were not out of the loop. In December 
1998, the individual actually passed the polygraph examination 
and there was a determination at that point to--although he had 
passed the polygraph, the Department of Energy asked us to 
remove him from his position into a totally isolated part of 
the laboratory, which we did immediately. And there was a 
determination at first that it looked like he passed and the 
case would be basically terminated against the individual.
    After a subsequent review of the information, it was 
determined that he was deceptive on the polygraph and then that 
led to a much deeper set of investigations.
    But we were totally part of the entire interaction. Our 
counterintelligence people were involved. It was not like we 
were out of the loop.
    Mr. Stupak. I guess for a case to get where the President 
is briefed on it, that has got to be pretty high-profile, and 
yet I get the impression that you were still giving it low 
profile until December 1998.
    Mr. Browne. There was not much evidence up to December 1998 
that the FBI was not in a position to prosecute any case, and 
of course they still have not moved that far against the 
individual. But the evidence, to my understanding, that I was 
aware of at that point, they did not have sufficient evidence 
up until December 1998 to do anything except consider it an 
ongoing investigation.
    Mr. Stupak. When the President was initially briefed before 
December 1998, were you or any of your personnel involved in 
that briefing?
    Mr. Browne. No.
    Mr. Stupak. Did you prepare any briefing documents for the 
President or anything?
    Mr. Browne. No.
    Mr. Stupak. Do you think the lab director should play a 
role in these investigations?
    Mr. Browne. I think we--in retrospect, I think we should 
have had more information provided to us during that period. 
For example, as I stated, if the information that Director 
Freeh provided to the Department of Energy had been available, 
it might have changed some of our viewpoints.
    Mr. Stupak. How much responsibility do you think Los Alamos 
lab personnel, who handled these requests for computer access 
and delayed in lifting Dr. Lee's clearance, how much 
responsibility should you have in that or your personnel?
    Mr. Browne. We are not responsible for removing the 
clearance. The Department of Energy's responsible. We can 
recommend that to the Department of Energy.
    Mr. Stupak. Did you in this case?
    Mr. Browne. Yes, we did.
    Mr. Stupak. When?
    Mr. Browne. It was in January 1999.
    Mr. Stupak. On this investigation, did you have a single 
source person who worked for you, that worked with the FBI and 
DOE on this?
    Mr. Browne. That's correct.
    Mr. Stupak. Who was your point person on that?
    Mr. Browne. It was an individual named Mr. Terry Craig.
    Mr. Stupak. Okay. Thanks.
    No further questions at this time.
    Mr. Upton. Thank you.
    I'd like to ask Dr. Robinson and Dr. Browne and Dr. Tarter, 
there was a memo, I guess that DOE was considering. I don't 
know if they actually drafted it or not, but it was a new 
contract clause that indicated--would place the lab's annual 
performance fee at risk if they failed to achieve a 
satisfactory rating in evaluation of their performance under 
the security plans.
    What is your reaction to that? Is that something that you 
all could support? Would you agree to forfeit some of the bonus 
if, in fact, you didn't achieve that type of rating? What is 
your reaction to that?
    Mr. Robinson. I think, as a matter of anything, we would 
make a contract, we would want things to be spelled out as to 
what the obligations are that you are to meet. We have never 
favored open-ended contracts, but certainly when reasonable 
conditions are spelled out, we agree to take those obligations 
that would be perfectly acceptable. We do that in some other 
areas.
    Mr. Upton. Dr. Browne?
    Mr. Browne. Well, our responsibilities for security 
certainly are at the top priority, along with protection of the 
health, safety, and environment. In addition, we have a 
responsibility at all three labs for certifying the safety and 
reliability of the stockpile each year. So I would think any 
one of those is paramount to what the government should be 
evaluating, how well we are doing our job. If any one of those 
fails badly, then I think one has to have measures in place to 
ask what caused the failure.
    If it is true failure versus something being not quite 
appropriate, if you see what I am driving at--``marginal'' 
versus totally ``unsatisfactory,'' I think ``marginal'' many 
times has deficiencies, and a deficiency doesn't necessarily 
mean you are failing.
    Mr. Upton. That's right. But you would support some degree 
of accountability using these bonuses?
    Mr. Browne. I think it should be graded according to your 
performance. If you had a graded metric that said, if you are 
totally ``unsatisfactory,'' that you risk a certain amount of 
your fee versus if you're ``marginal'' you risk less, and 
perhaps if you're ``satisfactory,'' you get a positive 
indicator on your fee.
    Mr. Upton. Dr. Tarter?
    Mr. Tarter. I think my response is very similar to Dr. 
Browne's. I think there were several responsibilities for each 
laboratory.
    I think safety is an extremely high responsibility. I think 
security is at the very top of the list; I think certifying the 
stockpile. And I think, however you decide to apportion those 
in grading the laboratories, I think those need to have 
extremely high weight.
    And then I think you need to assess in each case the 
reasons for it, whether they are institutional, whether they 
are individual, but I think they need to have a way to make a 
very strong statement a laboratory or the institution does not 
perform at a satisfactory level in one of those really major 
areas.
    Mr. Upton. Would all three of you agree that the goalposts, 
I don't want to say ``scenario,'' but the goalposts memo and 
work that is being done and laid out has been a very 
constructive way to meet the ultimate goal of achieving full 
security within the labs? And have you cooperated fully with 
regard to that?
    Mr. Tarter. Let me just start at the other end with the 
microphone.
    I think--one of the things I think we have asked for very 
much, and I think--particularly in view of the fact that 
requirements, particularly in the cyber area, do change very 
rapidly, I think the goalposts approach and the milestones have 
a lot of good things. But many of them put you on a plan, you 
know, how well you are doing as you move along the plan, but 
also the goal line doesn't shift. And then the next year, you 
may reevaluate the exact form of the goal line by technology 
changes and requirements change.
    But I think having that each time has been a very, very 
good thing.
    Mr. Upton. Dr. Browne?
    Mr. Browne. I would agree with that. I think there's one 
other point that I think we are all pushing for, having 
security viewed in an integrated sense with our business much 
like we've done with safety, so that from the top down to the 
person, you know, on the lowest level of the laboratory out 
handling the material sees the whole picture of security 
integrated with their responsibilities for doing their job. 
That's how it works for safety.
    The goalposts memo is a way to help us get there. The way I 
see it, it's a very focused opportunity for us to really fix 
things and then move into this more integrated security 
management approach.
    Mr. Upton. Dr. Robinson?
    Mr. Robinson. Yes, as I said in my statement, only doing 
inspections is not a sufficient route to really get security to 
the level it needs to be. You have got to take a process to 
build in the security in all that is done, or you just continue 
finding things, fixing and finding those.
    Preventive activities to try and maintain the security at a 
higher level is the direction we want to go.
    But I think it has been a useful exercise. We do push back 
if we disagree with particular findings; but others, we say, 
yes, we see there's a problem, and any time we find a problem 
in security, you can count on us both to be concerned and to 
fix it.
    Mr. Upton. Dr. Weigand, you indicated in your testimony 
that you thought that there were adequate levels of funding 
throughout this year, I presume you mean calendar year, though 
maybe it was fiscal, but calendar year to achieve the goals in 
the goalposts exercise.
    Where are we for funding to make sure that that same type 
of process is continued next year?
    Mr. Weigand. To achieve the goalposts, I did receive a memo 
from each one of the directors. It does go across a fiscal year 
boundary, so----
    Mr. Upton. So it goes into the end of September of next 
year?
    Mr. Weigand. I expect their commitment to find the dollars 
to meet that, meet that level of activity that achieves a 
``satisfactory.''
    I will caveat this with one thing, though. My tenure in 
this position has come during a period of time in which we're 
trying to work a very challenging nuclear deterrence problem--
maintain the safety, reliability, and performance of the 
nuclear stockpile without nuclear testing. It also is coming 
under a period of time in which we have seen several things, 
like our safety program getting sort of on track, that had been 
off track; our construction programs getting on track, some of 
which have been off track; and security getting on track after 
being off track.
    And one of the decisions I made was that I really needed to 
have a solid infrastructure to build a national program that 
would serve the deterrence issue. The plant has to be open, the 
facilities have to be open, they have to be safe, they have to 
be reliable, they have to be guarded appropriately.
    The secrets need to be protected because shutdowns caused 
by lab lapses in security costs the program grievously. A 2-
week shutdown of the system is not a 2-week shutdown. It is 2 
weeks of downtime on the computers, another couple of weeks 
bringing them back up, another couple of weeks getting them 
loaded with the appropriate data and the researchers back on 
them. That is very costly to the program.
    So I have asked these gentlemen to take the money out of 
the program because I need the infrastructure. If we continue 
to do it only on that basis, if we are not allowed to step back 
and say, what is the impact now of finding that we have 
increased requirements in security and so forth, we could do 
harm to the program. And I would not like to see that.
    I don't believe we've done harm to the program at this 
point in time.
    Mr. Upton. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Dr. Robinson, the chairman was asking some questions about 
the goalposts memo, and you said some of the things you do and 
``others we push back.'' what do you mean by ``push back''?
    Mr. Robinson. You, this morning, made a reference about 
passwords for security and that you would have expected a 
laboratory like Sandia have to have passwords on security. 
Indeed, sir, we do; we always have. The narrow finding was a 
question of whether or not our unclassified--I stress our 
unclassified; neither our restricted information network nor or 
third network, our security networks were in question, but our 
unclassified network. Their investigators had been able to 
penetrate and find some passwords that appeared to be easily 
broken, not that we did not have a password system in place.
    It's those kinds of things that we try and dig into and use 
a lot more care in the description of; and if we think a 
finding is not appropriate, we say they're not appropriate. In 
the cyber security area there is still room for doubt as to 
what can be done.
    Mr. Stupak. What do you mean by ``push back'' then? You 
just don't do it?
    Mr. Robinson. No, we debate with them about what is 
appropriate.
    For example, Sandia was the first laboratory to have a fire 
wall. Our colleagues at Los Alamos had installed a new fire 
wall and they suggested our fire wall should be changed to be 
as good as theirs. We said we would not unless we could find a 
U.S.-built fire wall. And that's the kind of debate I would 
call ``push back.''
    Mr. Stupak. How long did it take----
    Mr. Robinson. In the last 2 months we have been able to 
find and develop a supplier on our own of a fire wall.
    Mr. Stupak. You don't have a fire wall yet?
    Mr. Robinson. Of course, we have had a fire wall.
    Mr. Stupak. For how long?
    Mr. Robinson. We have had a fire wall for 10 years. We have 
changed it three times in that period. The latest change that 
was proposed, we pushed back against making another change 
until we could get a U.S.-built fire wall. And that's the kind 
of push-back activity----
    Mr. Stupak. Mr. Weigand, is that accurate?
    Mr. Weigand. I don't disagree with what Dr. Robinson is 
saying. I can't speak for him, but there are a number of things 
that we negotiate on.
    I would like to see us only negotiate on time. We don't 
negotiate on policy with the laboratories. The policy is very 
clear. It is sometimes the implementation of the policy that is 
not. And I don't want to get to wild examples, but in certain 
select areas, passwords may not have been on every single 
system at one given time. This may have been a small section of 
a restricted area.
    But the policy is very clear on passwords today and the 
policy is very clear on understanding how we implement 
passwords, and I think the laboratories are implementing the 
policy.
    Mr. Stupak. I think today the policy is very clear on 
passwords, but it hasn't been in the past.
    Mr. Weigand. That may very well be true. I can't comment 
too extensively on the policy of the past.
    Mr. Stupak. Dr. Robinson, other than passwords, is there 
anything else you would push back?
    Mr. Robinson. There is one other set of discussions and 
this involves a particular type of storage repository for 
classified data, and here there was a difference between two 
parts of the Department of Energy over what was acceptable and 
what was not acceptable. And those, we suggest, need to be 
resolved before we can act on them as to what is an acceptable 
repository and what is not.
    Mr. Stupak. Ms. Stone, I know you do a lot of these 
investigations for Mr. Podonsky. Would you agree with that on 
passwords and on the storage classification and 
unclassification?
    Ms. Stone. What specifically are you asking me about, the 
push-back?
    Mr. Stupak. The push-back.
    Ms. Stone. Sometimes we do encounter push-back during our 
inspections. From an inspection perspective, it is important 
that we collect the information and validate the facts. Our 
validation process is very rigorous where we sit down with 
points of contact--let's say we were inspecting one of the 
laboratories, it would be the laboratory representatives, the 
operations office representatives, and sometimes even Dr. 
Weigand's folks from defense programs would be out observing an 
inspection activity.
    But it's important for us to be able to present our case 
and show the facts. And then whether there is push-back or not, 
provided we are correct on our facts, we move forward with that 
finding.
    Mr. Stupak. After you present your case, do they ever 
refuse to carry out the recommendation?
    Ms. Stone. We have not, during the period of time since we 
have worked for the Secretary, had the case where they have 
said----
    Mr. Stupak. Right, prior to that time. This is all new that 
the Secretary put in prior to that?
    Ms. Stone. Before we worked for the Secretary, beginning in 
May of this year, many times. There were times where--for 
example, the classified parts finding that we talked a lot 
about this morning was one that had not been resolved.
    Mr. Stupak. Okay. Well, let me ask all of you then, do you 
think the directives by the Secretary, Secretary Richardson, 
reviewed by Mr. Podonsky, and the integrated security 
management system set up by Mr. Weigand have improved security 
at your labs, Dr. Robinson?
    Mr. Robinson. I believe they have, yes.
    Mr. Stupak. How about you, Dr. Tarter.
    Mr. Tarter. Yes.
    Mr. Stupak. Dr. Browne?
    Mr. Browne. Yes.
    Mr. Stupak. Would it be fair to say, based upon past 
history, that these steps were long overdue at the weapons 
laboratory?
    Mr. Robinson. I would prefer to say that security has had 
highs and lows over time, as I believe any human activity does. 
A lot of it is change in focus. I believe during the nineties, 
as I said in my written statement, the focus was not on 
security in the early part of the nineties following the cold 
war. It was very much on will there still be a nuclear weapons 
program? What will we be able to afford as the budget was 
reduced in half?
    Those activities came higher and, yes, there were some 
lapses in focus on security during that time. So we are not 
always at 100 percent, though certainly our desire is to be 
there.
    Mr. Stupak. So it is fair to say, then, these steps were 
probably overdue then, right? No?
    Mr. Robinson. I certainly am not opposed to them at all.
    Mr. Stupak. Okay. Ms. Stone, do you think they were 
overdue, the steps integrated by Secretary Richardson? I mean, 
you do the investigations, right?
    Ms. Stone. Yes.
    Mr. Stupak. Okay. Dr. Browne, did you and the University of 
California favor the creation of the new Nuclear Security 
Administration within the Department of Energy?
    Mr. Browne. We did not take a position on it. Since we are 
a contractor to the government, our opinion was that that would 
be decided and we would abide by the law.
    Mr. Stupak. Well, did anyone from the University of 
California ever contact Members of Congress about this 
reorganization?
    Mr. Browne. Not to my knowledge.
    Mr. Stupak. No? No. Under this new agency, there will be no 
independent oversight of laboratory security or health and 
safety in environmental programs. Mr. Podonsky's group won't be 
looking at your security; nor will General Habiger. Mr. Weigand 
won't have any authority to make changes or run his integrated 
security management group.
    Nothing this committee has ever seen indicates that the 
laboratories will be responsive on any of these issues 
regarding the strong and continuing oversight from DOE. Even 
then the labs have managed to avoid making changes until forced 
to do so by some crisis.
    Who do you think will play this role in this new agency of 
enforcing to make sure that changes are being made?
    Mr. Browne. I think we don't know how this is going to be 
implemented yet. We haven't seen an implementation plan.
    I believe, if my two colleagues would probably not disagree 
with this, our expectation is that there would continue to be 
independent oversight. We don't see that as a problem. We think 
that Mr. Podonsky's function is a very valuable function for 
both us and the government.
    Mr. Robinson. I would respond that there is a much larger 
history that we haven't discussed of steps the laboratories 
take to improve security, safety, all of our work, without 
being forced to do so. But I think there has been no decision 
as to how oversight would be done by the new agency. At least 
it hasn't been communicated to me.
    Mr. Stupak. Can you provide us those things you have done 
without oversight as far as security and safety? I would really 
be interested in seeing that.
    Mr. Robinson. How many would you like? It is likely to be a 
very large volume.
    Mr. Stupak. Well, I can go all the way back to 1978 and 
start bringing in documentation when Mr. Dingell chaired the 
Commerce Committee about all the pressure we had to put on the 
labs to try to tighten security. Even during the heightened 
investigation we have here, there were letters from Democrats 
and Republicans on both sides of this, trying to ask and trying 
to get you to just do what the GAO would recommend, and they 
weren't done. I don't know if there was a pushback attitude or 
whatever happened, but it just never happened. And then we have 
this major incident here in the last year. And quite frankly, 
when we sit on this side of the bench, we don't know who to 
trust to do anything on their own, if the labs are going to do 
it properly.
    There is this culture out there and there is no 
accountability and responsibility and we are very concerned 
about it. So I would be happy to see your list and I will be 
happy to provide mine.
    Mr. Upton. Thank you. Mr. Cox.
    Mr. Cox. Thank you.
    Earlier I asked our DOE witnesses whether they wanted to 
register an objection to what the President's Foreign 
Intelligence Advisory Board said.
    They described DOE as a place with ``a dysfunctional 
management structure and a culture that only occasionally gave 
proper credence to the need for rigorous security and 
counterintelligence programs at the weapons labs.''
    Does anybody on this panel want to register a disagreement 
with that statement? Dr. Robinson?
    Mr. Robinson. I think there have been serious problems in 
the Department of Energy management. We have communicated those 
to past Secretaries. Basically, when everyone is in charge no 
one is in charge, and there was not an effective structure 
within the Department to bring differences of opinion within 
the Department itself to resolution.
    And sitting where we were as laboratories, we seem to be 
blowing with the winds of dispute between different parts of 
the Department on any given day.
    I believe that is consistent with the studies of the Galvin 
report and not out of step with the report of the Rudman 
Commission.
    Mr. Cox. The Rudman Commission, the President's Foreign 
Intelligence Advisory Board, also described the laboratories as 
possessing science at its best and security at its worst.
    Does anybody want to register an objection to that 
characterization? That was, in fact, as you know, on the cover 
of their report.
    Mr. Tarter. I think we could have a long discussion about 
aspects of that. I think--I think there are--as you have heard, 
I think there are a number of security issues. I think--some of 
the serious ones, I think, are still being, as the Rudman 
report captured, the actual magnitude of some of the possible 
security losses are still trying to be understood.
    I think the part I would disagree with, to the degree a 
single phrase captures it, I do not think, and I said that 
before this committee previously, that the vast majority of 
laboratory employees--and I can't give you a number of whether 
it is 95 percent or 99 percent of those who had access to 
national security data--I do not think--I think that personal 
security with which they guarded the information they had, I 
think they always considered one of their highest 
responsibilities. And so I think to the degree it captured a 
system characterization, we could debate that. To the degree it 
captured the opinion and perspective of the employees, I do not 
think it was an accurate characterization of how employees felt 
about guarding the security of the information they had.
    Mr. Cox. So you would prefer that we took this as a failure 
of management rather than of the employees?
    Mr. Tarter. Yes, sir.
    Mr. Cox. I think we have the right witnesses.
    Mr. Browne. I would agree with that, Mr. Cox, because the 
people--remember, the ones that were being colored with this 
same brush are the people that created the information that we 
are protecting. If anyone is going to really want to protect 
it, it is the people who create it. That was a real blow to 
them that they were being accused essentially of not caring 
about the information that they had devoted their lives to 
creating to help our country. That was really very damaging to 
morale.
    Mr. Cox. Now, on the preceding panel, Mr. Podonsky 
described to us the continuing problems at the laboratories 
with the protection of classified weapons parts.
    He mentioned that at Los Alamos he brought this to the 
attention of the laboratory in 1994; that Los Alamos received 
clear direction to fix this problem again in 1995 from both the 
Department of Energy and its field office in that year; again 
in 1996; and that in 1997, when he, Mr. Podonsky returned to 
review the progress that had been made on fixing security 
problems with classified weapons parts, he found that the 
situation, quote, remains essentially unchanged since 1994.
    Why are we here today with these same problems, hearing 
that now the problem is going to be fixed?
    Mr. Browne. Well, the problem is fixed today.
    Mr. Cox. The previous panel, as you were here and listened 
to, said it was not fixed.
    Mr. Browne. Mr. Podonsky said it is fixed. We got a 
satisfactory in the protection of our classified parts at Los 
Alamos.
    Mr. Cox. Well, when I asked him that question this morning, 
he said that in particular where it came to the inventory of 
parts, that it was on the way to being fixed but it was not 
fixed.
    Mr. Browne. I believe we did receive a satisfactory rating 
on the protection of classified parts.
    Mr. Cox. You were here for that testimony, were you not?
    Mr. Browne. Yes.
    Mr. Cox. Am I not correct that that is what Mr. Podonsky 
told me this morning under oath?
    Mr. Browne. I don't remember the details of what he said. 
Maybe Ms. Stone could clarify that statement. But I thought 
when he was talking about classified parts at Los Alamos that 
it was a progress in the past. We made significant improvements 
and were judged by the most recent audit to be satisfactory. 
That doesn't mean there aren't areas for improvement. I 
certainly agree that there are areas for improvement.
    Mr. Cox. Let's let the record speak for itself on the 
respective representations of Dr. Browne as the head of the lab 
and Mr. Podonsky as the inspector.
    Mr. Browne. Okay.
    Ms. Stone. May I interrupt?
    Mr. Cox. Sure.
    Ms. Stone. I work for Glenn Podonsky. Just to clarify 
Glenn's point on this, one of the things that we have to 
remember about these fixes to these problems is that many of 
the sites are implementing what they call compensatory 
measures. The compensatory measures are normally a very 
resource-intensive and very high-cost, short-term fix, kind of 
a Band-Aid that's put on things while you work to a longer-term 
solution for the problem.
    I think we are getting into somewhat of a difference in 
terminology where, yes, we found the program to be satisfactory 
but there still remains some things to be done before those 
longer-term items are actually fully implemented.
    Mr. Browne. The longer-term items would require line item 
construction of vaults and vaulted rooms, and those that are 
multiyear-type of activities. In the meantime, we have 
increased the number of protective forces by about 25 percent, 
and we have increased the time frequency of patrols to make 
sure this material is guarded appropriately. It is behind a 
fence and it is locked in buildings. It is just not vaulted 
buildings like you would prefer to have for such parts.
    Mr. Cox. So stipulating, if we might, to the essential 
accuracy of what Ms. Stone has just told us, and if that 
bridges the gap between Mr. Podonsky and yourself----
    Mr. Browne. Correct.
    Mr. Cox. [continuing] as to where we are today in October 
1999, why did it take until now, inasmuch as this iterative 
process had Mr. Podonsky personally going back to Los Alamos 
between 1994 and 1997 on an annual basis and finding nothing 
happened?
    Mr. Browne. Although I wasn't in charge until----
    Mr. Cox. I know you have only been there 2 years.
    Mr. Browne. Let me tell you what I know about the period; 
what I understand, what I have been told, is there were within 
the Department disagreements about how best to fix this.
    Mr. Podonsky is an oversight function. He makes excellent 
recommendations on how to improve things. Those resources that 
have to be applied to the problem sometimes--and I think this 
was in this case a discussion within the Department about how 
best to solve this problem. Now, you might ask the question, 
why didn't Los Alamos just go out and fix it? Because we have 
been asked that question many times during this hearing. And 
when you are talking about millions of dollars of commitment of 
resources, we really believe it is important for a contractor 
like ourselves to have some direct guidance from the government 
to spend that level of resources.
    We are talking about $2.5 million or $3 million a year just 
in incremental costs for the protective forces. So during that 
time period it is my understanding that there was a lack of 
agreement on how best to fix the problems that were identified 
by Mr. Podonsky.
    Mr. Cox. Dr. Robinson, you look as if you want to respond 
also.
    Mr. Robinson. The characterization of security at its worst 
is a broad statement and covers a lot of areas. I would not 
agree that all of our security would fit such a categorization.
    I am confident some of the areas of our security are, at 
its best, not only best in DOE but against any other part of 
the government. And so I think you have to be careful to 
dissect exactly what is being discussed. With the area of these 
investigations, our philosophy in security has always been a 
layered set of protections; that if one area fails, you now 
have additional areas that would serve as protection and you 
are trying to stack them up so that you never get a case of all 
systems failing.
    And when we are judged, the things that are reported are 
problems in a particular layer, not a failure of all of the 
layers, and that's very important to focus on.
    Mr. Cox. Dr. Tarter, I wonder if I might ask you about the 
earlier testimony that we had from Mr. Podonsky concerning the 
reduction almost by half in the guard force at Superblock.
    Mr. Tarter. Right. If I need to get precise dates, I either 
would like to do them for the record or from the people in back 
of me, and Dr. Turner might wish to comment on this also, but 
during a period in the nineties, and again I am not going to 
be--let me go ahead and do the statement and then----
    Mr. Cox. Well, at least according to Mr. Podonsky, from 
1995----
    Mr. Tarter. That's correct.
    Mr. Cox. [continuing] to 1997, the guard force for----
    Mr. Tarter. Was reduced.
    Mr. Cox. [continuing] for Superblock was reduced by almost 
half?
    Mr. Tarter. Let me give the general sense and then perhaps 
the--one of the things we did with the agreement at the time, 
at least of the Department of Energy operations offices, was to 
use local law enforcement as a surge force to handle much of 
the special response team actions, and that was driven by the 
fact that we thought we could do the job and we reached an 
agreement to do the job at a reduced cost by bringing in, in 
our particular area, the Alameda County Sheriff's Department 
who were trained with us to do the response.
    So we believed that that was the appropriate way to meet 
the threat, as we understood it, to the Superblock at that 
time.
    We also, I think, and again I need more details from the 
people in direct charge, but I think we kept the security high 
at the Superblock and we balanced the area with people in the 
local law enforcement, again in a surge capacity in the case of 
an incident.
    Much of the addition has been--recently has been that, in 
fact, it was viewed as no longer an adequate response set of 
measures and therefore we began some time ago to rehire our own 
special response team personnel to make them always there 
onsite. Dr. Turner.
    Mr. Cox. Is that because the threat has changed between now 
and 1997?
    Mr. Turner. Could I just add, I think it is because the 
Department strategy has changed. The point is that in the 1995/
1996 timeframe, the Department's strategy was containment. And 
so in that, using the available forces onsite, as well as the 
local law enforcement, we were able to accomplish that mission.
    Then the strategy changed to recapture recovery. And so we 
had to--so that--you know, what was sufficient for a 
containment strategy was now not sufficient for the new 
strategy of recapture recovery.
    Subsequently, the strategy has now changed to denial, which 
again has, you know--as the strategy changes, then your force 
structure, your composition, how they are deployed, your time 
lines, all of those things change.
    So the laboratory has been working, you know, to 
accommodate those changes and bringing on--now they have 
brought on significant numbers of new guards. There is going to 
be another class that's going to be completed in December.
    I think the point--you know, that's--you are only getting 
half the story when you get the raw numbers. Those raw 
numbers----
    Mr. Cox. Just to make sure that we all understand on the 
panel, if you go from containment to recapture to denial, you 
are steadily increasing your security; is that right?
    Mr. Turner. Absolutely.
    Mr. Cox. So what you are saying is that our standards in 
1999 are higher than our standards were in 1997?
    Mr. Turner. Absolutely. So that the numbers of people----
    Mr. Cox. Why is that? Is that because the real world threat 
is different in 1999 than it was in 1997? What we are talking 
about at Superblock is protecting the actual nuclear materials, 
right?
    Mr. Turner. Yes.
    Mr. Cox. So this is the most significant security function 
you have got?
    Mr. Turner. Yes.
    Mr. Cox. Do we think that the nuclear materials are subject 
to different levels of threat in 1999 than they were in 1997?
    Mr. Turner. Well, frankly, you know, we don't participate 
directly in developing the design basis threat.
    Mr. Cox. All right. So somebody around here, we don't know 
who, is changing their assessment of just how much security we 
need for the nuclear weapons material and it was higher in 1995 
than it was in 1997 and now it is higher in 1999 than it was in 
1997.
    Mr. Turner. Okay. It was higher in 1997 than it was in 
1995, and it is higher again in 1999.
    Mr. Cox. No, no, no, no, that's not what we heard this 
morning. What we heard was that between 1995 and 1997, we 
actually reduced significantly the guard force.
    Mr. Turner. Because the strategy then was containment.
    Mr. Cox. I understand. We had a different strategy, but we 
also had less security.
    Mr. Turner. We had--we had adequate security to meet that 
strategy, to meet that threat. And then as the threat and the 
strategy----
    Mr. Cox. The threat is a constant?
    Mr. Turner. No, the threat is not a constant.
    Mr. Tarter. Let me give you an example, sir.
    Mr. Cox. I invited somebody to tell me that the threat was 
different in 1997 than 1999. Was the threat different in 1997 
than 1999?
    Mr. Robinson. Yes.
    Mr. Cox. Why?
    Mr. Robinson. But we need to give you a classified answer.
    Mr. Cox. All right. Let's do it.
    Mr. Upton. We have to vote on it.
    Mr. Cox. Didn't we vote earlier that we could now go on to 
classified?
    Mr. Upton. We did not have 10 members here so we did not do 
that.
    Mr. Cox. I see.
    Mr. Upton. We could get it in writing.
    Mr. Tarter. This is not--the direct answer to your 
question, as Paul said, we would have to do that in a closed 
session. But I think General Habiger this morning mentioned an 
issue which he perceived to be a changing threat for the 
future, which we have not yet----
    Mr. Cox. I understand that.
    Mr. Tarter. But the chemical and biological issues, I 
think, are new and whether we put personnel in place to train 
personnel in those responses, I think, is an ongoing issue, and 
that is a change.
    Mr. Turner. I think, too, I think it is important to 
recognize that in security you have an adversary that grows 
stronger every day, and so your capability cannot just be 
static.
    Mr. Cox. Well, that's why I am particularly interested in 
the diminution, the reduction in the force between 1995 and 
1997. The guard force was cut by almost half.
    Ms. Stone, do you want to comment on this?
    Ms. Stone. The design basis threat is a classified 
document, but is reassessed on an annual basis. From an 
independent oversight perspective, we see the changes in the 
strategy really being driven by the changes in material inside 
those areas as opposed--relying more significantly than the 
changes to the threat.
    Yes, there have been some changes in the threat from year 
to year, but our perspective is that it is the actual, you 
know, either movement of material from one site to another that 
really drive those significant changes in strategy.
    Mr. Cox. Now, when I asked Mr. Podonsky earlier in the day 
whether he thought that it was wise to make the changes between 
1995 and 1997 that were made, he said, no, he didn't think it 
was wise at all.
    Is that your sense as well?
    Ms. Stone. Yes.
    Mr. Cox. And why?
    Ms. Stone. To be able to put that much reliance on local 
law enforcement that really has a limited understanding of DOE, 
that has a limited amount of abilities, is really expecting a 
lot of these people that do not have responsibility for the 
material themselves.
    Mr. Cox. But now what we saw in the foreign launch 
situation was that the Department of Defense, not the 
Department of Energy, decided to rely upon rent-a-cops, as it 
happened, private security guards that were hired not by the 
Department of Defense but by the private commercial satellite 
manufacturers, who told us in our congressional investigations 
that security was--one of them said security was ninth on our 
list of priorities.
    So we had Pinkerton guards providing what turned out to be 
wholly inadequate coverage of our national security mission, 
and here we are relying upon the Alameda County Sheriff's 
Department compensate for the diminution in the guard force 
after 1995.
    Isn't that essentially what we are talking about?
    Ms. Stone. Right. It wasn't solely relying on the Alameda 
County Sheriff's Department; it was supplemented by. So there 
were still some number.
    Mr. Cox. Did the sheriff's department move people over to 
the labs?
    Ms. Stone. No.
    Mr. Turner. No, but they were----
    Mr. Cox. How long would it take them to get there?
    Mr. Mortensen. May I answer that?
    Mr. Cox. Let me ask Ms. Stone.
    Ms. Stone. It took more time than I think folks imagined 
for them to get there, or had hoped for them to get there, and 
that's probably all I should really say in this forum.
    Mr. Cox. All right. Well, I do think we need to get answers 
in another setting.
    Dr. Turner.
    Mr. Turner. Could I just add, how this unfolded was that 
there was some concern about whether the--first of all, this is 
a swat team from the Alameda County Sheriff's so this isn't 
just any old--I mean, these aren't traffic cops or people 
behind a desk. And there was some concern about whether they 
could meet the time lines or not. And so what was agreed to by 
Defense Programs, by the field and by headquarters, was that we 
would run some performance tests back in the 1997 timeframe and 
we would live by the results of those tests.
    As a result of those performance tests, it was agreed that 
as--you know, with the new strategy and with the response times 
that the swat team could answer, that it was not adequate; and 
we moved immediately to, again, abide by the commitment to--to 
abide by those results and move immediately to hire more 
guards.
    Mr. Cox. All right. I think the lights are off altogether, 
so I don't know whether I have a green light or a red light or 
an amber light, but I am getting the sense that I am stretching 
the limits of goodwill here from the chairman to continue 
asking questions.
    What I asked the earlier panel is whether or not they would 
be willing to provide responses to the committee's follow-up 
questions, and I hope that we will be able to do that as well, 
Mr. Chairman.
    Mr. Upton. We will.
    Mr. Cox. Let me just say in conclusion--because we have had 
a chance in other fora to, most of us, to talk about these 
issues before--that I think you are right as leaders of your 
organizations to parse out the responsibilities of management 
on the one hand and the employees of the labs on the other 
hand.
    I don't think there is any question at all that we have the 
best and the brightest at our labs. We want to keep recruiting 
them and we want to continue to retain them. And I think 
everybody in Congress, on both sides of the aisle, counts 
themselves as fans of the laboratories and their important 
national security and other national missions.
    So what we are trying to do here is necessarily accomplish 
our security objective at the same time as we try to keep 
people happy in the organization, because security is a central 
function, if not the central function of our national 
laboratories.
    It is unfortunate that over a period of so many years, 
these questions have not only gone unaddressed but in some 
cases have proliferated, and we have more problems rather than 
fewer; and it is especially unfortunate that as you sit here 
today and tell us that things are going to be okay, and we have 
every reason to believe you and we want to believe you, that we 
have a track record of people telling us in the past that 
things were going to be okay when they turned out not to be.
    So there's a credibility problem for the Department of 
Energy and derivatively for the laboratories that we have to 
deal with. And I think that to the extent that management takes 
this on its own shoulders and says that, maybe in Dr. Browne's 
case, ``I wasn't there but it is still my responsibility,'' but 
for everybody else here, ``We were there and things should not 
have been run this way and we are going to change it because it 
is unacceptable,'' I think that will give us a high level of 
confidence.
    We know that you need to be defensive about attacks on the 
laboratories' integrity, but Congress isn't interested in 
attacking the integrity of the laboratories. We are interested 
in ensuring that there is security at the laboratories. And I 
think when we listen to Ed Curran or when we hear General 
Habiger tell us this morning that you all received an 
appropriate wake-up call this past year with the uncovering of 
internal security problems in the publication of both the Cox 
and Rudman reports, and when he says that your Department of 
Energy has an historical track record of security deficiencies, 
for that purpose the labs have to own up to the fact that you 
are all part of the Department of Energy, too. And I understand 
that if we reorganize the Department of Energy and get security 
as a central focus, an exclusive focus in a new NNSA, that that 
might make your jobs easier and make your life better and that 
the dysfunction within DOE itself, external to the labs, has 
made your jobs unnecessarily difficult in the past.
    It is also true, though, that you are very important 
national leaders and so we look to you folks to fix these 
problems directly, even if DOE is actually in your way, as has 
obviously been the case many times in the past.
    So we are on your side. We are trying to make sure the job 
gets done, because it hasn't been done in the past, and we 
certainly hope we are not back here again next year.
    Thanks, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Cox.
    I want to say we appreciate your work, particularly as co-
chair with Mr. Dicks, on bringing this to light. This is not an 
easy topic, and for most of us it doesn't involve things in our 
own district. We don't have a background in this.
    Mr. Stupak, I know, does have a law enforcement background, 
but this is new ground for a lot of us, and we appreciate your 
testimony. We appreciate your commitment. We want to make sure, 
absolutely sure, that the comfort level that all of us on this 
committee have is that your job--that you have not only the 
sufficient resources but you are doing the necessary job to 
make sure that these labs are run well and they are secure, and 
we appreciate the members that were here present. We will 
probably send some questions on to you for you to respond to.
    We also appreciate the staff that have walked us through a 
number of questions and have done their homework. This is an 
issue that is not going to go away and we want to make sure, 
though the horse may be out of the barn in some cases, we want 
to make sure that that door is locked and it will not happen 
again.
    For that reason, I think the chances are pretty likely that 
we will see a delegation from this subcommittee visit some of 
your labs early next year, and we appreciate the assistance and 
constructive views that you have had and look forward to that 
as the days unfold.
    So with that, this hearing is adjourned. Thank you very 
much.
    [Whereupon, at 2:40 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED]61036.025
    
    [GRAPHIC] [TIFF OMITTED]61036.026
    
    [GRAPHIC] [TIFF OMITTED]61036.027
    
    [GRAPHIC] [TIFF OMITTED]61036.028
    
    [GRAPHIC] [TIFF OMITTED]61036.029
    
    [GRAPHIC] [TIFF OMITTED]61036.030
    
    [GRAPHIC] [TIFF OMITTED]61036.031
    
    [GRAPHIC] [TIFF OMITTED]61036.032
    
    [GRAPHIC] [TIFF OMITTED]61036.033
    
    [GRAPHIC] [TIFF OMITTED]61036.034
    
    [GRAPHIC] [TIFF OMITTED]61036.035
    
    [GRAPHIC] [TIFF OMITTED]61036.036
    
    [GRAPHIC] [TIFF OMITTED]61036.037
    
    [GRAPHIC] [TIFF OMITTED]61036.038
    
    [GRAPHIC] [TIFF OMITTED]61036.039
    
    [GRAPHIC] [TIFF OMITTED]61036.040
    
    [GRAPHIC] [TIFF OMITTED]61036.041
    
    [GRAPHIC] [TIFF OMITTED]61036.042
    
    [GRAPHIC] [TIFF OMITTED]61036.043
    
    [GRAPHIC] [TIFF OMITTED]61036.044
    
    [GRAPHIC] [TIFF OMITTED]61036.045
    
    [GRAPHIC] [TIFF OMITTED]61036.046
    
    [GRAPHIC] [TIFF OMITTED]61036.047
    
    [GRAPHIC] [TIFF OMITTED]61036.048
    
    [GRAPHIC] [TIFF OMITTED]61036.049
    
    [GRAPHIC] [TIFF OMITTED]61036.050
    
    [GRAPHIC] [TIFF OMITTED]61036.051
    
    [GRAPHIC] [TIFF OMITTED]61036.052
    
    [GRAPHIC] [TIFF OMITTED]61036.053
    
    [GRAPHIC] [TIFF OMITTED]61036.054
    
    [GRAPHIC] [TIFF OMITTED]61036.055
    
    [GRAPHIC] [TIFF OMITTED]61036.056
    
    [GRAPHIC] [TIFF OMITTED]61036.057
    
    [GRAPHIC] [TIFF OMITTED]61036.058
    
    [GRAPHIC] [TIFF OMITTED]61036.059
    
    [GRAPHIC] [TIFF OMITTED]61036.060
    
    [GRAPHIC] [TIFF OMITTED]61036.061
    
    [GRAPHIC] [TIFF OMITTED]61036.062
    
    [GRAPHIC] [TIFF OMITTED]61036.063
    
    [GRAPHIC] [TIFF OMITTED]61036.064
    
    [GRAPHIC] [TIFF OMITTED]61036.065
    
    [GRAPHIC] [TIFF OMITTED]61036.066
    
    [GRAPHIC] [TIFF OMITTED]61036.067
    
    [GRAPHIC] [TIFF OMITTED]61036.068
    
    [GRAPHIC] [TIFF OMITTED]61036.069
    
    [GRAPHIC] [TIFF OMITTED]61036.070
    
    [GRAPHIC] [TIFF OMITTED]61036.071
    
    [GRAPHIC] [TIFF OMITTED]61036.072
    
    [GRAPHIC] [TIFF OMITTED]61036.073
    
    [GRAPHIC] [TIFF OMITTED]61036.074
    
    [GRAPHIC] [TIFF OMITTED]61036.075
    
    [GRAPHIC] [TIFF OMITTED]61036.076
    
    [GRAPHIC] [TIFF OMITTED]61036.077
    
    [GRAPHIC] [TIFF OMITTED]61036.078
    
    [GRAPHIC] [TIFF OMITTED]61036.079
    
    [GRAPHIC] [TIFF OMITTED]61036.080
    
    [GRAPHIC] [TIFF OMITTED]61036.081
    
    [GRAPHIC] [TIFF OMITTED]61036.082
    
    [GRAPHIC] [TIFF OMITTED]61036.083
    
    [GRAPHIC] [TIFF OMITTED]61036.084
    
    [GRAPHIC] [TIFF OMITTED]61036.085
    
    [GRAPHIC] [TIFF OMITTED]61036.086
    
    [GRAPHIC] [TIFF OMITTED]61036.087
    
    [GRAPHIC] [TIFF OMITTED]61036.088
    
    [GRAPHIC] [TIFF OMITTED]61036.089
    
    [GRAPHIC] [TIFF OMITTED]61036.090
    
    [GRAPHIC] [TIFF OMITTED]61036.091
    
    [GRAPHIC] [TIFF OMITTED]61036.092
    
    [GRAPHIC] [TIFF OMITTED]61036.093
    
    [GRAPHIC] [TIFF OMITTED]61036.094
    
    [GRAPHIC] [TIFF OMITTED]61036.095
    
    [GRAPHIC] [TIFF OMITTED]61036.096
    
    [GRAPHIC] [TIFF OMITTED]61036.097
    
    [GRAPHIC] [TIFF OMITTED]61036.098
    
    [GRAPHIC] [TIFF OMITTED]61036.099
    
    [GRAPHIC] [TIFF OMITTED]61036.100
    
    [GRAPHIC] [TIFF OMITTED]61036.101
    
    [GRAPHIC] [TIFF OMITTED]61036.102
    
    [GRAPHIC] [TIFF OMITTED]61036.103
    
    [GRAPHIC] [TIFF OMITTED]61036.104
    
    [GRAPHIC] [TIFF OMITTED]61036.105
    
    [GRAPHIC] [TIFF OMITTED]61036.106
    
    [GRAPHIC] [TIFF OMITTED]61036.107
    
    [GRAPHIC] [TIFF OMITTED]61036.108
    
    [GRAPHIC] [TIFF OMITTED]61036.109
    
    [GRAPHIC] [TIFF OMITTED]61036.110
    
    [GRAPHIC] [TIFF OMITTED]61036.111
    
    [GRAPHIC] [TIFF OMITTED]61036.112
    
    [GRAPHIC] [TIFF OMITTED]61036.113
    
    [GRAPHIC] [TIFF OMITTED]61036.114
    
    [GRAPHIC] [TIFF OMITTED]61036.115
    
    [GRAPHIC] [TIFF OMITTED]61036.116
    
    [GRAPHIC] [TIFF OMITTED]61036.117
    
    [GRAPHIC] [TIFF OMITTED]61036.118
    
    [GRAPHIC] [TIFF OMITTED]61036.119
    
    [GRAPHIC] [TIFF OMITTED]61036.120
    
    [GRAPHIC] [TIFF OMITTED]61036.121
    
    [GRAPHIC] [TIFF OMITTED]61036.122
    
    [GRAPHIC] [TIFF OMITTED]61036.123
    
    [GRAPHIC] [TIFF OMITTED]61036.124
    
    [GRAPHIC] [TIFF OMITTED]61036.125
    
    [GRAPHIC] [TIFF OMITTED]61036.126
    
    [GRAPHIC] [TIFF OMITTED]61036.127
    
    [GRAPHIC] [TIFF OMITTED]61036.128
    
    [GRAPHIC] [TIFF OMITTED]61036.129
    
    [GRAPHIC] [TIFF OMITTED]61036.130
    
    [GRAPHIC] [TIFF OMITTED]61036.131
    
    [GRAPHIC] [TIFF OMITTED]61036.132
    
    [GRAPHIC] [TIFF OMITTED]61036.133
    
    [GRAPHIC] [TIFF OMITTED]61036.134
    
    [GRAPHIC] [TIFF OMITTED]61036.135
    
    [GRAPHIC] [TIFF OMITTED]61036.136
    

</pre></body></html>
